TABLE OF CONTENTS
Appendices
A. D.C. Circuit Opinion, Apr. 1, 2019 ........... A1-A97
B. Final Rule, Bump-Stock-Type Devices,
83 Fed. Reg. 66,514, Dec. 26, 2018
(Excerpts) ................................................... B1-B68
C. District Court for the District of
Columbia Memorandum Opinion,
February 25, 2019 ..................................... C1-C81
D. D.C. Circuit Judgment, Apr. 1, 2019 ......... D1-D3
E. D.C. Circuit Order dismissing appeal
No. 19-5043, March 23, 2019 ...................... E1-E2

APPENDIX A
920 F.3d 1
United States Court of Appeals,
District of Columbia Circuit.
Damien GUEDES, et al., Appellants
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS
AND EXPLOSIVES, et al., Appellees
No. 19-5042
Consolidated with 19-5044
Argued March 22, 2019
Decided April 1, 2019
Before: Henderson, Srinivasan and Millett, Circuit
Judges.
Opinion
Opinion concurring in part and dissenting in part
filed by Circuit Judge Henderson.
Per Curiam:
*6 In October 2017, a lone gunman armed with
bump-stock-enhanced semiautomatic weapons murdered 58 people and wounded hundreds more in a
mass shooting at a concert in Las Vegas, Nevada. In
the wake of that tragedy, the Bureau of Alcohol, Tobacco, Firearms and Explosives (“Bureau”) promulgated through formal notice-and-comment proceedings a rule that classifies bump-stock devices as machine guns under the National Firearms Act, 26
(A1)

A2

U.S.C. §§ 5801–5872. See Bump-Stock-Type Devices,
83 Fed. Reg. 66,514 (Dec. 26, 2018) (“Bump-Stock
Rule”). The then-Acting Attorney General Matthew
Whitaker initially signed the final Bump-Stock Rule,
and Attorney General William Barr independently
ratified it shortly after taking office. Bump-stock
owners and advocates filed separate lawsuits in the
United States District Court for the District of Columbia to prevent the Rule from taking effect. The
district court denied the plaintiffs’ motions for a preliminary injunction to halt the Rule’s effective date.
Guedes v. Bureau of Alcohol, Tobacco, Firearms, and
Explosives, 356 F.Supp.3d 109 (D.D.C. 2019). We affirm the denial of preliminary injunctive relief.
I
A
The National Firearms Act (i) regulates the production, dealing in, possession, transfer, import, and
export of covered firearms; (ii) creates a national firearms registry; and (iii) imposes taxes on firearms importers, manufacturers, and dealers, as well as specified transfers of covered firearms. 26 U.S.C. §§ 5801–
5861. Failure to comply with the National Firearms
Act’s requirements results in penalties and forfeiture,
and subjects the violator to the general enforcement
measures available under the internal revenue laws.
Id. §§ 5871–5872.
The firearms subject to regulation and registration
under the National Firearms Act include “ma-

A3

chinegun[s].” 26 U.S.C. § 5845(a).1 The statute defines a “machinegun” as “any weapon which shoots, is
designed to shoot, or can be readily restored to shoot,
automatically more than one shot, without manual
reloading, by a single function of the trigger.” 26
U.S.C. § 5845(b). *7 The definition also covers “the
frame or receiver of any such weapon,” as well as
“any part” or “combination of parts designed and intended, for use in converting a weapon into a machinegun,” and “any combination of parts from which
a machinegun can be assembled” as long as those
“parts are in the possession or under the control of a
person.” Id.
Congress expressly charged the Attorney General
with the “administration and enforcement” of the National Firearms Act, 26 U.S.C. § 7801(a)(1), (a)(2)(A),
and provided that the Attorney General “shall prescribe all needful rules and regulations for the enforcement of” the Act,” id. § 7805; see id.
§ 7801(a)(2)(A).
The Gun Control Act of 1968, 18 U.S.C. § 921 et
seq., as amended by the Firearm Owners’ Protection
Act, Pub. L. No. 99-308, 100 Stat. 449 (1986), imposes
both a regulatory licensing scheme and criminal prohibitions on specified firearms transactions. See 18
U.S.C. § 923 (licensing scheme); id. § 922 (criminal
prohibitions). The Gun Control Act incorporates by
reference the definition of machine gun in the National Firearms Act, 26 U.S.C. § 5845(b). See 18
U.S.C. § 921(a)(23). The Gun Control Act also ex1 Except when quoting sources, we use the two-word spelling
of machine gun.

A4

pressly delegates administrative and rulemaking authority to the Attorney General to “prescribe only
such rules and regulations as are necessary to carry
out the provisions of this chapter.” Id. § 926(a).
The Attorney General has delegated the responsibility for administering and enforcing the National
Firearms Act and the Gun Control Act to the Bureau.
See 28 C.F.R. § 0.130(a).
B
1
Machine guns are generally prohibited by federal
law. See 18 U.S.C. § 922(o). On the other hand, many
firearms that require a distinct pull of the trigger to
shoot each bullet are lawful. See generally id. § 922;
26 U.S.C. § 5845.
A “bump stock” is a device that replaces the
standard stationary stock of a semiautomatic rifle—
the part of the rifle that typically rests against the
shooter’s shoulder—with a non-stationary, sliding
stock that allows the shooter to rapidly increase the
rate of fire, approximating that of an automatic
weapon. 83 Fed. Reg. at 66,516. A bump stock does so
by channeling and directing the recoil energy from
each shot “into the space created by the sliding stock
(approximately 1.5 inches) in constrained linear
rearward and forward paths.” Id. at 66,518. In so doing, the bump stock “harnesses the firearm’s recoil
energy as part of a continuous back-and-forth cycle
that allows the shooter to attain continuous firing”
following a single pull of the trigger. Id. at 66,533.
That design allows the shooter, by maintaining constant backward pressure on the trigger as well as

A5

forward pressure on the front of the gun, to fire bullets continuously and at a high rate of fire to “mimic”
the performance of a fully automatic weapon. Id. at
66,516.
Exercising his regulatory authority, the Attorney
General first included a bump-stock type device within the statutory definition of “machinegun” in 2006.
See ATF Ruling 2006-2; see also Akins v. United
States, 312 F. App’x 197, 199 (11th Cir. 2009) (summary order). In later years, some other bumpstock
devices were not categorized as machine guns. 83
Fed. Reg. at 66,514.
2
On October 1, 2017, a shooter used multiple semiautomatic rifles equipped with bump stocks to fire
several hundred rounds of ammunition into a crowd
of concert *8 attendees within a roughly ten-minute
span of time. The “ ‘rapid fire’ operation” of the shooter’s weapons enabled by the bump stocks left 58 dead
and approximately 500 wounded. 83 Fed. Reg. at
66,516.
The Las Vegas massacre prompted an immediate
outcry from the public and members of Congress. See
Guedes, 356 F.Supp.3d at 120, 123. In response, President Trump “direct[ed] the Department of Justice, *
* * as expeditiously as possible, to propose for notice
and comment a rule banning all devices that turn legal weapons into machineguns.” Application of the
Definition of Machinegun to “Bump Fire” Stocks and
Other Similar Devices, 83 Fed. Reg. 7,949, 7,949
(Feb. 20, 2018). The Bureau then revisited the status
of bump stocks and addressed the variation in its pri-

A6

or positions. 83 Fed. Reg. at 66,516–66,517. On
March 29, 2018, then-Attorney General Sessions issued a Notice of Proposed Rulemaking that suggested
“amend[ing] the Bureau of Alcohol, Tobacco, Firearms, and Explosives regulations to clarify that
[bumpstock-type devices] are ‘machineguns’ ” under
26 U.S.C. § 5845(b). See Bump-Stock-Type Devices,
83 Fed. Reg. 13,442 (March 29, 2018).
The Bureau promulgated its final rule on December 26, 2018. With respect to the statutory definition
of machine gun, the Bump-Stock Rule provided that
the National Firearms Act’s use of “the term ‘automatically’ as it modifies ‘shoots, is designed to shoot,
or can be readily restored to shoot,’ ” 26 U.S.C.
§ 5845(b), “means functioning as the result of a selfacting or self-regulating mechanism that allows the
firing of multiple rounds through a single function of
the trigger.” 83 Fed. Reg. at 66,553–66,554 (codified
at 27 C.F.R. §§ 447.11, 478.11, 479.11). The Rule further defined “single function of the trigger,” 26 U.S.C.
§ 5845(b), to mean “a single pull of the trigger and
analogous motions.” 83 Fed. Reg. at 66,553–66,554
(codified at 27 C.F.R. §§ 447.11, 478.11, 479.11).
In light of those definitions, the Bump-Stock Rule
concluded that the statutory term “ ‘machinegun’ includes a bump-stock-type device”—that is, “a device
that allows a semiautomatic firearm to shoot more
than one shot with a single pull of the trigger by harnessing the recoil energy of the semiautomatic firearm to which it is affixed so that the trigger resets
and continues firing without additional physical manipulation of the trigger by the shooter.” 83 Fed. Reg.

A7

at 66,553–66,554 (codified at 27 C.F.R. §§ 447.11,
478.11, 479.11).
In adopting the Bump-Stock Rule, the Bureau relied on both the “plain meaning” of the statute and
the agency’s charge to implement the National Firearms Act and the Gun Control Act. 83 Fed. Reg. at
66,527 (citing and invoking Chevron, U.S.A. v. Natural Res. Def. Council, 467 U.S. 837, 104 S.Ct. 2778, 81
L.Ed.2d 694 (1984) ). The Bureau explained that the
Bump-Stock Rule both “accord[s] with the plain
meaning” of the statute, and “rests on a reasonable
construction of” any “ambiguous” statutory terms. Id.
In the Bureau’s view, by not further defining the
terms “automatically” and “single function of the
trigger,” Congress “left it to the [Attorney General] to
define [them] in the event those terms are ambiguous.” Id. (citing Chevron, 467 U.S. at 844, 104 S.Ct.
2778); see also id. at 66,515 (citing delegations of regulatory authority under 26 U.S.C. §§ 7801(a)(2)(A),
7805(a), and 18 U.S.C. § 926(a)).
The Bureau was explicit that the Bump-Stock Rule
would only become “effective” on March 26, 2019,
ninety days after promulgation. 83 Fed. Reg. at
66,514. The Bureau further assured that individuals
would be subject to “criminal liability only for possessing bump-stock-type devices after *9 the effective
date of regulation, not for possession before that
date.” Id. at 66,525; see also id. (providing that the
Rule “criminalize[s] only future conduct, not past
possession of bump-stock-type devices that ceases by
the effective date”); id. at 66,539 (“To the extent that
owners timely destroy or abandon these bumpstocktype devices, they will not be in violation of the

A8

law[.]”). Bump-stock owners were directed to destroy
their devices or leave them at a Bureau office by
March 26, 2019. Id. at 66,514.
Although most of the rulemaking process occurred
during the tenure of Attorney General Jefferson Sessions, he resigned his office on November 7, 2018.
The President then invoked the Federal Vacancies
Reform Act of 1998 (“Reform Act”), 5 U.S.C.
§ 3345(a)(3), to designate Matthew Whitaker, who
had been Sessions’ chief of staff, “to perform the functions and duties of the office of Attorney General, until the position is filled by appointment or subsequent
designation.” Memorandum from President Donald
Trump to Matthew George Whitaker, Chief of Staff,
Department of Justice (Nov. 8, 2018), J.A. 277. The
final Bump-Stock Rule was signed by then-Acting Attorney General Whitaker. Whitaker served as the
Acting Attorney General for 98 days, until William
Barr was sworn in as the Attorney General on February 14, 2019. See Bump-Stock-Type Devices, 84
Fed. Reg. 9,239, 9,240 (March 14, 2019).
On March 11, 2019, Attorney General Barr announced that he had “independently reevaluate[d]”
the Bump-Stock Rule and the “underlying rulemaking record.” 94 Fed. Reg. at 9,240. “[H]aving reevaluated those materials without any deference to [Whitaker’s] earlier decision,” Attorney General Barr “personally c[a]me to the conclusion that it is appropriate
to ratify and affirm the final rule,” and did so. Id.
C
Three groups of bump-stock owners and advocates
filed suit in the United States District Court for the

A9

District of Columbia to prevent the Bump-Stock Rule
from taking effect. See Damien Guedes v. Bureau of
Alcohol, Tobacco, Firearms, and Explosives, No. 18cv-2988; David Codrea v. William P. Barr, No. 18-cv3086; Firearms Policy Coalition, Inc. v. William P.
Barr, No. 18-cv-3083. As relevant here, the Guedes
plaintiffs (“Guedes”) and the Codrea plaintiffs
(“Codrea”) argued that the Bureau promulgated the
Bump-Stock Rule in violation of the Administrative
Procedure Act, 5 U.S.C. § 500 et seq. Also, the Firearms Policy Coalition (“Coalition”) and Codrea argued that Acting Attorney General Whitaker lacked
the legal authority to promulgate the Rule because
his designation as Acting Attorney General violated
the Attorney General Act, 28 U.S.C. § 508, and the
Appointments Clause of the Constitution, Article II,
Section 2, Clause 2.
The district court denied all three motions for a
preliminary injunction. Guedes, 356 F.Supp.3d at
119. The district court concluded that Guedes,
Codrea, and the Coalition had not demonstrated a
likelihood of success on the merits. The court first
held that “[m]ost of the plaintiffs’ administrative law
challenges are foreclosed by the Chevron doctrine,”
and the Rule “adequately explained” the agency’s decision to classify bump-stock-type devices as machine
guns. Id. at 120. As to the challenges to Whitaker’s
authority, the district court held that the Reform Act
permits the President to deviate from the line of succession that the Attorney General Act provides, subject to certain statutory limitations that indisputably
were satisfied with Whitaker’s appointment. Guedes,
356 F.Supp.3d at 120–121. The court also rejected the

A10

Coalition’s and Codrea’s Appointments *10 Clause
challenge as “foreclosed by Supreme Court precedent
and historical practice.” Id. at 121.
Guedes, Codrea, and the Coalition all appealed.
But none of them sought a stay or an injunction
pending appeal. They chose instead to seek highly
expedited disposition, which this court granted.
While the appeal was pending, Attorney General
Barr ratified and individually endorsed the final
Bump-Stock Rule. At the post-argument request of
the Coalition, we voluntarily dismissed its appeal.
Order, Guedes v. Bureau of Alcohol, Tobacco, Firearms, and Explosives, No. 19-5042, 2019 WL 1398194
(March 23, 2019) (per curiam). But because Codrea
presses the same challenge to Whitaker’s authority to
promulgate the Rule as the Coalition had raised,
Codrea Br. 20–21, that issue remains before us in reviewing the district court’s denial of a preliminary injunction.
II
A preliminary injunction is “an extraordinary
remedy that may only be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter
v. Natural Res. Def. Council, Inc., 555 U.S. 7, 22, 129
S.Ct. 365, 172 L.Ed.2d 249 (2008). The plaintiffs bear
the burden of persuasion in seeking preliminary relief. Cobell v. Norton, 391 F.3d 251, 258 (D.C. Cir.
2004). Specifically, Guedes and Codrea must establish that: (1) they are “likely to succeed on the merits”; (2) they are “likely to suffer irreparable harm in
the absence of preliminary relief”; (3) the “balance of
equities” tips in their favor; and (4) “an injunction is

A11

in the public interest.” Winter, 555 U.S. at 20, 129
S.Ct. 365; accord Aamer v. Obama, 742 F.3d 1023,
1038 (D.C. Cir. 2014). The last two factors “merge
when the Government is the opposing party.” Nken v.
Holder, 556 U.S. 418, 435, 129 S.Ct. 1749, 173
L.Ed.2d 550 (2009).
We review a district court’s denial of a preliminary
injunction for an abuse of discretion, but in doing so
we review the district court’s legal conclusions de novo and any findings of fact for clear error. Serono
Labs., Inc. v. Shalala, 158 F.3d 1313, 1318 (D.C. Cir.
1998).
III
A foundational requirement for obtaining preliminary injunctive relief is that the plaintiffs demonstrate a likelihood of success on the merits. See Nken,
556 U.S. at 434, 129 S.Ct. 1749 (“The first two factors
of the traditional standard [i.e., likelihood of success
on the merits and irreparable injury] are the most
critical.”); Sherley v. Sebelius, 644 F.3d 388, 393 (D.C.
Cir. 2011) (raising the possibility that “likelihood of
success is an independent, free-standing requirement
for a preliminary injunction”) (quoting Davis v. Pension Benefit Guar. Corp., 571 F.3d 1288, 1296 (D.C.
Cir. 2009) (Kavanaugh, J., concurring)).
Neither the challenge to Acting Attorney General
Whitaker’s authority nor the objections to the substantive validity of the Bump-Stock Rule clears that
hurdle. And because the plaintiffs have shown no
likelihood of success on the merits, we choose not to
“proceed to review the other three preliminary injunction factors.” Arkansas Dairy Coop. Ass’n v. Unit-

A12

ed States Dep’t of Agric., 573 F.3d 815, 832 (D.C. Cir.
2009).
A
Codrea levels a broadside attack on the rule as
categorically invalid because Acting Attorney General Whitaker allegedly lacked the legal authority to
approve the Bump-Stock Rule’s issuance. Specifically,
Codrea argues that Whitaker’s designation *11 to
serve as Acting Attorney General violated both the
Attorney General Act, 28 U.S.C. § 508, and the Constitution’s Appointments Clause, U.S. Const. Art. II,
§ 2, cl. 2. Whether or not those arguments would otherwise have had merit (something we do not decide),
Codrea has no likelihood of success on this claim because the rule has been independently ratified by Attorney General William Barr, whose valid appointment and authority to ratify is unquestioned.
The Appointments Clause requires that “all * * *
Officers of the United States” be appointed by the
President “by and with the Advice and Consent of the
Senate.” U.S. Const. Art. II, § 2, cl. 2. This requirement is the “default manner of appointment,” Edmond v. United States, 520 U.S. 651, 660, 117 S.Ct.
1573, 137 L.Ed.2d 917 (1997), with the only exception
being that Congress may vest the appointment of “inferior Officers” in “the President alone,” “Courts of
Law,” and “the Heads of Departments,” U.S. Const.
Art. II, § 2, cl. 2.
One stark consequence of this scheme is that “the
responsibilities of an office * * * [can] go unperformed
if a vacancy arises and the President and Senate
cannot promptly agree on a replacement.” National

A13

Labor Relations Bd. v. SW Gen., Inc., ––– U.S. ––––,
137 S.Ct. 929, 934, 197 L.Ed.2d 263 (2017); Buckley
v. Valeo, 424 U.S. 1, 132, 96 S.Ct. 612, 46 L.Ed.2d
659 (1976) (per curiam) (“[A]ll officers of the United
States are to be appointed in accordance with the
Clause.”). “Since the beginning of the nation,” Congress has addressed this problem through “vacancy
statutes” that grant the President the authority to
designate acting officials to “keep the federal bureaucracy humming.” SW General, Inc. v. National Labor
Relations Bd., 796 F.3d 67, 70 (D.C. Cir. 2015) (quotation marks omitted), aff’d, ––– U.S. ––––, 137 S.Ct.
929, 197 L.Ed.2d 263 (2017).
The Reform Act is the most recent iteration of that
interbranch accommodation. It provides for three options whenever a Senate-confirmed officer “dies, resigns, or is otherwise unable to perform the functions
and duties of the office[.]” 5 U.S.C. § 3345(a). The default is for the “first assistant” to take the helm. Id.
§ 3345(a)(1). But the Reform Act allows the President
to choose another person instead, as long as that person is either a Senate-confirmed appointee, id.
§ 3345(a)(2), or an employee within the same agency,
subject to certain duration-of-service and pay-scale
requirements, id. § 3345(a)(3). Mr. Whitaker was designated under the latter option, since his service as
chief of staff comported with the Reform Act’s duration-of-service and pay grade requirements. Guedes,
356 F.Supp.3d at 138 (“The parties do not dispute
that Whitaker satisfies the eligibility criteria in the
[Reform Act.]”).
Congress broadly designated the Reform Act to be
the “exclusive means for temporarily authorizing an

A14

acting official to perform the functions and duties of
any” Executive office that would otherwise require
Senate confirmation. 5 U.S.C. § 3347(a). But there is
an “unless”—Congress crafted exceptions to that exclusivity. Id. As relevant here, Section 3347(a) does
not control if another “statutory provision expressly
* * * designates an officer or employee to perform the
functions and duties of a specified office temporarily
in an acting capacity[.]” Id. § 3347(a)(1)(B).
The Attorney General Act, 28 U.S.C. § 508, is one
of those office-specific vacancy statutes. That statute
specifies a line of succession for a vacancy in the Office of the Attorney General. First in line is the Deputy Attorney General, who “may exercise all the duties
of th[e] office” and who, *12 “for the purpose of section 3345 of [the Reform Act],” is deemed “the first
assistant to the Attorney General.” 28 U.S.C.
§ 508(a). If the Deputy Attorney General is unavailable, the Attorney General Act directs that “the Associate Attorney General shall act as Attorney General,” and “[t]he Attorney General may designate the
Solicitor General and the Assistant Attorneys General, in further order of succession, to act as Attorney
General.” Id. § 508(b).
Codrea and the Department have battled at length
over the interaction between the Reform Act and the
Attorney General Act in the event of a vacancy in the
position of the Attorney General. The Government
maintains, and the district court agreed, that the two
statutes provide the President with alternative
means of designating an acting replacement. Guedes,
356 F.Supp.3d at 139; Gov’t Br. 40–58. Codrea, by
comparison, reads the Attorney General Act as the

A15

exclusive path for designating an acting Attorney
General, with the Reform Act available only after the
line of succession in the Attorney General Act has
been exhausted. Codrea Br. 20–21 (incorporating Coalition Br. 6). Codrea also argues that the designation
of a mere employee to perform the duties of a principal office like that of the Attorney General, even on
an acting basis, raises substantial constitutional
questions, at least when no exigency requires that
designation. Id. (adopting Coalition Reply Br. 15).
We need not wade into that thicket. While this appeal was pending, Attorney General Barr independently “familiarized [him]self with the rulemaking record [and] * * * reevaluated those materials
without any deference to [Whitaker’s] earlier decision.” 84 Fed. Reg. at 9,240. Following this “independent[ ] reevaluat[ion] [of] the * * * rule and the
underlying rulemaking record,” Attorney General
Barr “personally c[a]me to the conclusion that it
[wa]s appropriate to ratify and affirm the final rule.”
Id.
Codrea accepts the validity of Attorney General
Barr’s ratification as to both his statutory and his
Appointments Clause claims. Codrea Br. 20–21
(adopting Coalition Reply Br. 22); see also 5 U.S.C.
§ 3348(d)(1)–(2) (only prohibiting the ratification of
nondelegable duties); 28 U.S.C. § 510 (authorizing
delegation of “any function of the Attorney General”).
And with that act of ratification and the concession,
Codrea’s likelihood of success on the merits of his
challenge to the rule based on Acting Attorney General Whitaker’s role in its promulgation reduces to
zero.

A16

Codrea insists otherwise. He argues that Attorney
General Barr’s ratification does not moot the claim
because of the mootness doctrine’s exceptions for a
defendant’s voluntary cessation of challenged conduct
or for acts capable of repetition yet evading review.
Codrea Br. 20–21 (adopting Coalition Reply Br. 17).
That argument fails because ratification is generally
treated as a disposition on the legal merits of the appointments challenge and, in any event, no mootness
exception applies in this case.
1
The mootness doctrine “ensures compliance with
Article III’s case and controversy requirement by
‘limit[ing] federal courts to deciding actual, ongoing
controversies.’ ” Aref v. Lynch, 833 F.3d 242, 250
(D.C. Cir. 2016) (quoting American Bar Ass’n v. FTC,
636 F.3d 641, 645 (D.C. Cir. 2011) ). A case is moot if
our decision will neither “presently affect the parties’
rights nor have a more-than-speculative chance of affecting them in the future.” Id. (internal quotation
marks omitted) (quoting American Bar Ass’n, 636
F.3d at 645).
*13 We have repeatedly held that a properly appointed official’s ratification of an allegedly improper
official’s prior action, rather than mooting a claim,
resolves the claim on the merits by “remedy[ing] [the]
defect” (if any) from the initial appointment. WilkesBarre Hosp. Co. v. National Labor Relations Bd., 857
F.3d 364, 371 (D.C. Cir. 2017). This is so regardless of
whether “the previous [officer] was” or was not “validly appointed under either the Vacancies Act or the
Appointments Clause.” Intercollegiate Broad. Sys.

A17

Inc. v. Copyright Royalty Bd., 796 F.3d 111, 119 n.3
(D.C. Cir. 2015) (ratification defeats Appointments
Clause challenge) (citing Doolin Sec. Sav. Bank,
F.S.B. v. Office of Thrift Supervision, 139 F.3d 203,
205, 207, 212–214 (D.C. Cir. 1998), superseded by
statute on other grounds, Federal Vacancies Reform
Act of 1998, Pub. L. No. 105-277, 122 Stat. 2681, as
recognized in SW Gen., Inc., 796 F.3d at 70–71); FEC
v. Legi-Tech, Inc., 75 F.3d 704, 706, 708–710 (D.C.
Cir. 1996) (similar).
In Doolin, we treated the curative effects of ratification as analogous to rendering any defect in the
agency’s action “harmless error” under the Administrative Procedure Act, 5 U.S.C. § 706. 139 F.3d at
212. So viewed, ratification purges any residual taint
or prejudice left over from the allegedly invalid appointment. Legi-Tech, 75 F.3d at 708 n.5 (“[T]he issue
is not whether Legi-Tech was prejudiced by the original [decision], which it undoubtedly was, but whether, given the FEC’s remedial actions, there is sufficient remaining prejudice to warrant dismissal.”); Intercollegiate Broad., 796 F.3d at 124 (citing Legi-Tech
for the same proposition). When viewed as analogous
to harmless-error analysis, ratification is treated as
resolving the merits of the challenger’s claim in the
agency’s favor. Cf. Doolin, 139 F.3d at 212; Combat
Veterans for Cong. Political Action Comm. v. FEC,
795 F.3d 151, 157 (D.C. Cir. 2015) (rejecting a procedural challenge to a Federal Election Commission fine on the merits because the alleged infirmity produced no “prejudice”).
Those cases’ treatment of ratification as resolving
the merits of a claimed appointment flaw parallels

A18

how this court analyzes the agency practice of postpromulgation notice and comment. When an agency
“issues final regulations without the requisite comment period and then tries to cure that Administrative Procedure Act violation by holding a postpromulgation comment period,” we have repeatedly
held that the agency prevails on the merits as long as
it can demonstrate that it has kept an “open mind”
throughout the subsequent comment period. See, e.g.,
Intermountain Ins. Serv. of Vail v. Commissioner, 650
F.3d 691, 709 (D.C. Cir. 2011) (emphasis added), vacated and remanded on other grounds, 566 U.S. 972,
132 S.Ct. 2120, 182 L.Ed.2d 865 (2012), dismissed on
unopposed motion, No. 10-1204, 2012 WL 2371486, at
*1 (D.C. Cir. June 11, 2012); Advocates for Highway
& Auto Safety v. Federal Highway Admin., 28 F.3d
1288, 1291–1293 (D.C. Cir. 1994) (same).
Codrea points to Landry v. FDIC, 204 F.3d 1125
(D.C. Cir. 2000), in which this court resolved the merits of an Appointments Clause challenge to an administrative law judge’s decision, notwithstanding the
subsequent de novo review and affirmance of that decision by the agency itself, id. at 1131. That case is of
no help to Codrea. Landry carved out a narrow exception to ratification’s curative effect for Appointments
Clause challenges to the acts of “purely decision recommending employees.” Id. at 1131–1132. This court
explained that, if ratification were an escape hatch in
those cases, “then all such arrangements would escape judicial review” because the challenged ALJ action would never obtain judicial review without first
*14 exhausting that ratifying internal agency review
process. Id. Only when that particular “catch-22” is

A19

present does the Landry approach apply. Id.; accord
Intercollegiate Broad., 796 F.3d at 124 (distinguishing Landry on that basis). The succession of a Presidentially appointed and Senate-confirmed Attorney
General does not remotely implicate the Landry scenario.
2
Codrea argues that we should analyze the effect of
ratification through the lens of mootness rather than
treating ratification as resolving the case on the merits. Codrea Br. 20–21 (adopting Coalition Reply Br.
16–17).
Codrea notes that all of our prior ratification cases
dealt with appointments challenges that arose as defenses to enforcement actions that were being prosecuted by a properly appointed official, but that were
allegedly “tainted” by some preceding action of an unlawfully appointed official. Codrea Br. 20–21 (adopting Coalition Reply Br. 20); see, e.g., Intercollegiate
Broad., 796 F.3d at 124 (raising Appointments
Clause defense in a “subsequent proceeding” based on
the “continuing taint arising from the first” proceeding); Doolin, 139 F.3d at 212 (raising Appointments
Clause challenge to officer who issued the initial “Notice of Charges” to collaterally attack the ultimate
cease-and-desist order issued by a validly appointed
officer).
In that scenario, Codrea reasons, the appointment
issue arose only as an affirmative defense; no act intervened during litigation to eliminate the factual basis for an affirmative claim for relief in a way that
generally would trigger mootness analysis. Here, by

A20

contrast, Codrea has raised as a plaintiff an independent, pre-enforcement challenge to an agency rule
in an attempt to avert a present duty to comply, and
he filed suit at a time when the allegedly improperly
appointed official was still in office and enforcing his
own challenged decision. For that reason, the effect of
Attorney General Barr’s intervening ratification
must be guided not by a merits analysis, but rather
by mootness. Codrea Br. 20–21 (adopting Coalition
Reply Br. 17); see, e.g., EEOC v. First Citizens Bank
of Billings, 758 F.2d 397, 399–400 (9th Cir. 1985)
(treating congressional ratification as causing mootness); see also Thomas v. Network Solutions, Inc., 176
F.3d 500, 506 (D.C. Cir. 1999) (assuming that congressional ratification mooted an unauthorized-tax
claim).
The problem for Codrea is that, even if we were to
adopt his proposed analytical approach, his claim still
lacks any discernible likelihood of success on the merits because no exception to mootness fits this scenario.
First, this case does not implicate the exception to
mootness for cases that are “capable of repetition, yet
evading review.” United States v. Sanchez-Gomez, ––
– U.S. ––––, 138 S.Ct. 1532, 1540, 200 L.Ed.2d 792
(2018). For a controversy to be “capable of repetition,”
Codrea bears the burden of showing that (i) the challenged action is “in its duration too short to be fully
litigated prior to its cessation or expiration,” and (ii)
there is a “reasonable expectation that the same
complaining party will be subject to the same action
again.” Davis v. FEC, 554 U.S. 724, 735, 128 S.Ct.
2759, 171 L.Ed.2d 737 (2008) (citations omitted);

A21

Honeywell Int’l, Inc. v. Nuclear Regulatory Comm’n,
628 F.3d 568, 576 (D.C. Cir. 2010) (party asserting
capable of repetition bears burden of proof) (citing
Southern Co. Servs., Inc. v. FERC, 416 F.3d 39, 43
(D.C. Cir. 2005) ). Under that test, “[t]he ‘wrong’ that
is, or is not, ‘capable of repetition’ must be defined in
terms of the precise controversy it spawns.” *15 People for Ethical Treatment of Animals, Inc. v. Gittens,
396 F.3d 416, 422 (D.C. Cir. 2005) (emphasis added).
This demand for particularity ensures “that courts
resolve only continuing controversies between the
parties.” Id.
Here, Codrea has wholly failed to show that appointments claims like his are too short-fused to obtain judicial resolution, or that there is anything
more than the most remote and “theoretical[ ] possib[ility]” of repetition, Nelson v. Miller, 570 F.3d 868,
882 (7th Cir. 2009). For Codrea’s legal injury to recur,
(i) the Attorney General would have to leave office;
(ii) the President would then have to appoint a mere
employee in his stead (something Codrea argues has
not happened more than a “handful” of times in history (Codrea Br. 20–21 (adopting Coalition Br. 38;
Coalition Reply Br. 15–16)); (iii) that the new Acting
Attorney General would then have to promulgate a
legislative rule; and (iv) by sheer coincidence, that
rule would have to adversely affect Codrea or his coplaintiffs’ legal rights. It takes more than such quixotic speculation to save a case from mootness, even
when the Executive continues to defend its prerogatives in litigation. See Larsen v. United States Navy,
525 F.3d 1, 4 (D.C. Cir. 2008).

A22

Second, Codrea’s invocation of the rule that a defendant’s voluntary cessation of challenged activity
will not moot a case fares no better. See Friends of the
Earth, Inc. v. Laidlaw Environmental Servs., 528
U.S. 167, 189, 120 S.Ct. 693, 145 L.Ed.2d 610 (2000).
The voluntary-cessation rule is designed to deter the
wrongdoer who would otherwise “engage in unlawful
conduct, stop when sued to have the case declared
moot, then pick up where he left off, repeating this
cycle until he achieves all his unlawful ends.” Already, LLC v. Nike, Inc., 568 U.S. 85, 91, 133 S.Ct.
721, 184 L.Ed.2d 553 (2013). For that reason, a party’s voluntary cessation of challenged conduct will not
moot a case unless it is “absolutely clear that the allegedly wrongful behavior could not reasonably be
expected to recur.” Laidlaw Environmental Servs.,
528 U.S. at 189, 120 S.Ct. 693 (internal quotation
marks omitted).2
The voluntary-cessation doctrine has no apparent
relevance here. That is because the power to effect
the legally relevant ratification by a duly installed
Attorney General—the supposed source of “cessation”—lies beyond the unilateral legal authority of
any of the named defendants, the Office of the Attor2 It bears noting that the merits-based analysis of prejudice
that Codrea seeks to avoid includes a somewhat analogous exception for a defendant’s strategic manipulation of the process to
avoid judicial review. See Sugar Cane Growers Co-op. of Fla. v.
Veneman, 289 F.3d 89, 96 (D.C. Cir. 2002) (“[I]f the government
could skip [the APA’s rulemaking] procedures, engage in informal consultation, and then be protected from judicial review unless a petitioner could show a new argument—not [already] presented informally,” then the APA’s prescribed rulemaking process “obviously would be eviscerated.”).

A23

ney General, or even the President of the United
States. Under the peculiar circumstances of this case,
where the ratification was a result of the combined
actions of a presidential nomination and an independent Senate confirmation, the “voluntariness” in
“voluntary cessation” is not implicated.
Aimed as it is at party manipulation of the judicial
process through the false pretense of singlehandedly
ending a dispute, the voluntary-cessation exception
presupposes that the infringing party voluntarily exercises its own unilateral power not only to terminate
the suit and evade judicial review, but also to “pick
up where he left off” and complete the devious “cycle”
after the litigation is dismissed. Already, LLC, 568
U.S. at 91, 133 S.Ct. 721; *16 see City News & Novelty, Inc. v. City of Waukesha, 531 U.S. 278, 284 n.1,
121 S.Ct. 743, 148 L.Ed.2d 757 (2001) (explaining
that the “rule traces to the principle that a party
should not be able to evade judicial review, or to defeat a judgment, by temporarily altering questionable
behavior”) (emphasis added); Knox v. Service Emps.
Int’l Union, 567 U.S. 298, 307, 132 S.Ct. 2277, 183
L.Ed.2d 281 (2012) (voluntary cessation concerns a
defendant’s “resumption of * * * challenged conduct
as soon as the case is dismissed”) (emphasis added);
United States v. W.T. Grant Co., 345 U.S. 629, 632,
73 S.Ct. 894, 97 L.Ed. 1303 (1953) (voluntarycessation doctrine rooted in concern over leaving a
“defendant * * * free to return to his old ways”).
That framework ill fits a situation where, as here,
the intervening acts of independent third parties are
essential to accomplish a legally relevant change in
circumstances. Here, ratification materially changed

A24

the circumstances of the litigation only because it
was undertaken by a validly appointed Attorney
General whose authority to act Codrea does not challenge. Codrea Br. 20–21 (adopting Coalition Reply
Br. 22) (“Plaintiff assumes that the ratification was
not tainted by Mr. Whitaker’s actions in promulgating the Rule in the first place.”). That “cessation” of
the legal challenge was outside the hands of the
named defendants—then-Acting Attorney General
Whitaker, the Bureau of Alcohol, Tobacco, Firearms
and Explosives, Acting Bureau Director Thomas
Brandon, and Attorney General William Barr. The
essential predicate for that legally relevant form of
cessation was the (non-defendant) President’s nomination and the (non-defendant) Senate’s independent
confirmation of a new Attorney General, and their
endowment of him with the authority to “cease” the
litigation by way of ratification.
In other words, the defendants in this case lacked
the unilateral power, or the power at all, to voluntarily cease and restart the conduct complained of—
having a Reform-Act-appointed Acting Attorney General promulgate or enforce a rule adversely affecting
Guedes and Codrea. Without such power, the risk of
manipulating the litigation process evaporates. In
addition, the deliberative burdens of the Senate’s intervening and independent advice-and-consent role
extinguish the strategic concerns animating the voluntary-cessation doctrine in the first place. Cf. Clarke
v. United States, 915 F.2d 699, 705 (D.C. Cir. 1990)
(en banc) (raising “serious doubts” about “applying
the doctrine to Congress” because, “in the absence of
overwhelming evidence (and perhaps not then), it

A25

would seem inappropriate for the courts either to impute such manipulative conduct to a coordinate
branch of government, or to apply against that
branch a doctrine that appears to rest on the likelihood of a manipulative purpose”); United States Dep’t
of the Treasury v. Galioto, 477 U.S. 556, 560, 106
S.Ct. 2683, 91 L.Ed.2d 459 (1986) (analyzing the
mooting effects of Congressional amendment without
reference to voluntary cessation). At the very least,
Codrea has a vanishingly low likelihood of prevailing
on that theory.3
*17 In sum, because Codrea has shown no likelihood of success on his appointment-based challenges
due to Attorney General Barr’s independent and unchallenged ratification of the Bump-Stock Rule, the
district court did not abuse its discretion in denying a
preliminary injunction based on those statutory and
constitutional claims.
3 This case does not present, and we need not decide, whether
the President’s unilateral designation of a different acting Attorney General would have implicated the voluntary-cessation
doctrine. See Trinity Lutheran Church of Columbia, Inc. v. Comer, ––– U.S. ––––, 137 S.Ct. 2012, 2019 n.1, 198 L.Ed.2d 551
(2017) (no mootness when Governor ordered state Department
of Natural Resources to rescind challenged policy, where there
was no evidence the Department “could not revert to its policy of
excluding religious organizations”); cf. Doe v. Harris, 696 F.2d
109, 113 (D.C. Cir. 1982) (applying the capable of repetition doctrine to “different official actors” within the same U.S. Attorney’s Office). What matters in this case is not that the BumpStock Rule was ratified by someone other than Acting Attorney
General Whitaker, but that it was ratified by someone whose
authority to undertake such a ratification—by virtue of Presidential nomination and Senate confirmation—Codrea admits he
cannot challenge.

A26

B
We next consider the plaintiffs’ contention that the
Bureau lacked statutory authority to promulgate the
Bump-Stock Rule. Specifically, Guedes and Codrea
argue that the statutory definition of “machinegun”
cannot be read to include bumpstock devices. Guedes
and Codrea have not demonstrated a substantial
likelihood of success on that claim.
1
At the outset, we must determine the standard by
which to assess the Rule’s conclusion that bumpstock devices amount to “machineguns” under the
statutory definition. In particular, should we examine
the Rule’s conclusion to that effect under the Chevron
framework, or is Chevron inapplicable?
If Chevron treatment is in order, we first ask if the
statute is ambiguous concerning whether bump-stock
devices can be considered “machineguns”; and if so,
we sustain the Rule’s conclusion that bump-stock devices are machine guns as long as it is reasonable.
See, e.g., Entergy Corp. v. Riverkeeper, Inc., 556 U.S.
208, 218, 129 S.Ct. 1498, 173 L.Ed.2d 369 (2009).
Crucially, at this second step under Chevron, an
“agency need not adopt * * * the best reading of the
statute, but merely one that is permissible.” Dada v.
Mukasey, 554 U.S. 1, 29 n.1, 128 S.Ct. 2307, 171
L.Ed.2d 178 (2008). Conversely, if Chevron’s two-step
framework is inapplicable, we accept the agency’s interpretation only if it is the best reading of the statute.
Much, then, can turn on whether an agency’s interpretation merits treatment under Chevron. For

A27

that reason, and because none of the parties presents
an argument for applying the Chevron framework
(the plaintiffs contend that Chevron is inapplicable
and the government does not argue otherwise), we
devote considerable attention to the question of Chevron’s applicability to the Bump-Stock Rule. We conclude that the Rule warrants consideration under
Chevron.
a
The applicability of Chevron materially depends on
what kind of rule the Bump-Stock Rule represents.
There is a “central distinction” under the Administrative Procedure Act between legislative rules and interpretive rules. Chrysler Corp v. Brown, 441 U.S.
281, 301, 99 S.Ct. 1705, 60 L.Ed.2d 208 (1979); see 5
U.S.C. § 553(b), (d). And that distinction centrally informs the applicability of Chevron. “Legislative rules
generally receive Chevron deference,” Nat’l Mining
Ass’n v. McCarthy, 758 F.3d 243, 251 (D.C. Cir.
2014), whereas “interpretive rules * * * enjoy no
Chevron status as a class,” United States v. Mead
Corp., 533 U.S. 218, 232, 121 S.Ct. 2164, 150 L.Ed.2d
292 (2001); see also Nat’l Mining Ass’n, 758 F.3d at
251 (observing that interpretive rules “often do not”
receive Chevron deference).
Legislative rules result from an agency’s exercise
of “delegated legislative *18 power” from Congress.
Am. Mining Cong. v. Mine Safety & Health Admin.,
995 F.2d 1106, 1109 (D.C. Cir. 1993). Accordingly,
legislative rules have the “force and effect of law.”
Encino Motorcars, LLC v. Navarro, ––– U.S. ––––,
136 S.Ct. 2117, 2122, 195 L.Ed.2d 382 (2016). Inter-

A28

pretive rules, on the other hand, are “issued by an
agency to advise the public of the agency’s construction of the statutes and rules which it administers.”
Shalala v. Guernsey Mem’l Hosp., 514 U.S. 87, 99,
115 S.Ct. 1232, 131 L.Ed.2d 106 (1995). Because they
are not an exercise of delegated legislative authority,
interpretive rules “do not have the force and effect of
law and are not accorded that weight in the adjudicatory process.” Id. While legislative rules generally require notice and comment, interpretive rules need
not issue pursuant to any formalized procedures. See
5 U.S.C. § 553(b).
To determine whether a rule is legislative or interpretive, we ask whether the agency “intended” to
speak with the force of law. Encino Motorcars, 136
S.Ct. at 2122; Am. Mining Cong., 995 F.2d at 1109.
Central to the analysis is the “language actually used
by the agency.” Cmty. Nutrition Inst. v. Young, 818
F.2d 943, 946 (D.C. Cir. 1987) (per curiam). We also
consider “whether the agency has published the rule
in the Code of Federal Regulations” and “whether the
agency has explicitly invoked its general legislative
authority.” Am. Mining Cong., 995 F.2d at 1112.
All pertinent indicia of agency intent confirm that
the Bump-Stock Rule is a legislative rule. The Rule
unequivocally bespeaks an effort by the Bureau to adjust the legal rights and obligations of bump-stock
owners—i.e., to act with the force of law. The Rule
makes clear throughout that possession of bumpstock devices will become unlawful only as of the
Rule’s effective date, not before.

A29

To that end, the Rule informs bump-stock owners
that their devices “will be prohibited when this rule
becomes effective.” 83 Fed. Reg. at 66,514 (emphasis
added). It correspondingly assures bump-stock owners that “[a]nyone currently in possession of a bumpstock-type device is not acting unlawfully unless they
fail to relinquish or destroy their device after the effective date of this regulation.” Id. at 66,523 (emphasis added). And the Rule “provides specific information about acceptable methods of disposal, as well
as the timeframe under which disposal must be accomplished to avoid violating 18 U.S.C. § 922(o).” Id.
at 66,530 (emphasis added). Reinforcing the point,
the Rule says it will “criminalize only future conduct,
not past possession of bumpstock-type devices that
ceases by the effective date.” Id. at 66,525 (emphasis
added).
Those statements, and others like them in the
Rule, embody an effort to “directly govern[ ] the conduct of members of the public, affecting individual
rights and obligations.” Long Island Care at Home,
Ltd. v. Coke, 551 U.S. 158, 172, 127 S.Ct. 2339, 168
L.Ed.2d 54 (2007) (internal quotation marks omitted). That is powerful evidence that the Bureau “intended [the Rule] as a binding application of its
rulemaking authority.” Id.
The Bureau further evinced its intent to exercise
legislative authority by expressly invoking the Chevron framework and then elaborating at length as to
how Chevron applies to the Rule. The Rule observes
that, “[w]hen a court is called upon to review an
agency’s construction of the statute it administers,
the court looks to the framework set forth in Chevron

A30

U.S.A., Inc. v. Natural Resources Defense Council,
Inc.” 83 Fed. Reg. at 66,527. The Rule then contains
several paragraphs of *19 analysis describing the application of each of Chevron’s two steps to the Rule.
That discussion is compelling evidence that the Bureau did not conceive of its rule as merely interpretive. Because “interpretive rules * * * enjoy no Chevron status as a class,” Mead, 533 U.S. at 232, 121
S.Ct. 2164, the Bureau’s exegesis on Chevron would
have served no purpose unless the agency intended
the Rule to be legislative in character.
Other evidence of agency intent points to the same
conclusion. One consideration under our decisions is
“whether the agency has explicitly invoked its general legislative authority.” Am. Mining Cong., 995
F.2d at 1112. The Rule does exactly that, invoking
two separate delegations of legislative authority. See
83 Fed. Reg. at 66,515. The first is 18 U.S.C. § 926(a),
which empowers the Attorney General to “prescribe
only such rules and regulations as are necessary to
carry out the provisions of [the Gun Control Act].”
The second is 26 U.S.C. § 7805(a), which grants the
Attorney General authority to “prescribe all needful
rules and regulations” for the enforcement of the National Firearms Act. See 26 U.S.C. § 7801(a)(2)(A).
Both of those provisions, the Rule states, vest “the responsibility for administering and enforcing the NFA
and GCA” in the Attorney General. 83 Fed. Reg. at
66,515.
The Rule’s publication in the Code of Federal Regulations also indicates that it is a legislative rule. See
Am. Mining Cong., 995 F.2d at 1112. By statute, publication in the Code of Federal Regulations is limited

A31

to rules “having general applicability and legal effect.” 44 U.S.C. § 1510 (emphasis added). The BumpStock Rule amends three sections of the Code, modifying the regulatory definition of “machine gun” and
“adding a sentence to clarify that a ‘machine gun’ includes * * * a bump-stock-type device.” 83 Fed. Reg.
at 66,519 (amending 27 C.F.R. §§ 447.11, 478.11,
479.11). Those sorts of amendments would be highly
unusual for a mere interpretive rule.
In short, the Rule confirms throughout, in numerous ways, that it intends to speak with the force of
law. It contained all of those indicia uniformly conveying its intended legislative character when Acting
Attorney General Whitaker issued it. And it still contained those indicia when Attorney General Barr
subsequently ratified it.
Notwithstanding all of that, the government’s litigating position in this case seeks to reimagine the
Rule as merely interpretive. The government’s briefing says that the Rule is “not an act of legislative
rulemaking,” and that the Rule instead only “sets
forth the agency’s interpretation of the best reading
of the statutory definition of ‘machinegun.’ ” Gov’t Br.
38.
The government’s position to that effect has highly
significant implications for owners of bump-stock devices. Whereas a legislative rule, as an exercise of
delegated lawmaking authority, can establish a new
legal rule going forward, an interpretive rule by nature simply communicates the agency’s interpretation of what a statute has always meant. So here, if
the Bump-Stock Rule is merely interpretive, it con-

A32

veys the government’s understanding that bumpstock devices have always been machine guns under
the statute. The government says exactly that in its
brief, observing that, per the interpretation set out in
the Rule, “any bump stock made after 1986 has always been a machinegun.” Gov’t Br. 38.
That in turn would mean that bump-stock owners
have been committing a felony for the entire time
they have possessed the devices. Under 18 U.S.C. §
922(o)(1), it is “unlawful for any person to transfer or
possess a machinegun,” and violators “shall be fined
[or] imprisoned not more *20 than 10 years, or both,”
id. § 924(a)(2). As the government acknowledges, under the view it espouses in its brief that the Rule is
interpretive, the possession of bump stocks “has always been banned.” Gov’t Br. 38. And that would be
so notwithstanding a number of prior contrary interpretations by the agency. See 83 Fed. Reg. at 13,444–
13,446.
The government’s account of the Rule in its brief—
including its position that bump-stock owners have
always been felons—is incompatible with the Rule’s
terms. The Rule gives no indication that bump stocks
have always been machine guns or that bump-stock
owners have been committing a felony for the entire
time they have possessed the device. The Rule in fact
says the opposite. After all, it establishes an effective
date, after which (and only after which) bump-stock
possession will be prohibited. 83 Fed. Reg. at 66,523.
A future effective date of that kind cannot be reconciled with a supposed intent to convey that bumpstock possession “has always been banned.” Gov’t Br.
38.

A33

The government now characterizes the Rule’s effective date as merely marking the end of a period of
discretionary withholding of enforcement, in that the
Rule informs the public that the Department will
“not pursue enforcement action against individuals
who sold or possessed bump stocks prior to the effective date.” Id. at 38–39. Once again, that is not what
the Rule says. The government engages in enforcement discretion when it voluntarily refrains from
prosecuting a person even though he is acting unlawfully. The Rule, by contrast, announces that a person
“in possession of a bumpstock type device is not acting unlawfully unless they fail to relinquish or destroy their device after the effective date of this regulation.” 83 Fed. Reg. at 66,523 (emphases added).
That is the language of a legislative rule establishing
when bump-stock possession will become unlawful,
not an interpretive rule indicating it has always been
unlawful.
In short, the government cannot now, in litigation,
reconceive the Bump-Stock Rule as an interpretive
rule. The character of a rule depends on the agency’s
intent when issuing it, not on counsel’s description of
the rule during subsequent litigation. See Encino Motorcars, 136 S.Ct. at 2122; cf. SEC v. Chenery Corp.,
318 U.S. 80, 87–88, 63 S.Ct. 454, 87 L.Ed. 626 (1943).
Here, that intent is unmistakable: the Bump-Stock
rule is a legislative rule.
b
Ordinarily, legislative rules receive Chevron deference. See Nat’l Mining Ass’n, 758 F.3d at 251. This
legislative rule is no different.

A34

The Supreme Court has established that we afford
Chevron deference if we determine (i) “that Congress
delegated authority to the agency generally to make
rules carrying the force of law,” and (ii) “that the
agency interpretation claiming deference was promulgated in the exercise of that authority.” Mead, 533
U.S. at 226–227, 121 S.Ct. 2164 (2001). Here, both
are true.
First, we know Congress intended a delegation of
legislative authority to the agency because Congress
made the relevant delegations express. As noted, the
Attorney General has the power to prescribe “such
rules and regulations as are necessary to carry out
the provisions of” the Gun Control Act. 18 U.S.C. §
926(a). And the Attorney General “shall prescribe all
needful rules and regulations for the enforcement of”
the National Firearms Act. 26 U.S.C. § 7805(a); see
id. § 7801(a)(2)(A). “[A] general conferral of rulemaking authority” of that variety “validate[s] rules for all
the matters the agency *21 is charged with administering.” City of Arlington v. FCC, 569 U.S. 290, 306,
133 S.Ct. 1863, 185 L.Ed.2d 941 (2013). The Supreme
Court has said exactly that for § 7805(a), one of the
delegations of authority at issue. Specifically discussing that very provision, the Court explained that it
has “found such ‘express congressional authorizations
to engage in the process of rulemaking’ to be ‘a very
good indicator of delegation meriting Chevron treatment.’ ” Mayo Found. for Med. Educ. & Research v.
United States, 562 U.S. 44, 57, 131 S.Ct. 704, 178
L.Ed.2d 588 (2011) (quoting Mead, 533 U.S. at 229,
121 S.Ct. 2164).

A35

Second, we know that the Bureau promulgated the
Bump-Stock Rule “in the exercise of that authority”
to “make rules carrying the force of law” because that
criterion is the defining characteristic of a legislative
rule. Mead, 533 U.S. at 227, 121 S.Ct. 2164. And we
have already determined that the Rule is legislative
in character. We are then firmly within Chevron’s
domain.
Nonetheless, the parties protest the applicability
of Chevron on several grounds. The plaintiffs first argue that Chevron deference has been waived or forfeited by the government. Next, the parties (including
the government) submit that Chevron deference is
inapplicable in the context of criminal statutes. And
finally, Guedes contends that Chevron deference for
criminal statutes is displaced by the rule of lenity.
None of those objections to applying Chevron, we conclude, is likely to succeed in the context of the BumpStock Rule.
(i)
The agency plainly believed it was acting in a
manner warranting Chevron treatment given that it
expressly invoked the Chevron framework in the
Rule. The plaintiffs assert that the government nonetheless has forfeited, or even waived, the application
of Chevron deference by declining to argue for it in
this litigation. And while the government has not
taken a definitive position before us on whether
Chevron can be waived or forfeited, it has declined to
invoke Chevron throughout the course of the litigation.

A36

In particular, in its briefing before the district
court, the government expressly disclaimed any entitlement to Chevron deference. And after the district
court nonetheless relied on Chevron to affirm the
Rule, the government filed notices in other pending
challenges to the Rule, stating that it “ha[s] not contended that the deference afforded under Chevron * *
* applies in this action.’” E.g., Notice of Supplemental
Authority at 2, Gun Owners of Am., Inc. v. Barr, No.
1:18-cv-1429 (W.D. Mich. Feb. 27, 2019), ECF No. 38.
Now, in this appeal, the government affirmatively
disclaims any reliance on Chevron. See Gov’t Br. 37.
And at oral argument, the government went so far as
to indicate that, while it believes the Rule should be
upheld as the best reading of the statute without any
need for Chevron deference, if the Rule’s validity
turns on the applicability of Chevron, it would prefer
that the Rule be set aside rather than upheld under
Chevron. Oral Argument at 42:38–43:45.
To the extent Chevron treatment can be waived,
we assume that the government’s posture in this litigation would amount to a waiver rather than only a
forfeiture. See Wood v. Milyard, 566 U.S. 463, 470
n.4, 132 S.Ct. 1826, 182 L.Ed.2d 733 (2012) (“A
waived claim or defense is one that a party has knowingly and intelligently relinquished; a forfeited plea
is one that a party has merely failed to preserve.”).
But our court has yet to address whether, when an
agency promulgates a rule that would otherwise
plainly occasion the application of Chevron, agency
counsel could nonetheless opt to effect a waiver of
Chevron treatment *22 when later defending against
a challenge to the rule.

A37

We have, however, held that an agency’s lawyers
cannot forfeit the applicability of Chevron deference
unless the underlying agency action fails to “manifests its engagement in the kind of interpretive exercise to which review under Chevron generally applies—i.e., interpreting a statute it is charged with
administering in a manner (and through a process)
evincing an exercise of its lawmaking authority.”
SoundExchange, Inc. v. Copyright Royalty Bd., 904
F.3d 41, 54 (D.C. Cir. 2018). We grounded our holding in the principle that “it is the expertise of the
agency, not its lawyers,” that underpins Chevron. Id.
(quoting Peter Pan Bus Lines, Inc. v. Fed. Motor Carrier Safety Admin., 471 F.3d 1350, 1354 n.3 (D.C. Cir.
2006)); see also Chenery, 318 U.S. at 87–88, 63 S.Ct.
454. We see no reason that the same limitations on
forfeiture of Chevron should not also govern waiver of
Chevron.
Forfeiture and waiver involve, respectively, a failure to invoke, or an affirmative decision not to invoke, a party’s “right or privilege.” Johnson v. Zerbst,
304 U.S. 458, 464, 58 S.Ct. 1019, 82 L.Ed. 1461
(1938). But Chevron is not a “right” or “privilege” belonging to a litigant. It is instead a doctrine about
statutory meaning—specifically, about how courts
should construe a statute.
If a statute contains ambiguity, Chevron directs
courts to construe the ambiguity as “an implicit delegation from Congress to the agency to fill in the statutory gaps.” FDA v. Brown & Williamson Tobacco
Corp., 529 U.S. 120, 159, 120 S.Ct. 1291, 146 L.Ed.2d
121 (2000). If there is ambiguity, the meaning of the
statute becomes whatever the agency decides to fill

A38

the gaps with, as long as the agency’s interpretation
is reasonable and “speak[s] with the force of law.”
Mead, 533 U.S. at 229, 121 S.Ct. 2164. And insofar as
Chevron concerns the meaning of a statute, it is an
awkward conceptual fit for the doctrines of forfeiture
and waiver.
We, for example, would give no mind to a litigant’s
failure to invoke interpretive canons such as expressio unius or constitutional avoidance even if she intentionally left them out of her brief. “[T]he court is
not limited to the particular legal theories advanced
by the parties, but rather retains the independent
power to identify and apply the proper construction of
governing law.” Kamen v. Kemper Fin. Servs., Inc.,
500 U.S. 90, 99, 111 S.Ct. 1711, 114 L.Ed.2d 152
(1991). The “independent power” to identify and apply the correct law presumably includes application
of the Chevron framework when determining the
meaning of a statute.
Allowing an agency to freely waive Chevron treatment in litigation also would stand considerably in
tension with basic precepts of administrative law. As
we have explained, a legislative rule qualifying for
Chevron deference remains legislative in character
even if the agency claims during litigation that the
rule is interpretive: Chenery instructs that the proper
subject of our review is what the agency actually did,
not what the agency’s lawyers later say the agency
did. See 318 U.S. at 87–88, 63 S.Ct. 454. Accordingly,
we have held that a particular rule is legislative rather than interpretive over the protestations of the
agency. See, e.g., Cmty. Nutrition Inst., 818 F.2d at
946. And once we conclude that a rule is legislative, it

A39

follows that we generally review the rule’s validity
under the Chevron framework. See Nat’l Mining
Ass’n, 758 F.3d at 251.
A waiver regime, moreover, would allow an agency
to vary the binding nature of a legislative rule merely
by asserting in litigation that the rule does not carry
the *23 force of law, even though the rule speaks to
the public with all the indicia of a legislative rule.
Agency litigants then could effectively amend or
withdraw the legal force of a rule without undergoing
a new notice-and-comment rulemaking. That result
would enable agencies to circumvent the Administrative Procedure Act’s requirement “that agencies use
the same procedures when they amend or repeal a
rule as they used to issue the rule in the first instance.” Perez v. Mortg. Bankers Ass’n, ––– U.S. ––––,
135 S.Ct. 1199, 1206, 191 L.Ed.2d 186 (2015). And an
agency could attempt to secure rescission of a policy
it no longer favors without complying with the Administrative Procedure Act, or perhaps could avoid
the political accountability that would attend its own
policy reversal by effectively inviting the courts to set
aside the rule instead.
We
thus
conclude,
consistent
with
SoundExchange’s approach to forfeiture of Chevron,
that an agency’s lawyers similarly cannot waive
Chevron if the underlying agency action “manifests
its engagement in the kind of interpretive exercise to
which review under Chevron generally applies.”
SoundExchange, 904 F.3d at 54. In that event, we
“apply Chevron * * * even if there is no invocation of
Chevron in the briefing in our court.” Id.

A40

In this case, the Bump-Stock Rule plainly indicates the agency’s view that it was engaging in a
rulemaking entitled to Chevron deference. That observation naturally follows from the Rule’s legislative
character, which generally yields treatment under
Chevron. See Nat’l Mining Ass’n, 758 F.3d at 251.
And for this Rule in particular, another telltale sign
of the agency’s belief that it was promulgating a rule
entitled to Chevron deference is the Rule’s invocation
of Chevron by name. To be sure, an agency of course
need not expressly invoke the Chevron framework to
obtain Chevron deference: “Chevron is a standard of
judicial
review,
not
of
agency
action.”
SoundExchange, 904 F.3d at 54. Still, the Bureau’s
invocation of Chevron here is powerful evidence of its
intent to engage in an exercise of interpretive authority warranting Chevron treatment.
The Bureau, in rejecting objections that the agency’s interpretation “would not be entitled to deference
under Chevron,” 83 Fed. Reg. at 66,526, specifically
invoked the Chevron framework and marched
through its two-step analysis, id. at 66,527. At step
one, the agency explained that its interpretation “accord[ed] with the plain meaning” of the statute. And
at step two, the agency explained that it “ha[d] the
authority to interpret elements of the definition of
‘machinegun’ like ‘automatically’ and ‘single function
of the trigger,’ ” concluding that its “construction of
those terms is reasonable under Chevron [Step Two].”
Id.
The Rule expressly defends the agency’s reading of
the statute as an interpretive exercise implicating
Chevron. Agency counsel’s later litigating decision to

A41

refrain from invoking Chevron thus affords no basis
for our denying the Rule Chevron status.
(ii)
Next, the plaintiffs submit that Chevron deference
has no application to regulations interpreting statutes like the National Firearms Act and the Gun
Control Act because they impose criminal penalties
on violators. Chevron deference in the context of such
statutes, the plaintiffs urge, would flout an understanding that “criminal laws are for courts, not for
the Government, to construe.” Abramski v. United
States, 573 U.S. 169, 191, 134 S.Ct. 2259, 189
L.Ed.2d 262 (2014). And the plaintiffs are not the only parties who question Chevron’s salience in the
criminal context. The government’s *24 decision to
refrain from invoking Chevron in this litigation appears to stem from the same concerns. See Gov’t Br.
36–37.
Guedes and Codrea, however, have failed to
demonstrate a likelihood of success in establishing a
general rule against applying Chevron to agency interpretations of statutes that have criminal-law implications. To the contrary, precedent says otherwise.
Start with Chevron itself. At issue in Chevron was
the meaning of the term “stationary source” in the
Clean Air Act. See Chevron, 467 U.S. at 840, 104
S.Ct. 2778. The scope of that term defined the statutory obligation of private parties, under state implementation plans, to obtain permits for the construction and operation of “new or modified major stationary sources of air pollution.” 42 U.S.C. § 7502(a)(1),
(b)(6) (1982). But at the time, any person who know-

A42

ingly violated any requirement of a state implementation plan (after notice from the EPA) faced a fine of
$25,000 a day or imprisonment for up to a year, or
both. See id. § 7413(c)(1) (1982). Nevertheless, the
Chevron Court established the decision’s namesake
deference.
For another example, consider the securities laws.
The SEC’s interpretation of those laws regularly receives Chevron treatment, e.g., Nat’l Ass’n of Mfrs. v.
SEC, 748 F.3d 359, 366 (D.C. Cir. 2014); Am. Equity
Inv. Life Ins. Co. v. SEC, 613 F.3d 166, 172–173 (D.C.
Cir. 2010); Markowski v. SEC, 274 F.3d 525, 528–529
(D.C. Cir. 2001), even though their violation often
triggers criminal liability. The Securities Exchange
Act, for instance, imposes criminal sanctions for willful violations of “any provision” of the Act or “any
rule or regulation thereunder the violation of which
is made unlawful.” 15 U.S.C. § 78ff(a). Yet in United
States v. O’Hagan—a criminal case—the Supreme
Court accorded Chevron deference to an SEC rule
that interpreted a provision of the Act in a manner
rendering the defendant’s conduct a crime. 521 U.S.
642, 667, 673, 117 S.Ct. 2199, 138 L.Ed.2d 724 (1997)
(citing Chevron, 467 U.S. at 844, 104 S.Ct. 2778). The
Court noted that Congress had authorized the Commission “to prescribe legislative rules,” and held that
the rule in question, issued in an exercise of that authority, should receive “controlling weight” under
Chevron. Id. at 673, 117 S.Ct. 2199 (quoting Chevron,
467 U.S. at 844, 104 S.Ct. 2778).
While the Court in O’Hagan applied Chevron in a
criminal case, it (like Chevron itself) did not specifically address whether the criminal context should

A43

have afforded a basis for denying deference to the
agency’s interpretation. But the Court engaged with
that precise issue in Babbitt v. Sweet Home Chapter
of Communities for a Great Oregon, 515 U.S. 687, 115
S.Ct. 2407, 132 L.Ed.2d 597 (1995). There, the Court
reviewed a regulation interpreting the term “take” in
the Endangered Species Act. The challengers argued
that Chevron deference was inappropriate because
the Endangered Species Act included criminal penalties for certain violations. See id. at 704 n.18, 115
S.Ct. 2407. The Court disagreed, holding that, notwithstanding the statute’s criminal penalties, it
would defer “to the Secretary’s reasonable interpretation” under Chevron. See id. at 703–704 & 704, 115
S.Ct. 2407 n.18.
Our circuit precedent is in accord. Recently, in
Competitive Enterprise Institute v. United States Department of Transportation, 863 F.3d 911 (D.C. Cir.
2017), we explained that “[w]e apply the Chevron
framework * * * even though violating [the statute]
can bring criminal penalties,” id. at 915 n.4 (citing
Babbitt, 515 U.S. at 704 n.18, 115 S.Ct. 2407); see id.
at 921 (Kavanaugh, J., concurring) (“I join the *25
majority opinion[.]”). That precedent is controlling
here. See also Humane Society v. Zinke, 865 F.3d 585,
591, 595 (D.C. Cir. 2017) (applying Chevron even
though the challenged rule interpreted the Endangered Species Act, the violation of which results in
“criminal sanctions”).
Also, at least twice before, we afforded Chevron
deference to an agency’s construction of a statute in
the criminal context over the express objection of a
defendant. In United States v. Kanchanalak, 192

A44

F.3d 1037 (D.C. Cir. 1999), the defendants “argue[d]
that this court should not give Chevron deference to
the FEC’s interpretation of an ambiguous statute in a
criminal proceeding,” id. at 1047 n.17. We disagreed:
“That criminal liability is at issue does not alter the
fact that reasonable interpretations of the act are entitled to deference.” Id. (citing Babbitt, 515 U.S. at
703–705, 115 S.Ct. 2407). And in In re Sealed Case,
223 F.3d 775 (D.C. Cir. 2000), we again declined to
forgo Chevron in a criminal context, holding that
“[d]eference is due as much in a criminal context as
in any other,” id. at 779 (citing Babbitt, 515 U.S. at
703–705, 115 S.Ct. 2407).
To be sure, the Supreme Court has signaled some
wariness about deferring to the government’s interpretations of criminal statutes. See Abramski, 573
U.S. at 191, 134 S.Ct. 2259; see also United States v.
Apel, 571 U.S. 359, 369, 134 S.Ct. 1144, 186 L.Ed.2d
75 (2014) (“[W]e have never held that the Government’s reading of a criminal statute is entitled to any
deference.”). But those statements were made outside
the context of a Chevron-eligible interpretation—that
is, outside the context of an agency “speak[ing] with
the force of law.” Mead, 533 U.S. at 229, 121 S.Ct.
2164. In Abramski, the Court declined to extend deference to informal guidance documents published by
the Bureau. See 573 U.S. at 191, 134 S.Ct. 2259. And
in Apel, the Court declined to defer to an interpretation contained in “Executive Branch documents” that
were “not intended to be binding.” 571 U.S. at 368,
134 S.Ct. 1144. When directly faced with the question
of Chevron’s applicability to an agency’s interpretation of a statute with criminal applications through a

A45

full-dress regulation, the Court adhered to Chevron.
See Babbitt, 515 U.S. at 704 n.18, 115 S.Ct. 2407.
That holding, and our court’s precedents, govern
us here and call for the application of Chevron. The
parties have identified no distinction between the
provision at issue in this case and the provisions with
criminal penalties to which Chevron deference has
been applied. The briefing contains nary a word suggesting any distinction between this case and prior
decisions applying Chevron in criminal contexts. And
neither Guedes nor counsel for the government offered any distinction even when specifically asked at
oral argument. See Oral Argument at 6:08–7:15,
45:45–49:00.
Nothing in the relevant statutory delegations of
authority, moreover, suggests a basis for denying
Chevron treatment for agency actions with criminal
implications The Supreme Court has instructed that
the inquiry turns on whether the “language of the
delegation provision” is sufficiently “broad” such that
it is “clear * * * the statute gives [the] agency * * *
power to enforce all provisions of the statute.” Gonzales v. Oregon, 546 U.S. 243, 258, 126 S.Ct. 904, 163
L.Ed.2d 748 (2006) (emphasis added). In Gonzales,
for example, the Court found that the Attorney General lacked power to interpret a particular criminal
provision of the Controlled Substances Act because
the delegation of rulemaking authority was too narrow and “did not delegate to the Attorney General
authority to carry out or effect all provisions of the
CSA.” Id. at 259, 126 S.Ct. 904 *26 (emphasis added).
By contrast, the two pertinent delegation provisions
in this case are framed in broad terms. See 18 U.S.C.

A46

§ 926(a) (delegating to Attorney General the power to
prescribe “such rules and regulations as are necessary to carry out the provisions of [the Gun Control
Act]”); 26 U.S.C. § 7805(a) (delegating to Attorney
General, see id. § 7801(a)(2)(A), the power to “prescribe all needful rules and regulations for the enforcement of [the National Firearms Act]”).
The statutory context bolsters the inference that
Congress intended those delegations to encompass
regulations with criminal implications. The Gun Control Act, found at Chapter 44 of Title 18, is a purely
criminal statute. See 18 U.S.C. § 924(a)(2). Yet
§ 926(a) expressly delegates to the Attorney General
the power to promulgate “such rules and regulations
as are necessary to carry out the provisions of th[at]
chapter.” Similarly, the National Firearms Act, found
at Chapter 53 of Title 26, has criminal applications.
See 18 U.S.C. § 924(a)(2); United States v. Thompson/Center Arms Co., 504 U.S. 505, 517, 112 S.Ct.
2102, 119 L.Ed.2d 308 (1992). The penalty for
“fail[ing] to comply with any provision of th[at] chapter” is a fine of up to $10,000, or imprisonment for up
to 10 years, or both. 26 U.S.C. § 5871. And yet
§ 7801(a)(2)(A) tasks the Attorney General with
“[t]he administration and enforcement of * * * Chapter 53,” including “prescrib[ing] all needful rules and
regulations for * * * enforcement.” Id. § 7805(a).
The plaintiffs rely on United States v. Thompson/Center Arms Co., in which the Supreme Court
applied the rule of lenity to an ambiguous provision
of the National Firearms Act. 504 U.S. at 517–518,
112 S.Ct. 2102. But Babbitt later made clear that the
Court in Thompson/Center had no occasion to apply

A47

Chevron: Thompson/Center, the Babbitt Court explained, “rais[ed] a narrow question concerning the
application of a statute that contain[ed] criminal
sanctions * * * where no regulation was present.”
Babbitt, 515 U.S. at 704 n.18, 115 S.Ct. 2407 (emphasis added). If anything, then, Babbitt implies that
Chevron should apply in a case—like this one—
involving an interpretation of the National Firearms
Act where a regulation is present.
The plaintiffs also cite United States v. McGoff,
831 F.2d 1071 (D.C. Cir. 1987), a pre-Babbitt decision
that interpreted the statute-of-limitations provision
of the Foreign Agents Registration Act. We observed
in passing that, “[n]eedless to say, in this criminal
context, we owe no deference to the Government’s interpretation of the statute.” Id. at 1080 n.17. As in
Thompson/Center, however, the McGoff Court had no
occasion to apply Chevron because the government
never asserted reliance on a regulation or other
Chevron-eligible instrument. See id.
At oral argument, the plaintiffs suggested that
permitting an agency’s interpretation to carry the
force of law in the criminal context would infringe the
separation of powers. See Oral Argument 6:51–6:58.
That suggestion is difficult to square with the Supreme Court’s decision in Touby v. United States, 500
U.S. 160, 111 S.Ct. 1752, 114 L.Ed.2d 219 (1991).
There, the Court upheld a delegation of legislative
authority to the Attorney General to schedule substances under the Controlled Substances Act against
a challenge under the nondelegation doctrine. Id. at
164, 111 S.Ct. 1752. The Court held that, in the criminal context, as in all contexts, the separation of pow-

A48

ers “does not prevent Congress from seeking assistance * * * from its coordinate Branches” so long as
Congress “lays down by legislative act an intelligible
principle to which the person or body authorized to
act is directed to conform.” Id. at 165, 111 S.Ct. 1752
(alterations *27 omitted) (quoting J.W. Hampton, Jr.,
& Co. v. United States, 276 U.S. 394, 409, 48 S.Ct.
348, 72 L.Ed. 624 (1928) ). And no party suggests
that such an intelligible principle is lacking in this
case.
In short, Congress delegated authority to administer the National Firearms Act and the Gun Control
Act to the Attorney General, and the Attorney General promulgated a legislative rule in the exercise of
that authority. Under binding precedent, Guedes and
Codrea have failed to demonstrate a likelihood of
success on their claim that the Rule is invalid just
because of its criminal-law implications.
(iii)
Relatedly, Guedes argue that Chevron is inapplicable because a different canon of interpretation, the
rule of lenity, should control instead. Under the rule
of lenity, “ambiguity concerning the ambit of criminal
statutes should be resolved in favor of lenity.” Rewis
v. United States, 401 U.S. 808, 812, 91 S.Ct. 1056, 28
L.Ed.2d 493 (1971). Guedes reasons that because
Chevron is premised on the existence of statutory
ambiguity, and because the rule of lenity resolves
ambiguity in favor of the defendant, there is no remaining ambiguity to which Chevron can apply.
It is true that the rule of lenity generally applies to
the interpretation of the National Firearms Act and

A49

the Gun Control Act. But in circumstances in which
both Chevron and the rule of lenity are applicable,
the Supreme Court has never indicated that the rule
of lenity applies first. In fact, the Court has held to
the contrary. In Babbitt, the Court squarely rejected
the argument that “the rule of lenity should foreclose
any deference to the Secretary’s interpretation of the
ESA because the statute includes criminal penalties.”
515 U.S. at 704 n.18, 115 S.Ct. 2407. The Court observed that it had “never suggested that the rule of
lenity should provide the standard for reviewing facial challenges to administrative regulations whenever
the governing statute authorizes criminal enforcement.” Id. The Court proceeded to apply Chevron deference. Id. at 703, 115 S.Ct. 2407.
Our precedent takes the same tack. In Kanchanalak, we expressly rebuffed the argument that Guedes
now presses: “To argue, as defendants do, that the
rule of lenity compels us to reject the FEC’s otherwise
reasonable interpretation of an ambiguous statutory
provision [under Chevron] is to ignore established
principles of law.” 192 F.3d at 1050 n.23 (citing Babbitt, 515 U.S. at 704 n.18, 115 S.Ct. 2407).
Those precedents are in line with the Supreme
Court’s characterization of the rule of lenity as a canon of “last resort.” The Court has instructed that
“[t]he rule comes into operation at the end of the process of construing what Congress has expressed, not
at the beginning as an overriding consideration of being lenient to wrongdoers.” Callanan v. United
States, 364 U.S. 587, 596, 81 S.Ct. 321, 5 L.Ed.2d 312
(1961). Accordingly, the rule of lenity applies only
“when the ordinary canons of statutory construction

A50

have revealed no satisfactory construction.” Lockhart
v. United States, ––– U.S. ––––, 136 S.Ct. 958, 968,
194 L.Ed.2d 48 (2016). And Chevron is a rule of statutory construction, insofar as it is a doctrine that
“constru[es] what Congress has expressed.” Callanan, 364 U.S. at 596, 81 S.Ct. 321.
Finally, our approach coheres with the rule of lenity’s purposes. The doctrine serves to ensure that “legislatures and not courts [are] defin[ing] criminal activity” and to secure “fair warning” about the content
of criminal law. United States v. Bass, 404 U.S. 336,
348, 92 S.Ct. 515, 30 L.Ed.2d 488 (1971) (internal
quotation *28 marks omitted). Chevron deference
vindicates both purposes.
First, Chevron is consistent with the separation of
powers, including for regulations defining criminal
activity, because delegations of legislative authority
in the criminal sphere are constitutional. See Touby,
500 U.S. at 165, 111 S.Ct. 1752. The parties would
have us disregard Congress’s textual delegations to
the agency and do the interpretive work instead.
That course, though, would not respect the notion
that “legislatures and not courts” should take the
lead. Bass, 404 U.S. at 348, 92 S.Ct. 515.
Second, Chevron promotes fair notice about the
content of criminal law. It applies only when, at Congress’s direction, agencies have followed “relatively
formal administrative procedure tending to foster the
fairness and deliberation that should underlie a pronouncement of such force.” Mead, 533 U.S. at 230,
121 S.Ct. 2164. Importantly, such procedures, which
generally include formal public notice and publication

A51

in the Federal Register, do not “provide such inadequate notice of potential liability as to offend the rule
of lenity.” Babbitt, 515 U.S. at 704 n.18, 115 S.Ct.
2407. Tellingly, there is no suggestion of inadequate
notice here. Rather, if the Rule is a valid legislative
rule, all are on notice of what is prohibited.
For substantially the same reasons, plaintiffs’
challenge under the Due Process Clause cannot succeed. To apply Chevron, Codrea notes, we must first
determine that the statute is ambiguous, but that, in
Codrea’s view, would imply that the statute is facially
void for vagueness. Codrea’s challenge is misconceived. A criminal statute is void for vagueness if it
fails to provide ordinary people “fair notice” of the
conduct it proscribes. Sessions v. Dimaya, ––– U.S. ––
––, 138 S.Ct. 1204, 1223, 200 L.Ed.2d 549 (2018). But
the promulgation of the Bump-Stock Rule through
notice-and-comment procedures afforded “fair notice”
of the prohibited conduct.
2
Having concluded that the Chevron framework is
applicable, we now proceed to examine the BumpStock Rule under it. We first ask whether the agencyadministered statute is ambiguous on the “precise
question at issue.” Chevron, 467 U.S. at 842, 104
S.Ct. 2778. If the statute’s meaning is unambiguous,
then we need go no further. But if we find ambiguity,
we proceed to the second step and ask whether the
agency has provided a “permissible construction” of
the statute. Id. at 843, 104 S.Ct. 2778. At that stage,
“the task that confronts us is to decide, not whether
[the agency’s interpretation is] the best interpreta-

A52

tion of the statute, but whether it represents a reasonable one.” Atl. Mut. Ins. Co. v. Comm’r, 523 U.S.
382, 389, 118 S.Ct. 1413, 140 L.Ed.2d 542 (1998).
The National Firearms Act and the Gun Control
Act both define “machinegun” to mean “any weapon
which shoots, is designed to shoot, or can be readily
restored to shoot, automatically more than one shot,
without manual reloading, by a single function of the
trigger.” 26 U.S.C. § 5845(b); see 18 U.S.C.
§ 921(a)(23). The definition of “machinegun” also includes “any part designed and intended solely and
exclusively, or combination of parts designed and intended, for use in converting a weapon into a machinegun, and any combination of parts from which a
machinegun can be assembled if such parts are in the
possession or under the control of a person.” 26
U.S.C. § 5845(b).
The Bump-Stock Rule determines that semiautomatic rifles equipped with bump-stock-type devices
are “machineguns” *29 because they “function[ ] as
the result of a self-acting or self-regulating mechanism that allows the firing of multiple rounds”
through “a single pull of the trigger.” 83 Fed. Reg. at
66,553. Applying Chevron, we determine that the
statutory definition of “machinegun” is ambiguous
and the Bureau’s interpretation is reasonable. The
plaintiffs therefore are unlikely to succeed on the
merits of their claim that the Rule is out of step with
the statutory definition.
a
At Chevron’s first step, two features of the statutory definition of “machinegun” render it ambiguous.

A53

The first is the phase “single function of the trigger.”
The second is the word “automatically.” We discuss
them in that order.
(i)
As the district court recognized, the statutory
phrase “single function of the trigger” admits of more
than one interpretation. It could mean “a mechanical
act of the trigger.” Guedes, 356 F.Supp.3d at 130. Or
it could mean “a single pull of the trigger from the
perspective of the shooter.” Id.
The first interpretation would tend to exclude
bump-stock devices: while a semiautomatic rifle outfitted with a bump stock enables a continuous, highspeed rate of fire, it does so by engendering a rapid
bumping of the trigger against the shooter’s stationary finger, such that each bullet is fired because of a
distinct mechanical act of the trigger. The second interpretation would tend to include bump-stock devices: the shooter engages in a single pull of the trigger
with her trigger finger, and that action, via the operation of the bump stock, yields a continuous stream of
fire as long she keeps her finger stationary and does
not release it. See 83 Fed. Reg. at 66,519.
Neither of those interpretations is compelled (or
foreclosed) by the term “function” in “single function
of the trigger.” The word “function” focuses our attention on the “mode of action,” 4 Oxford English Dictionary 602 (1933), or “natural * * * action,” Webster’s New International Dictionary 876 (1933), by
which the trigger operates. But the text is silent on
the crucial question of which perspective is relevant.

A54

A mechanical perspective, for instance, might focus on the trigger’s release of the hammer, which
causes the release of a round. From that perspective,
a “single function of the trigger” yields a single round
of fire when a bump-stock device moves the trigger
back and forth. By contrast, from the perspective of
the shooter’s action, the function of pulling the trigger a single time results in repeated shots when a
bump-stock device is engaged. From that perspective,
then, a “single function of the trigger” yields multiple
rounds of fire.
In light of those competing, available interpretations, the statute contains a “gap for the agency to
fill.” Chevron, 467 U.S. at 843, 104 S.Ct. 2778.
Guedes argues that the phrase “single function of
the trigger” unambiguously compels a focus on the
trigger’s mechanical operation. He contends, for example, that “[r]egardless of the mechanism by which
the shooter acts * * * it is the movement of the trigger
releasing the hammer * * * that define[s] the boundaries of two distinct ‘single’ functions of the trigger.”
Guedes Br. 12–13. That argument begs the crucial
question of perspective. It may be reasonable to take
the view, as Guedes does, that the mechanical operation of the trigger is the lens through which to view
its function. But to establish a likelihood of success
on the merits, Guedes *30 and Codrea would have to
establish that reading the statute to mean a “single
pull of the trigger” by the shooter is impermissible.
They have not done so.
At Chevron’s first step, we do not ask which of
those interpretations is the better reading of the

A55

statute. Rather, we ask whether either of those interpretations is unambiguously “compel[led]” by the
statute, to the exclusion of the other one. Chevron,
467 U.S. at 860, 104 S.Ct. 2778. Here, we think the
answer is no.
Nor does Staples v. United States, 511 U.S. 600,
114 S.Ct. 1793, 128 L.Ed.2d 608 (1994), compel a particular interpretation of “single function of the trigger.” There, in a footnote, the Court observed that a
weapon is “automatic” if it “fires repeatedly with a
single pull of the trigger”—“[t]hat is, [if] once its trigger is depressed, the weapon will automatically continue to fire until its trigger is released or the ammunition is exhausted.” Id. at 602 n.1, 114 S.Ct. 1793.
The Court’s description, then, speaks both in terms of
a “single pull of the trigger” and a “release[ ]” of the
trigger, id. (emphasis added), which ultimately sheds
limited light on the choice between the two competing
understandings of “function of the trigger” that are at
issue here. Regardless, the precise definition of “single function of the trigger” was not at issue in Staples. See id. at 602, 114 S.Ct. 1793. And the Court did
not purport to exclude any interpretation as foreclosed by the statute. Cf. Nat’l Cable & Telecomms.
Ass’n v. Brand X Internet Servs., 545 U.S. 967, 996,
125 S.Ct. 2688, 162 L.Ed.2d 820 (2005).
(ii)
Similarly, the statutory term “automatically” admits of multiple interpretations. The statute speaks
in terms of a “weapon which shoots * * * automatically more than one shot, without manual reloading, by
a single function of the trigger.” 26 U.S.C. § 5845(b);

A56

see 18 U.S.C. § 921(a)(23). The term “automatically”
does not require that there be no human involvement
to give rise to “more than one shot.” Rather, the term
can be read to require only that there be limited human involvement to bring about more than one shot.
See, e.g., Webster’s New International Dictionary 157
(defining “automatically” as the adverbial form of
“automatic”); id. at 156 (defining “automatic” as “selfacting or self-regulating,” especially applied to “machinery or devices which perform parts of the work
formerly or usually done by hand” (emphasis added)).
But how much human input in the “self-acting or
self-regulating” mechanism is too much?
The plaintiffs would read the phrase “by a single
function of the trigger” to provide “the starting and
the ending point of just how much human input is allowable.” Codrea Br. 14. In their view, then, a gun
cannot be said to fire “automatically” if it requires
both a single pull of the trigger and constant pressure on the gun’s barrel, as a bump-stock device requires. We are unpersuaded. After all, a quite common feature of weapons that indisputably qualify as
machine guns is that they require both a single pull
of the trigger and the application of constant and
continuing pressure on the trigger after it is pulled.
We know, therefore, that the requirement of some
measure of additional human input does not render a
weapon nonautomatic. To purloin an example from
the district court: an “automatic” sewing machine
still “requires the user to press a pedal and direct the
fabric.” Guedes, 356 F.Supp.3d at 131 (emphasis added).

A57

That workaday example illustrates another, perhaps more natural, reading of “automatically”: the
“automatic[ ]” mechanism need only be “set in motion” by a single function of the trigger. *31 United
States v. Olofson, 563 F.3d 652, 658 (7th Cir. 2009)
(emphasis added); see also United States v. Evans,
978 F.2d 1112, 1113 n.2 (9th Cir. 1992) (“ ‘[B]y a single function of the trigger’ describes the action that
enables the weapon to ‘shoot automatically without
manual reloading, not the ‘trigger’ mechanism.” (ellipses omitted)). That is, rather than reading the
phrase “by a single function of the trigger” to mean
“by only a single function of the trigger,” the phrase
can naturally be read to establish only the preconditions for setting off the “automatic” mechanism,
without foreclosing some further degree of manual
input such as the constant forward pressure needed
to engage the bump stock in the first instance. And if
so, then the identified ambiguity endures. How much
further input is permitted in the mechanism set in
motion by the trigger? The statute does not say.
In sum, the statutory definition of “machinegun”
contains two central ambiguities, both of which the
agency has attempted to construe. We therefore proceed to Chevron’s second step.
b
At the second step, “the question for the court is
whether the agency’s [construction] is based on a
permissible construction of the statute.” Chevron, 467
U.S. at 843, 104 S.Ct. 2778. Guedes and Codrea are
not likely to succeed in showing that the agency has
impermissibly interpreted both ambiguities.

A58

The Bureau’s interpretation of “single function of
the trigger” to mean “single pull of the trigger” is a
permissible reading of the statute. The Bureau is better equipped than we are to make the pivotal policy
choice between a mechanism-focused and shooterfocused understanding of “function of the trigger.”
And the Bureau’s interpretation comports with how
some courts have read the statute, which is a strong
sign of reasonableness. In Akins v. United States, 312
F. App’x 197 (11th Cir. 2009), for example, the Eleventh Circuit held that the Bureau’s reading of “single
function of the trigger” to mean “single pull of the
trigger” was “consonant with the statute and its legislative history.” Id. at 200. The court relied on that
definition to conclude that an “Accelerator”—a type of
bump stock—was reasonably classified as a machine
gun. Id. And “single pull of the trigger” has been the
definition the agency has employed since 2006. See 83
Fed. Reg. at 66,543. The Rule’s interpretation also
accords with how the phrase “single pull of the trigger” was understood at the time of the enactment of
the National Firearms Act. See 83 Fed. Reg. at
66,518. The Rule cites a congressional hearing for the
National Firearms Act in which the then-president of
the National Rifle Association testified that the term
“machine gun” included any gun “capable of firing
more than one shot by a single pull of the trigger, a
single function of the trigger.” 83 Fed. Reg. 66,518.
And the House Report accompanying the bill that
eventually became the National Firearms Act states
that the bill “contains the usual definition of a machine gun as a weapon designed to shoot more than
one shot * * * by a single pull of the trigger.” H.R.
Rep. No. 73-1780, at 2 (1934).

A59

The Bureau’s interpretation of “automatically” is
permissible too. The Rule’s requirement of a “selfacting or self-regulating mechanism” demands a significant degree of autonomy from the weapon without
mandating a firing mechanism that is completely autonomous. That definition accords with the everyday
understanding of the word “automatic.” And it focuses the inquiry about what needs to be automated
right where the statute does: the ability of the trigger
function to produce “more than *32 one shot, without
manual reloading.” 26 U.S.C. § 5845(b). It also tracks
the interpretation reached by the Seventh Circuit in
United States v. Olofson, 563 F.3d 652 (7th Cir.
2009), in which the court interpreted the term to require a “self-acting mechanism” without requiring
more, id. at 658.
The plaintiffs argue that the Bureau’s definition of
“machinegun” is unreasonable because it has the effect of reaching all semiautomatic rifles. Because
“virtually all” semiautomatic rifles can be “bumpfired” with the use of common household items, the
plaintiffs contend, the Bureau’s definition covers even
unmodified semiautomatic rifles, which renders it
unreasonable. Guedes Br. 18.
The Rule explains why the plaintiff’s understanding is incorrect, and the Rule’s explanation in that
regard is reasonable. See 83 Fed. Reg. at 66,532–
66,534. The Bureau acknowledges that bump firing—
a technique using a stable point like a belt loop to
approximate the function of a bump stock—is possible with semiautomatic weapons. See id. at 66,533.
But even when a semiautomatic weapon is bump
fired using an object like a belt loop or a rubber band,

A60

the Bureau explained, the weapon does not fire “automatically” because there is no “self-acting or selfregulating mechanism.” Rubber bands and their ilk
do not “capture and direct the recoil energy” to “harness[ ] [it] as part of a continuous back-and-forth cycle.” Id. at 66,533. Rather, “the shooter must do so”
herself. Id. Bump firing without the aid of a bumpstock-type device is therefore “more difficult” because
it relies solely on the shooter “to control the distance
that the firearm recoils and the movement along the
plane on which the firearm recoils.” Id.
Bump stocks, on the other hand, are specifically
designed to “direct[ ] the recoil energy of the discharged rounds * * * in constrained linear rearward
and forward paths.” Id. at 66,532. By capturing the
recoil energy of the gun and directing it through a
specified “distance” and along a specified “plane,”
bump stocks “incorporate[ ] a self-acting or selfregulating component” that would otherwise be absent. Id. at 66,533. Thus, belt loops, unlike bump
stocks, do not transform semiautomatic weapons into
statutory “machineguns.” Or so the Bureau reasonably concluded in the Rule.
“If a statute is ambiguous, and if the implementing
agency’s construction is reasonable, Chevron requires
a federal court to accept the agency’s construction of
the statute, even if the agency’s reading differs from
what the court believes is the best statutory interpretation.” Brand X, 545 U.S. at 980, 125 S.Ct. 2688.
Here, the Bump-Stock Rule sets forth a permissible
interpretation of the statute’s ambiguous definition of
“machinegun.” It therefore merits our deference.

A61

C
In addition to their argument that the Rule is incompatible with the statutory definition of a machine
gun, the plaintiffs also contend that the Rule is arbitrary and capricious. Agency action is arbitrary or
capricious if “the agency has relied on factors which
Congress has not intended it to consider, entirely
failed to consider an important aspect of the problem,
offered an explanation for its decision that runs counter to the evidence before the agency, or is so implausible that it could not be ascribed to a difference in
view or the product of agency expertise.” Motor Vehicle Mfrs. Ass’n v. State Farm Mut. Auto. Ins. Co., 463
U.S. 29, 43, 103 S.Ct. 2856, 77 L.Ed.2d 443 (1983).
Here, the plaintiffs claim that, for various reasons,
the Rule is arbitrary in applying the statutory definition of “machinegun” to *33 bump stocks. None of
their claims is likely to succeed.
First, the plaintiffs argue that the Rule fundamentally mischaracterizes the operation of bump-stock
devices. In their view, the Rule disregards that, for
each shot, “the shooter must manually and volitionally push the trigger into [a] stationary finger.” Guedes
Br. 24. It is true that, for a bump-stock-equipped device to repeatedly fire, the shooter must keep the
bumpstock engaged by maintaining constant forward
pressure on the gun. But in the Rule, the Bureau correctly describes the operation of bump-stock-equipped
devices: the shooter must “maintain[ ] constant forward pressure [on the gun] with the non-trigger
hand” in order to maintain continuous fire. 83 Fed.
Reg. at 66,532. The bump stock takes advantage of
the gun’s recoil, channeled into a linear back-and-

A62

forth cycle, to permit the shooter to fire continuously
by maintaining steady forward pressure on the gun.
There is thus no disagreement about the basic mechanics of bump-stock devices.
Guedes takes particular issue with the Rule’s
characterization of recoil. He argues that bumpstock-equipped devices cannot “harness[ ] the recoil
energy of the firearm” because they do not use “a device such as a spring or hydraulics * * * [to] automatically absorb the recoil and use this energy to activate
itself.” Guedes Br. 16–17. But the Rule does not
adopt such an impoverished definition of “automatically.” The Rule requires only that the recoil be used
in service of a “self-acting or self-regulating mechanism.” A bump stock “direct[s] the recoil energy of the
discharged rounds * * * in constrained linear rearward and forward paths,” 83 Fed. Reg. at 66,518
(quoting 83 Fed. Reg. at 13,443), which qualifies as a
“self-regulating mechanism.”
Second, the plaintiffs assert that the Rule is arbitrary because its definition encompasses all semiautomatic weapons. That argument is largely redundant of the plaintiffs’ Chevron step two argument to
the same effect, which we have already addressed.
We dispose of this iteration of the same argument on
the same grounds: Bump stocks, unlike commonplace
household objects, are specifically designed to “direct[
] the recoil energy of the discharged rounds * * * in
constrained linear rearward and forward paths.” Id.
Bump stocks, unlike household objects, are machine
guns because they alone involve a “self-acting or selfregulating mechanism.” Id.

A63

Third, the plaintiffs submit that the Rule arbitrarily excludes binary-trigger guns from its definition of
“machinegun.” Binary-trigger guns shoot one round
when the trigger is pulled and another round when
the trigger is released. 83 Fed. Reg. at 66,534. The
Rule concludes that such devices are not machine
guns because the second shot is “the result of a separate function of the trigger.” Id. The plaintiffs argue
that if the release of the trigger is a separate function, the operation of a bump stock—which requires
the shooter to keep the trigger finger stationary while
steadily pushing the gun forward into the finger—
must also involve multiple functions of the trigger.
But the Rule reasonably distinguishes binary-trigger
guns on the ground that they require a second act of
volition with the trigger finger. The release of a trigger is a volitional motion. But merely holding the
trigger finger stationary—which is what operation of
a bump stock entails—is not.
Fourth, Guedes contends that the Rule is arbitrary
because its definition of “automatically” is ambiguous. The Rule’s definition, Guedes notes, does not
specify how much manual input is too much. But *34
the existence of latent ambiguity does not render an
interpretation arbitrary or capricious. Agencies are
permitted to promulgate regulations interpreting
ambiguous statutes without having to resolve all possible ambiguity.
Fifth, Codrea argues that the Rule arbitrarily
failed to consider reliance interests, “an important
aspect of the problem.” State Farm, 463 U.S. at 43,
103 S.Ct. 2856. It is true that “the APA requires an
agency to provide more substantial justification when

A64

* * * its prior policy has engendered serious reliance
interests that must be taken into account.” Perez, 135
S.Ct. at 1209 (quoting FCC v. Fox Television Stations,
Inc., 556 U.S. 502, 515, 129 S.Ct. 1800, 173 L.Ed.2d
738 (2009)). But the only reliance interest identified
by Codrea is the pecuniary interest of current possessors of bumpstock devices. See Codrea Br. 19–20 & 19
n.4; Comment of Maryland Shall Issue at 6. And in
the Rule, the Bureau engaged in a cost-benefit analysis that considered, among other things, the cost incurred by owners of bump-stock devices. See 83 Fed.
Reg. at 66,546.
Finally, Guedes argues that the Rule is arbitrary
because it is the product of “naked political desire.”
Guedes Br. 18. Insofar as Guedes means to claim that
the Rule arises from political considerations, he is
surely right. All would agree that the Bureau enacted
this Rule in response to the urging of “the President,
Members of Congress, and others,” as part of an
“immediate and widespread” outcry in the wake of
the 2017 mass shooting in Las Vegas. Guedes, 356
F.Supp.3d at 120, 123. The Rule itself describes its
origins in a memorandum issued by President Trump
to then–Attorney General Sessions “direct[ing] the
Department of Justice * * * ‘as expeditiously as possible, to propose for notice and comment a rule banning all devices that turn legal weapons into machineguns.’ ” 83 Fed. Reg. at 66,516–66,517 (quoting
Application of the Definition of Machinegun to ‘Bump
Fire’ Stocks and Other Similar Devices, 83 Fed. Reg.
7,949 (Feb. 23, 2018)). But that is hardly a reason to
conclude that the Rule is arbitrary. Presidential administrations are elected to make policy. And “[a]s

A65

long as the agency remains within the bounds established by Congress, it is entitled to assess administrative records and evaluate priorities in light of the
philosophy of the administration.” Nat’l Ass’n of
Home Builders v. EPA, 682 F.3d 1032, 1043 (D.C. Cir.
2012) (quoting State Farm, 463 U.S. at 59, 103 S.Ct.
2856 (Rehnquist, J., concurring in part and dissenting in part)).
Guedes might instead mean to contend that the
Bureau was so eager to enact the policy preferences
of the President that it failed to engage in reasoned
consideration of the issues. The central purpose of
arbitrary or capricious review is to assure that the
agency has engaged in “reasoned decisionmaking.”
State Farm, 463 U.S. at 52, 103 S.Ct. 2856. We ordinarily do so, however, by examining whether the
agency has “articulate[d] a satisfactory explanation
for its actions.” Id. at 43, 103 S.Ct. 2856. Here, the
agency has articulated a satisfactory explanation for
the Bump-Stock Rule. And the administrative record
reflects that the agency kept an open mind throughout the notice-and-comment process and final formulation of the Rule. See Air Transp. Ass’n of Am. v.
Nat’l Mediation Bd., 663 F.3d 476, 487–488 (D.C. Cir.
2011); C&W Fish Co. v. Fox, 931 F.2d 1556, 1564–
1565 (D.C. Cir. 1991). In the absence of any actual
evidence of delinquent conduct, we accord the Bureau
a “presumption of regularity” in its promulgation of
the Rule. Citizens to Pres. Overton Park, Inc. v. Volpe,
401 U.S. 402, 415, 91 S.Ct. 814, 28 L.Ed.2d 136
(1971).
*35

A66

D
Finally, Codrea argues that the Rule must be vacated because it is impermissibly retroactive, violating both 26 U.S.C. § 7805(b)’s bar on retroactive
rulemaking and the Ex Post Facto Clause. That claim
has been forfeited because the plaintiffs failed to
raise it in the district court. The Rule, at any rate,
cannot be characterized as retroactive: As we have
explained, the Rule itself made clear that the possession of bump stocks would become unlawful only after the effective date.
Further, it matters not that the government’s post
hoc litigation strategy has been to characterize the
Rule as merely interpretive and, consequently, backward looking. Irrespective of that litigating position,
the Rule is legislative in character and therefore
purely prospective. Any criminal consequences did
not attach until the Rule’s effective date. And notice
to the public has been clear and explicit.
*****
The plaintiffs have failed to establish a likelihood
of success both for their challenge to Acting Attorney
General Whitaker’s appointment and for their objections to the substantive validity of the Rule. For the
foregoing reasons, we affirm the district court’s denial of a preliminary injunction.
So ordered.

A67

Karen Lecraft Henderson, Circuit Judge, concurring in part and dissenting in part:
Federal law makes it a crime to possess or transfer
a “machinegun.” 18 U.S.C. § 922(o)(1). This case is
about a Bureau of Alcohol, Tobacco, Firearms, and
Explosives (ATF) regulation that reinterprets the
statutory definition of “machinegun” and applies it to
all bump stock type devices. Bump-Stock-Type Devices, 83 Fed. Reg. 66,514 (Dec. 26, 2018) (Bump Stock
Rule or Rule). Individual firearms owners and nonprofit groups sued the ATF, seeking preliminary injunctive relief to stop the Bump Stock Rule from going into effect. The issue before us on this expedited
appeal of the district court’s denial of preliminary injunctive relief, Guedes v. ATF, 356 F.Supp.3d 109
(D.D.C. 2019), is whether the plaintiffs are likely to
succeed on the merits of their challenge to the Bump
Stock Rule as contrary to the statutory definition of
“machinegun.” Unlike my colleagues, I believe the
Bump Stock Rule does contradict the statutory definition and, respectfully, part company with them on
this issue.1
A “machinegun” is a firearm “which shoots ... automatically more than one shot, without manual reloading, by a single function of the trigger.” 26 U.S.C.
§ 5845(b). In my view, the Rule impermissibly adds to
the language “automatically ... by a single function of
the trigger,” including within its definition a firearm
that shoots more rapidly only by a single function of
the trigger and the shooter’s additional manual in-

1

I concur in Parts II and III.A of the majority opinion.

A68

put. The statute specifies a single function; the Rule
specifies a single function plus. “Whether the Government interprets a criminal statute too broadly (as
it sometimes does) or too narrowly,” we have “an obligation to correct its error.” Abramski v. United
States, 573 U.S. 169, 191, 134 S.Ct. 2259, 189
L.Ed.2d 262 (2014).
I. BACKGROUND
A. Statutory Framework
The National Firearms Act of 1934, Pub. L. No. 73474, 48 Stat. 1236, “imposes strict registration requirements on statutorily *36 defined ‘firearms.’ ”
Staples v. United States, 511 U.S. 600, 602, 114 S.Ct.
1793, 128 L.Ed.2d 608 (1994). In the 1934 legislation,
the Congress defined “machinegun” as a specific type
of “firearm.” The original text defined a “machinegun” as “any weapon which shoots, or is designed to shoot, automatically or semiautomatically,
more than one shot, without manual reloading, by a
single function of the trigger.” National Firearms Act
§ 1(b) (emphasis added). A few decades later, the Gun
Control Act of 1968, Pub. L. No. 90-618, 82 Stat.
1213, amended the definition in two key ways, deleting the phrase “or semiautomatically” and including
“parts” designed and used to “convert a weapon into a
machinegun.”2 Gun Control Act, tit. II, § 201, 82 Stat.
It thus extends to “the frame or receiver of any such weapon, any part designed and intended solely and exclusively, or
combination of parts designed and intended, for use in converting a weapon into a machinegun, and any combination of parts
from which a machinegun can be assembled if such parts are in
the possession or under the control of a person.” 26 U.S.C. §
5845(b).
2

A69

at 1231 (codified at 26 U.S.C. § 5845(b)). The definition of “machinegun” in effect today includes “any
weapon which shoots, is designed to shoot, or can be
readily restored to shoot, automatically more than
one shot, without manual reloading, by a single function of the trigger.” 26 U.S.C. § 5845(b).
The Firearms Owners’ Protection Act of 1986 (Act),
Pub. L. No. 99-308, 100 Stat. 449, effectively banned
private ownership of machine guns. Firearms Owners’ Protection Act, § 102(9) (codified at 18 U.S.C.
§ 922(o)(1)). The Act makes it “unlawful for any person to transfer or possess a machinegun,” 18 U.S.C.
§ 922(o)(1), and “machinegun” has “the meaning given ... in section 5845(b) of the National Firearms
Act,” id. § 921(a)(3). A person who “knowingly” violates the ban can be “fined ... [or] imprisoned not
more than 10 years, or both.” Id. § 924(a)(2). The ban
has two exceptions: one for “a transfer to or by, or
possession by or under the authority of” the federal
government or a state government, id. § 922(o)(2)(A),
and the other grandfathers any “machinegun” lawfully possessed before the Act went into effect, id.
§ 922(o)(2)(B).
B. History of Bump Stock Regulation
Firearms manufacturers have created various devices that allow a lawful semiautomatic rifle to perform more rapidly. A bump stock is one such device.
It replaces the standard stock of a rifle—the part that
rests against the shooter’s shoulder. A bump stock
“free[s] the weapon to slide back and forth rapidly.”
Bump-Stock-Type Devices, 83 Fed. Reg. at 66,516.
The sliding motion allows a shooter to increase his

A70

rate of fire. A rifle produces recoil energy upon firing.
The bump stock helps direct the firearm’s recoil and
convert the recoil energy into rapidly firing rounds. It
works like this: the shooter pulls the trigger; the recoil causes the firearm to slide backward; the shooter
maintains backward pressure on the trigger with the
index finger of his shooting hand and forward pressure on the barrel with his other hand. Id. This process causes the firearm to slide back and forth rapidly, bumping the shooter’s stationary trigger finger
and thereby firing additional rounds. Id.
Some bump stock devices use only the shooter’s
physical pressure to channel the recoil energy and do
not include springs or mechanical parts. Id. For these
devices, a single pull of the trigger alone—without
the shooter’s additional forward pressure—does not
cause the firearm to shoot more than one round. Video evidence in *37 the record makes this clear.3 In
the video, the shooter fires a rifle equipped with a
non-mechanical bump stock. The shooter holds the rifle with one hand, the trigger hand. He then pulls the
trigger and the rifle fires a single shot. Without his
other hand’s forward pressure on the barrel, the rifle
equipped with a non-mechanical bump stock fires only a single round with each pull of the trigger.
The ATF first classified a bump stock type device
in 2002, concluding that it was not a “machinegun.”
Id. at 66,517. The classification involved a product
called the Akins Accelerator, a bump stock that used
internal springs. “To operate the device, the shooter
3 The declaration of Rick Vasquez, a former senior ATF Technical Expert, attests to the accuracy of the video evidence.

A71

initiated an automatic firing sequence by pulling the
trigger one time, which in turn caused the rifle to recoil within the stock, permitting the trigger to lose
contact with the finger and manually reset.” Id.
“Springs in the Akins Accelerator then forced the rifle
forward, forcing the trigger against the finger, which
caused the weapon to discharge the ammunition.” Id.
The ATF interpreted the statutory language “single
function of the trigger” to mean a “single movement
of the trigger.” Id. A semi-automatic rifle fires only a
single round each time the trigger is pulled and reset.
According to the ATF, because the Akins Accelerator
did not modify how a semiautomatic rifle’s trigger
“moves” with each shot, it was not a “machinegun.”
In 2006, the ATF reclassified the Akins Accelerator as a “machinegun.” It reinterpreted the phrase
“single function of the trigger” from “single movement
of the trigger” to “single pull of the trigger.” Id. The
reinterpretation made all the difference. Once a
shooter pulls and maintains pressure on the trigger,
the internal springs of the Akins Accelerator start an
automatic sequence that keeps the rifle firing until
the shooter removes his finger or depletes the ammunition. The firing of multiple rounds based on a
single continuous pull of the trigger made the device
a “machinegun” under the ATF’s reinterpretation.
The Akins Accelerator inventor challenged the ATF’s
changed reading in federal district court (M.D. Fla.),
arguing that the Agency misinterpreted the statutory
definition of “machinegun.” The district court upheld
the ATF’s determination and the Eleventh Circuit affirmed. Akins v. United States, 312 F. App’x 197 (11th
Cir. 2009). The appellate court concluded that “the

A72

interpretation by the Bureau that the phrase ‘single
function of the trigger’ means a ‘single pull of the
trigger’ is consonant with the [National Firearms
Act] and its legislative history.” Id. at 200 (quoting 26
U.S.C. § 5845(b)).
“In ten letter rulings between 2008 and 2017, ATF
applied the ‘single pull of the trigger’ interpretation
to other bumpstock-type devices” and determined
that none qualified as a “machinegun.” Bump-StockType Devices, 83 Fed. Reg. at 66,517. Although each
device fired more than one round with a single pull of
the trigger, the ATF concluded that none was a “machinegun” because the firing sequence did not occur
“automatically.” Unlike the Akins Accelerator, the
devices did not rely on springs or mechanical parts.
In order to use them, “the shooter [had to] apply constant forward pressure with the non-shooting hand
and constant rearward pressure with the shooting
hand.” Joint Appendix (J.A.) at 278. Thus, the ATF
drew a distinction between a bump stock with mechanical parts like springs that cause a more rapid
firing sequence and a bump *38 stock that uses both
of the shooter’s hands to do the same. E.g., Letter
from Richard W. Marianos, Assistant Dir. Pub. and
Governmental Affairs, to Congressman Ed Perlmutter (April 16, 2013), reprinted at J.A. 281–82.
C. The Bump Stock Rule
In October 2017, a gunman armed with several
semiautomatic rifles killed 58 people and wounded
500 more in Las Vegas, Nevada. The rifles were
equipped with bump stock devices, which “were readily available in the commercial marketplace through

A73

online sales directly from the manufacturer, and
through multiple retailers.” Bump-Stock-Type Devices, 83 Fed. Reg. at 66,514. Using these devices, the
gunman was able to fire hundreds of rounds in a
matter of minutes. Within months, the ATF began to
promulgate a regulation to classify any bump stock
type device as a “machinegun.” President Trump directed the DOJ to “dedicate all available resources to
... propos[ing] for notice and comment a rule banning
all devices that turn legal weapons into machineguns.” Application of the Definition of Machinegun to “Bump Fire” Stocks and Other Similar
Devices, 83 Fed. Reg. 7,949 (Feb. 20, 2018).
In December 2018, the ATF promulgated the
Bump Stock Rule.4 Bump-Stock-Type Devices, 83 Fed.
Reg. at 66,514. It declares that all bump stock type
devices “are ‘machineguns’ as defined by the National
Firearms Act of 1934 and the Gun Control Act of
1968 because such devices allow a shooter of a semiautomatic firearm to initiate a continuous firing cycle
with a single pull of the trigger.” Id. According to the
Rule, the “devices convert an otherwise semiautomatic firearm into a machinegun by functioning as a selfacting or self-regulating mechanism that harnesses
the recoil energy of the semiautomatic firearm in a
manner that allows the trigger to reset and continue
firing without additional physical manipulation of the
trigger by the shooter.” Id. (emphasis added). Thus,
“a semiautomatic firearm to which a bump-stock de4 The Rule amends three separate regulations, 27 C.F.R.
§§ 447.11, 478.11, 479.11, reinterpreting with identical language
the statutory definition of “machinegun” in each.

A74

vice is attached is able to produce automatic fire with
a single pull of the trigger.” Id.
The Bump Stock Rule was scheduled to go into effect on March 26, 2019.5 There were then an estimated 280,000 to 520,000 previously legal bump stocks in
circulation in the United States. See Bump-StockType Devices, 83 Fed. Reg. 13,442, 13,451 (March 29,
2018). Under the Rule, “[b]ump-stock-type devices ...
possessed by individuals [had] to be destroyed or
abandoned” before March 26. Bump-Stock-Type Devices 83 Fed. Reg. at 66,546. Anyone who possesses or
transports the device after that date faces criminal
liability. 18 U.S.C. § 922(o)(1).
D. Procedural History
The plaintiffs, five individual firearms owners and
four non-profit organizations, challenge the Bump
Stock Rule’s legality on several grounds. Their primary challenge is that the Rule misinterprets the
statutory definition of “machinegun” and mistakenly
extends that definition to cover bump stock type devices. They also attack the Rule for alleged procedural gaps in the rulemaking process and for taking
property without just compensation in violation of
the Fifth Amendment’s Due Process *39 Clause. Finally, the plaintiffs contend that former Acting Attorney General Matthew Whitaker was not properly
appointed to his position and thus lacked authority to

5 After hearing argument on March 22, 2019, we issued an
administrative order staying the Rule’s effective date but only
as to the plaintiffs. Per Curiam Order, Guedes v. ATF, No. 195042 (D.C. Cir. March 23, 2019).

A75

approve the Rule. The plaintiffs separately moved for
preliminary injunctive relief.
The district court consolidated and denied the motions. “A plaintiff seeking a preliminary injunction
must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in
the absence of preliminary relief, that the balance of
equities tips in his favor, and that an injunction is in
the public interest.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 20, 129 S.Ct. 365, 172 L.Ed.2d 249
(2008). The district court determined that the Rule
reasonably interprets “machinegun” to include bump
stock devices. It also rejected the plaintiffs’ other
challenges either as unlikely to succeed on the merits
or as unsuitable for equitable relief. Accordingly, the
district court denied relief without reaching the other
three preliminary-injunction factors. The plaintiffs
then filed a timely interlocutory appeal. See 28 U.S.C.
§ 1292(a)(1).
II. ANALYSIS
A. STANDARD OF REVIEW
The district court’s denial of preliminary injunctive relief rests on its legal determination that the
Bump Stock Rule does not misinterpret or misapply
the statutory definition of “machinegun.” Our review
is therefore de novo. City of Las Vegas v. Lujan, 891
F.2d 927, 931–32 (D.C. Cir. 1989) (de novo review of
denial of preliminary injunctive relief where “district
judge did not make any factual determinations ...
since he was sitting in appellate review of agency action” and “denied the preliminary injunction because,
and only because, he believed the [agency] was likely

A76

to succeed on the merits”); see also Athens Cmty.
Hosp., Inc. v. Shalala, 21 F.3d 1176, 1178 (D.C. Cir.
1994) (“Upon the issue whether an administrative
regulation is lawful, we do not defer to the judgment
of the district court.”).
Despite the parties’ agreement that the de novo
standard of review applies, my colleagues, like the
district court, see Guedes, 356 F.Supp.3d at 126–27,
nonetheless review the ATF’s interpretation under
the two-step framework set out in Chevron, U.S.A.,
Inc. v. Natural Resources Defense Council, Inc., 467
U.S. 837, 842–43, 104 S.Ct. 2778, 81 L.Ed.2d 694
(1984).6 But the United States Supreme Court has
recently clarified whether the Chevron framework
applies to a statute—and, by extension a rule—
enforced by a criminal sanction. United States v.
Apel, 571 U.S. 359, 369, 134 S.Ct. 1144, 186 L.Ed.2d
75 (2014) (“[W]e have never held that the GovernEven under Chevron, “[a]n agency construction of a statute
cannot survive judicial review if a contested regulation reflects
an action that exceeds the agency’s authority.” Aid Ass’n for Lutherans v. U.S. Postal Serv., 321 F.3d 1166, 1174 (D.C. Cir.
2003). Because the Bump Stock Rule exceeds the ATF’s authority by veering from the plain meaning of the statute, I would
reach the same conclusion whether Chevron step one or de novo
review applies.
6

In reply to my colleagues’ insistence that, at the rulemaking
stage, the ATF emphasized its reliance on Chevron, Maj. Op. at
18–19, I would note that the ATF in fact declared that the
Rule’s interpretations of “single function of the trigger” and “automatically” “accord with the plain meaning of those terms.”
Bump-Stock-Type Devices, 83 Fed. Reg. at 66,527 (emphasis
added). Its “fallback” position at that stage was “even if those
terms are ambiguous, this rule rests on a reasonable construction of them.” Id. (emphasis added).

A77

ment’s reading of a criminal statute is entitled to any
deference.”). In another recent decision, Abramski v.
United States, the ATF had taken one view of 18
U.S.C. § 922(a)(6) for “almost two decades,” *40 concluding that a straw purchaser’s “misrepresentation”
counted as “material” under the statute notwithstanding the true buyer could legally possess a gun.
573 U.S. at 191, 134 S.Ct. 2259. The defendant pointed out that the ATF had until 1995 taken the opposite position, requiring the true buyer to be ineligible
to possess a gun in order to make the straw purchaser’s misrepresentation “material.” Id. The Supreme
Court responded that the “ATF’s old position [is] no
more relevant than its current one—which is to say,
not relevant at all.” Id. Indeed, “[w]hether the Government interprets a criminal statute too broadly (as
it sometimes does) or too narrowly (as the ATF used
to in construing § 922(a)(6)), a court has an obligation
to correct its error.” Id. In its Apel and Abramski decisions, then, “[t]he Supreme Court has expressly instructed us not to apply Chevron deference when an
agency seeks to interpret a criminal statute.”
Gutierrez-Brizuela v. Lynch, 834 F.3d 1142, 1156
(10th Cir. 2016) (Gorsuch, J., concurring).
My colleagues believe that this case is different because the 26 U.S.C. § 5845(b) definition of “machinegun” has both civil7 and criminal8 enforcement

See 26 U.S.C. § 5872(a) (“Any firearm involved in any violation of the provisions of this chapter shall be subject to seizure
and forfeiture, and (except as provided in subsection (b)) all the
provisions of internal revenue laws relating to searches, seizures, and forfeitures of unstamped articles are extended to and
7

A78

implications. They reach their conclusion regarding
the applicable standard of review based in part on a
footnote in Babbitt v. Sweet Home Chapter of Communities for a Great Oregon, 515 U.S. 687, 115 S.Ct.
2407, 132 L.Ed.2d 597 (1995). That case involved a
regulation interpreting the definition of “harm” under
the Endangered Species Act, a regulation with both
criminal and civil enforcement implications. Id. at
704, 115 S.Ct. 2407 n.18. The Supreme Court deferred to the Secretary of the Interior’s interpretation
under Chevron. Id. at 703–04, 115 S.Ct. 2407. The
majority reads Babbitt—and some of our precedent—
to establish a bright-line rule that any regulation
with both civil and criminal enforcement provisions
merits Chevron deference. Maj. Op. at 23–25; see In
re Sealed Case, 223 F.3d 775, 779 (D.C. Cir. 2000);
United States v. Kanchanalak, 192 F.3d 1037, 1047
n.17 (D.C. Cir. 1999).9
made to apply to the articles taxed under this chapter, and the
persons to whom this chapter applies.”).
See 18 U.S.C. § 922(o)(1) (“[I]t shall be unlawful for any person to transfer or possess a machinegun.”); 18 U.S.C.
§ 921(a)(23) (“The term ‘machinegun’ has the meaning given
such term in section 5845(b) of the National Firearms Act (26
U.S.C. 5845(b)).”); 18 U.S.C. § 924(a) (establishing penalties for
“knowing[ ]” or “willful[ ]” violation of, inter alia, section
922(o)(1)’s ban on machinegun possession or transfer).
8

One post-Apel and Abramski Circuit decision applies the
Chevron framework to a regulation with criminal and civil enforcement provisions. Competitive Enter. Inst. v. U.S. Dep’t of
Transp., 863 F.3d 911, 915 (D.C. Cir. 2017). But only one judge
signed on to that view; one dissented and another wrote separately to explain that he would reach the same result under de
novo review, which made Chevron’s applicability vel non unnecessary to his vote, id. at 921 (Kavanaugh, J., concurring).
9

A79

With respect, I am not convinced that my colleagues’ reading of Babbitt as the last word on this
topic is correct. See Solid Waste Agency of N. Cook
Cty. v. U.S. Army Corps of Eng’rs, 531 U.S. 159, 174
n.8, 121 S.Ct. 675, 148 L.Ed.2d 576 (2001) (declining,
post-Babbitt, to address relationship between Chevron and agency regulation interpreting statute with
criminal sanction). The Supreme Court’s most recent
decisions indicate, as the ATF and the plaintiffs argue here, Government Br. 36–37; *41 Codrea Opening Br. at 9–11, that Chevron review does not apply
to a statute/rule with criminal sanctions.10 Apel, 571
U.S. at 369, 134 S.Ct. 1144; Abramski, 573 U.S. at
191, 134 S.Ct. 2259. And if Chevron review does not
apply to a statute/rule with criminal sanctions, Chevron cannot apply to a statute/rule with both criminal
and civil sanctions. See Clark v. Martinez, 543 U.S.
371, 380, 125 S.Ct. 716, 160 L.Ed.2d 734 (2005) (a
statute can have only a single meaning and “[t]he
lowest common denominator, as it were, must govern”); Leocal v. Ashcroft, 543 U.S. 1, 11 n.8, 125 S.Ct.
377, 160 L.Ed.2d 271 (2004) (“[W]e must interpret [a]
statute consistently, whether we encounter its application in a criminal or noncriminal context.”). Again,
with respect, the majority may misread Babbitt,
which itself includes language that can allow its hold10 I leave for another day whether the Government can
“waive” Chevron review, as my colleagues view the ATF’s stance
here. Maj. Op. at 21–23; but see Glob. Tel*Link v. FCC, 866 F.3d
397, 417 (D.C. Cir. 2017) (“it would make no sense for this court
to determine whether” agency action “warrant[s] Chevron deference” if the agency “no longer seeks deference”). I view the
ATF’s stance to be that Chevron is inapplicable—period. Government Br. 36–37.

A80

ing to be reconciled with recent Supreme Court decisions:
We have never suggested that the rule of
lenity should provide the standard for reviewing facial challenges to administrative regulations whenever the governing statute authorizes criminal enforcement. Even if there exist
regulations whose interpretations of statutory
criminal penalties provide such inadequate notice of potential liability as to offend the rule of
lenity, the “harm” regulation, which has existed for two decades and gives a fair warning of
its consequences, cannot be one of them.
515 U.S. at 704 n.18, 115 S.Ct. 2407. Footnote 18
suggests, I submit, that a regulation with a criminal
sanction can violate the rule of lenity but concluded
that the regulation at issue, with its longstanding
definition of “harm,” did not do so. Id. My reading allows Babbitt to be harmonized with more recent decisions: Chevron does not apply to a regulation enforced both civilly and criminally unless the regulation gives fair warning sufficient to avoid posing a
rule of lenity problem. The ATF’s interpretation of
“machinegun” gives anything but fair warning—
instead, it does a volte-face of its almost eleven years’
treatment of a non-mechanical bump stock as not
constituting a “machinegun.”
Although I do not dispute that the ATF has been
delegated general rulemaking authority to implement
section 5845(b), inter alia, I am less certain than my
colleagues that we owe deference to the ATF’s interpretation of section 5845(b). “Deference under Chev-

A81

ron to an agency’s construction of a statute that it
administers is premised on the theory that a statute’s
ambiguity constitutes an implicit delegation from
Congress to the agency to fill in the statutory gaps.”
FDA v. Brown & Williamson Tobacco Corp., 529 U.S.
120, 159, 120 S.Ct. 1291, 146 L.Ed.2d 121 (2000).
Statutory ambiguity, if it exists, does not necessarily
constitute an implicit delegation. King v. Burwell, ––
– U.S. ––––, 135 S.Ct. 2480, 2488–89, 192 L.Ed.2d
483 (2015); United States Telecom Ass’n v. FCC, 855
F.3d 381, 419–24 (D.C. Cir. 2017) (Kavanaugh, J.,
dissenting from denial of rehearing en banc). The
Congress must, for instance, “speak clearly if it wishes to assign to an agency decisions of vast economic
and political significance.” Util. Air Regulatory Grp.
v. EPA, 573 U.S. 302, 324, 134 S.Ct. 2427, 189
L.Ed.2d 372 (2014) (quotation marks omitted). There
is good reason to believe that a similar clearstatement rule *42 applies in the criminal law context. Under longstanding separation-of-powers principles, the Congress defines the criminal law and
must speak distinctly to delegate its responsibility.11
United States v. Bass, 404 U.S. 336, 348, 92 S.Ct.
515, 30 L.Ed.2d 488 (1971); United States v. Grimaud, 220 U.S. 506, 519, 522, 31 S.Ct. 480, 55 L.Ed.
563 (1911); United States v. Eaton, 144 U.S. 677, 688,

11 The Supreme Court has upheld executive branch interpretations of the criminal law based on express delegations of interpretive authority. See United States v. O’Hagan, 521 U.S. 642,
667, 117 S.Ct. 2199, 138 L.Ed.2d 724 (1997) (Securities Exchange Act of 1934); Touby v. United States, 500 U.S. 160, 165–
69, 111 S.Ct. 1752, 114 L.Ed.2d 219 (1991) (Controlled Substances Act).

A82

12 S.Ct. 764, 36 L.Ed. 591 (1892). Unlike with civil
statutes, then, ambiguity in the criminal law is presumptively for the Congress—not the ATF—to resolve. Whitman v. United States, ––– U.S. ––––, 135
S.Ct. 352, 354, 190 L.Ed.2d 381 (2014) (Scalia, J.,
statement respecting denial of certiorari) (“Congress
cannot, through ambiguity, effectively leave that
function to the courts—much less to the administrative bureaucracy.”). Accordingly, I would treat an
ambiguous criminal statute to be of “vast economic
and political significance” and apply Chevron only if
the Congress expressly delegates its lawmaking responsibility. See Util. Air Regulatory Grp., 573 U.S.
at 324, 134 S.Ct. 2427. The Congress has made no
such clear statement; instead the ATF relies solely on
its general rulemaking power and statutory ambiguity. 18 U.S.C. § 926(a); 26 U.S.C. §§ 7801(a)(2)(A),
7805(a). Chevron is inapplicable. See King, 135 S.Ct.
at 2489.
I believe the applicable standard of review is de
novo and therefore we should go “the old-fashioned”
route and “decide for ourselves the best reading” of
“machinegun.” Miller v. Clinton, 687 F.3d 1332, 1342
(D.C. Cir. 2012) (quoting Landmark Legal Found. v.
IRS, 267 F.3d 1132, 1136 (D.C. Cir. 2001) ). As is always the case in construing a statute, the inquiry focuses on “the plain meaning of the text, looking to the
‘language itself, the specific context in which that
language is used, and the broader context of the statute as a whole.’ ” Blackman v. District of Columbia,
456 F.3d 167, 176 (D.C. Cir. 2006) (quoting United
States v. Barnes, 295 F.3d 1354, 1359 (D.C. Cir. 2002)
). The Bump Stock Rule declares that any bump stock

A83

device qualifies as a “machinegun.” Although the
Rule—in my view—correctly interprets “single function of the trigger,” it misreads “automatically.”
Moreover, it misapplies its interpretation of “single
function of the trigger” to bump stock type devices.
B. “Single Function of the Trigger”
The Rule determines that “single function of the
trigger” within the statutory definition of “machinegun” means “single pull of the trigger and analogous motions.” Bump-Stock-Type Devices, 83 Fed.
Reg. at 66,554. To me, the “function” of the trigger
means “action” of the trigger. Webster’s New International Dictionary 1019 (2d ed. 1934). According to the
section 5845(b) definition, the trigger function
“shoots” the firearm. 26 U.S.C. § 5845(b) (“The term
‘machinegun’ means any weapon which shoots ... automatically more than one shot, without manual reloading, by a single function of the trigger.”); see also
Fortier v. Olin Corp., 840 F.2d 98, 101 (1st Cir. 1988)
(discussing mechanics of lever-action rifle). “Pull of
the trigger,” then, describes how the trigger works.
See Staples, 511 U.S. at 602 n.1, 114 S.Ct. 1793;
United States v. Camp, 343 F.3d 743, 745 (5th Cir.
2003) (using trigger “pull” and “function” interchangeably); United States v. Oakes, 564 F.2d 384,
388 (10th Cir. 1977) (same). *43 The Rule recognizes
that not all firearms feature a pull trigger; some involve “fire initiated by voice command, electronic
switch, swipe on a touchscreen or pad, or any conceivable number of interfaces.” Bump-Stock-Type Devices, 83 Fed. Reg. at 66,534; see also United States v.
Fleischli, 305 F.3d 643, 655–56 (7th Cir. 2002)
(minigun fired by “electronic switch” is machinegun).

A84

To include these non-pull methods used to shoot a
firearm, the Rule includes the phrase “and analogous
motions.” Bump-Stock-Type Devices, 83 Fed. Reg. at
66,553.
The plaintiffs claim that the Rule’s interpretation
of “single function” impermissibly shifts the statutory
focus from the trigger’s action to the trigger finger’s
action. But the Rule defines “single function” to mean
“single pull of the trigger and analogous motions.”
The Rule’s definition describes the “motion” of the
trigger, not of the trigger finger. Id. at 66,554. Indeed, nothing in the Rule’s definition refers to a
shooter’s finger or a volitional action. Id. The plaintiffs challenge the Rule because the ATF determines
therein that a bump stock device allows the firearm
to shoot more than one shot with only a single pull.
But that is a question of application, not definition.
As for the definition, I believe the Rule correctly
reads “function” by focusing on how the trigger acts—
that is, through a pull.
C. “Automatically”
The Bump Stock Rule defines “automatically” to
mean “as the result of a self-acting or self-regulating
mechanism that allows the firing of multiple rounds
through a single pull of the trigger.” Id. at 66,519.
The plaintiffs challenge this definition because it
does not account for the additional physical input the
shooter must provide in the firing sequence to make a
firearm with a bump stock shoot more rapidly. That
“pull plus” action, they say, invalidly expands the
statutory text: a “ ‘single function of the trigger’ is the

A85

starting and the ending point of [making] a firearm
automatic.” Codrea Br. at 14. I agree.12
The Rule’s fatal flaw comes from its “adding to”
the statutory language in a way that is—at least to
me—plainly ultra vires. 1A Sutherland Statutory
Construction § 31.02, at 521 (4th ed. 1985) (“The legislative act is the charter of the administrative agency and administrative action beyond the authority
conferred by the statute is ultra vires.”); see Burnet v.
Marston, 57 F.2d 611, 612 (D.C. Cir. 1932) (“While
the [agency] was clothed with authority to promulgate regulations, [it] was not authorized to add to or
take from the plain language of the statute, for,
‘where the intent is plain, nothing is left to construction.’ ” (quoting United States v. Fisher, 6 U.S. (2
Cranch) 358, 386, 2 L.Ed. 304 (1805))). “Automatically” cannot be read in isolation. On the contrary, it is
modified—that is, limited—by the clause “by a single
function of the trigger.” 26 U.S.C. § 5845(b); Webster’s New International Dictionary 307 (2d ed. 1934)
(defining “by” as “through the means of”). Section
5845(b)’s awkward syntax does not equal ambiguity,

12 A portion of the Bump Stock Rule’s definition of “automatically” strikes me as unobjectionable. It adopts the phrase “functioning as the result of a self-acting or self-regulating mechanism” as a substitute for “automatically.” Bump-Stock-Type Devices, 83 Fed Reg. at 66,554. It does so because dictionaries in
use at the time the 1934 Act was enacted defined “automatically” that way. Id. at 66,519; see also Webster’s New International
Dictionary 187 (2d ed. 1934) (“automatic” means “[h]aving a
self-acting or self-regulating mechanism that performs a required act at a predetermined point in an operation”).

A86

as illustrated by the lost *44 art of diagramming.13
“Automatically ... by a single function of the trigger”
is the sum total of the action necessary to constitute a
firearm a “machinegun.” 26 U.S.C. § 5845(b). A “machinegun,” then, is a firearm that shoots more than
one round by a single trigger pull without manual reloading.14 The statutory definition of “machinegun”
13

Section

5845(b)

can

be

diagrammed

as

fol-

lows:

See
generally Marye Hefty et al., Sentence Diagramming 7–11, 17–
20, 24–25, 30–31, 33, 49 (2008).
In United States v. Olofson, 563 F.3d 652 (7th Cir. 2009),
the Seventh Circuit discussed the meaning of “machinegun.” It
explained that “ ‘automatically’ is the adverbial form of ‘automatic,’ ” meaning “[h]aving a self-acting or self-regulating
mechanism.” Id. at 658 (alteration in original) (quoting Webster’s New International Dictionary 187 (2d ed. 1934)). It then
read section 5845(b)’s “automatically” as follows: “the adverb
‘automatically,’ as it modifies the verb ‘shoots,’ delineates how
the discharge of multiple rounds from a weapon occurs: as the
result of a self-acting mechanism.” Id. My rejection of the Bump
Stock Rule creates no tension with Olofson. That court did not
consider whether additional manual input from the nonshooting hand—“pull plus”—takes a device outside section
5845(b)’s definition of “automatically.” Nor did Olofson consider
whether “pull” refers to how the trigger works or to the movement of the shooter’s trigger finger.
14

A87

does not include a firearm that shoots more than one
round “automatically” by a single pull of the trigger
AND THEN SOME (that is, by “constant forward
pressure with the non-trigger hand”). Bump-StockType Devices, 83 Fed. Reg. at 66,532. By including
more action than a single trigger pull, the Rule invalidly expands section 5845(b), as the ATF itself recognized in the rulemaking. See id. (shooter “maintain[s]
constant forward pressure with the non-trigger hand
on the barrel-shroud or fore-grip of the rifle,” and
“maintain[s] the trigger finger on the device’s extension ledge with constant rearward pressure.”).
My reading of the statute comports with the common sense meaning of the language used. Suppose an
advertisement declares that a device performs a task
“automatically by a push of a button.” I would understand the phrase to mean pushing the button activates whatever function the device performs. It would
come as a surprise, I submit, if the device does not
operate until the button is pushed and some other action is taken—a pedal pressed, a dial turned and so
on. Although the device might be “automatic” under
some definition, it would not fit the advertised definition of “automatic”: by a push of a button period.
More importantly, my reading of the statute—
unlike the ATF’s reading—maintains the longstanding distinction between *45 “automatic” and “semiautomatic” in the firearms context. The original definition of “machinegun” in the 1934 Act included a
firearm that shoots more than one round “automatically or semiautomatically.” 26 U.S.C. § 2733(b)
(1940). At the time, an “automatic gun” was understood to be “[a] firearm which, after the first round is

A88

exploded, by gas pressure or force of recoil automatically extracts and ejects the empty case, loads another round into the chamber, fires, and repeats the
above cycle, until the ammunition in the feeding
mechanism is exhausted, or pressure on the trigger is
released.” Webster’s New International Dictionary
187 (2d ed. 1934). A “semiautomatic gun” was (and is)
“[a] firearm in which part, but not all, of the operations involved in loading and firing are performed automatically, as when the recoil is used to open the
breech and thus prepare for reloading by hand.”
Webster’s New International Dictionary 187 (2d ed.
1934). At the time of the 1934 Act’s enactment, then,
the difference between an “automatic” and a “semiautomatic” gun depended on whether the shooter played
a manual role in the loading and firing process. My
interpretation fits the historical context by limiting
“automatic[ ]” to a firearm that shoots more than one
round by a single trigger pull with no additional action by the shooter. By contrast, the Bump Stock
Rule reinterprets “automatically” to mean what “semiautomatically” did in 1934—a pull of the trigger
plus. The Congress deleted “semiautomatically” from
the statute in 1968 and the ATF is without authority
to resurrect it by regulation.
The ATF insists that my interpretation renders
“automatically” superfluous—a result inconsistent
with the well-established principle that “ ‘[a] statute
should be construed so that effect is given to all its
provisions, so that no part will be inoperative or superfluous, void or insignificant.’ ” Corley v. United
States, 556 U.S. 303, 314, 129 S.Ct. 1558, 173
L.Ed.2d 443 (2009) (alteration in original) (quoting

A89

Hibbs v. Winn, 542 U.S. 88, 101, 124 S.Ct. 2276, 159
L.Ed.2d
172
(2004)
).
Not
even
close.
“[A]utomatically” means that the firearm shoots more
than one shot as the result of a self-acting mechanism effected by a single pull of the trigger. Thus, the
combination of “automatically” and “by a single pull”
explains how the shooter accomplishes the firing sequence of a “machinegun.” Under my reading, “automatically” excludes a “machinegun” that uses a selfacting firing sequence effected by action in addition
to a single pull of the trigger.
Finally, the ATF, as well as the district court, posits that the Bump Stock Rule meets one ordinary
meaning of “automatically”—that is, “perform[s]
parts of the work formerly or usually done by hand.”
Webster’s New International Dictionary 187 (2d ed.
1934). Both believe that a bump stock “makes it easier to bump fire because it controls the distance the
firearm recoils and ensures that the firearm moves
linearly—two tasks the shooter would ordinarily have
to perform manually.” Guedes, 356 F.Supp.3d at 132.
Maybe so. But the Rule does not use the “formerly
done by hand” meaning of “automatically.” BumpStock-Type Devices, 83 Fed. Reg. at 66,519. It defines
“automatically” to mean “as the result of a self-acting
or self-regulating mechanism.” Id. Whether that definition is consistent with section 5845(b)’s definition is
the question before us.15
I am not quibbling about semantics. The two definitions of
“automatically” have different aims: one refers to a self-acting
object; the other refers to automating a formerly “by-hand” task.
Webster’s Third New International Dictionary 148 (1993). The
“formerly by-hand” definition would shift the focus from wheth15

A90

*46 D. Is a Bump Stock a “Machinegun?”
Having interpreted “automatically” and “single
function of the trigger,” the Rule declares that a “
‘machinegun’ includes a bump-stock-type device, i.e.,
a device that allows a semiautomatic firearm to shoot
more than one shot with a single pull of the trigger
by harnessing the recoil energy of the semiautomatic
firearm to which it is affixed so that the trigger resets
and continues firing without additional physical manipulation of the trigger by the shooter.” Id. at
66,553–54. There are at least two defects in this classification. It ignores the fact that a non-mechanical
bump stock—a type of bump stock device covered by
the Rule—does not allow the firearm to shoot more
rapidly with a single pull of the trigger because the
shooter must provide “constant forward pressure
with the non-trigger hand” for the device to function.
Id. at 66,532. It also erroneously determines that a
bump stock allows a semiautomatic rifle to fire more
than one round with a single pull of the trigger. For
these reasons, I agree with the plaintiffs that a bump
stock is not a “machinegun.”
First, a firearm equipped with a non-mechanical
bump stock does not fire “automatically” because the
shooter must also provide constant forward pressure
with his non-shooting hand. The Rule’s very description of a non-mechanical bump stock manifests that
its proscription is ultra vires:

er a bump stock provides a self-acting mechanism to fire multiple rounds to whether a bump stock automates any action in the
firing sequence.

A91

[Bump stock] devices replace a rifle’s standard stock and free the weapon to slide back
and forth rapidly, harnessing the energy from
the firearm’s recoil either through a mechanism like an internal spring or in conjunction
with the shooter’s maintenance of pressure
(typically constant forward pressure with the
non-trigger hand on the barrel-shroud or foregrip of the rifle, and constant rearward pressure on the device’s extension ledge with the
shooter’s trigger finger).
Id. at 66,516 (emphases added). This description covers two types of bump stocks, one that includes a
mechanism like an internal spring and the other that
requires the shooter to maintain pressure with his
non-trigger hand. Id. The first type, including the
original Akins Accelerator, has been classified as a
“machinegun” and hence illegal since 2006. Id. at
66,517. The Rule must—and does—aim at the second
type—the non-mechanical bump stock—which operates only in conjunction with the shooter’s added
physical pressure.16 But that added physical pressure
is inconsistent with the statutory definition of a “machinegun,” which fires multiple rounds with a selfacting mechanism effected through a single pull of
the trigger simpliciter. In short, the statute uses
“pull” and the Rule—invalidly—uses “pull plus.”
At oral argument, the ATF asserted that the non-trigger
hand’s “additional forward pressure” is part of the “automatic”
firing process. Transcript of Oral Argument 73–74. “Automatic”
means “self-acting or self-regulating.” Bump-Stock-Type Devices,
83 Fed. Reg. at 66,553. The non-trigger hand’s constant forward
pressure requires physical, not automatic, action.
16

A92

Other parts of the Rule expose the ATF’s error. In
discussing its interpretation of “automatically,” the
ATF gave the following explanation: “[s]o long as the
firearm is capable of producing multiple rounds with
a single pull of the trigger until [1] the trigger finger
is removed, [2] the ammunition supply is exhausted,
or [3] the firearm malfunctions, the firearm shoots
‘automatically’ irrespective of why *47 the firing sequence ultimately ends.” Id. at 66,519. Yet elsewhere
the ATF describes the firing process of a firearm with
a bump stock as follows: “the shooter ‘pulls’ the trigger once and allows the firearm and attached bumpstock-type device to operate until the shooter releases
the trigger finger or the constant forward pressure
with the non-trigger hand.” Id. at 66,532 (emphasis
added). In my view, this assertion is an explicit
recognition that a bump stock device does not continue shooting rounds with a single trigger pull if the
shooter does not maintain “constant forward pressure
with the non-trigger hand.” Id. at 66,532.
Moreover, I find it difficult to ignore the ATF’s repeated earlier determinations that non-mechanical
bump stocks do not initiate an automatic firing sequence. Three ATF determination letters from 2010
to 2013 explained why non-mechanical bump stocks
are not “machineguns”:
[Our] evaluation confirmed that the submitted stock (see enclosed photos) does attach to
the rear of an AR-15 type rifle which has been
fitted with a sliding shoulder-stock type buffer-tube assembly. The stock has no automatically functioning mechanical parts or springs
and performs no automatic mechanical func-

A93

tion when installed. In order to use the installed device, the shooter must apply constant
forward pressure with the non-shooting hand
and constant rearward pressure with the
shooting hand.
Determination Letter signed by John R. Spencer,
Chief, Firearms Tech. Branch, ATF (June 7, 2010),
reprinted at J.A. 278; see also Determination Letter
signed by John R. Spencer, Chief, Firearms Tech.
Branch, ATF (April 2, 2012), reprinted at J.A. at 279–
80; Letter from Richard W. Marianos, Assistant Dir.
Pub. and Governmental Affairs, to Congressman Ed
Perlmutter (April 16, 2013), reprinted at J.A. 281–82.
The Rule does not fairly treat the ATF’s repeated determinations that a non-mechanical bump stock “performs no automatic mechanical function when installed.” J.A. 278. Instead, it rejects its previous reading as based on an incomplete legal definition of “automatically.” Bump-Stock-Type Devices, 83 Fed. Reg.
at 66,521.17 But those determinations made factual
findings that the non-mechanical bump stock operates only if the shooter applies “constant forward
pressure with the non-shooting hand and constant
17 During the rulemaking, the ATF repeatedly declared that
its earlier determinations “did not include extensive legal analysis of the statutory terms ‘automatically’ or ‘single function of
the trigger.’ ” Bump-Stock-Type Devices, 83 Fed. Reg. at 66,516;
see also id. at 66,514, 66,521, 66,528, 66,531. I defy a careful
reader of the rulemaking to find any legal, as opposed to functional, analysis of a bump stock device, much less substantial
legal analysis. Id. at 66,518 (“[P]rior ATF rulings concerning
bump-stock-type devices did not provide substantial or consistent legal analysis regarding the meaning of the term ‘automatically.’ ”).

A94

rearward pressure with the shooting hand.” Determination Letter signed by John R. Spencer, Chief,
Firearms Tech. Branch, ATF (June 7, 2010). And
those factual findings dictate that a non-mechanical
bump stock is not a “machinegun” under section
5845(b).
Second, a semiautomatic rifle equipped with a
bump stock cannot fire more than one round with a
single function of the trigger. The plaintiffs argue—
and the ATF does not dispute—that the trigger of a
semiautomatic rifle must release the hammer for
each individual discharge. Nor is there any dispute
that a semiautomatic rifle cannot fire again until the
trigger is released, which causes the hammer to reset. The Rule refers to the release of the trigger as a
“separate” function. Bump-Stock-Type Devices, 83
Fed. Reg. at 66,534 *48 (“While semiautomatic firearms [equipped with certain devices] may shoot one
round when the trigger is pulled, the shooter must release the trigger before another round is fired. Even
if this release results in a second shot being fired, it
is as the result of a separate function of the trigger.”).
Once the trigger shoots, it must be released to reset
the hammer and the trigger must be pulled again for
each subsequent shot. Verified Declaration of Richard
(Rick) Vasquez, former Acting Chief of the Firearms
Tech. Branch of ATF, at 4 (with bump stock, “after
the first shot is discharged, the trigger must be released, reset, and pulled completely rearward, before
the subsequent round is discharged”), reprinted at
J.A. 275. Thus, a semiautomatic rifle equipped with a

A95

bump stock cannot shoot more than one round with a
single pull of the trigger.18
Still, the ATF insists that a bump stock allows a
firearm to shoot multiple shots with a single pull.
Bump-Stock-Type Devices, 83 Fed. Reg. at 66,553–54.
The ATF focuses on whether the shooter must pull
his index finger more than once to fire multiple shots.
Because a bump stock allows the firearm to fire more
than once with a single pull of the index finger, the
ATF concludes that a bump stock is a “machinegun.”
Remember, however, section 5845(b) uses “single
function of the trigger,” not single function of the
shooter’s trigger finger.
If the focus is—as it must be—on the trigger, a
bump stock does not qualify as a “machinegun.” A
semiautomatic rifle shoots a single round per pull of
the trigger and the bump stock changes only how the
pull is accomplished. Without a bump stock, the
shooter pulls the trigger with his finger for each shot.
With a bump stock, however, the shooter—after the
initial pull—maintains backward pressure on the
trigger and puts forward pressure on the barrel with

18 Record evidence supports my point. As discussed earlier,
the record includes a video of a shooter firing a rifle equipped
with a bump stock. The video is in slow motion and focuses on
the trigger. For each shot the rifle fires, the trigger is pulled by
the shooter’s stationary trigger finger. The trigger is then released between each shot. And the trigger is pulled again for the
next shot. This trigger movement confirms that a bump stock
does not allow a rifle to shoot more than one round with only a
single pull of the trigger. Attached as an appendix are photographs, taken from the video, that illustrate the trigger’s movement during the bump stock’s firing sequence.

A96

his non-shooting hand; these manual inputs cause
the rifle to slide and result in the shooter’s stationary
finger pulling the trigger. Bump-Stock-Type Devices,
83 Fed. Reg. at 66,533 (“The constant forward pressure with the non-trigger hand pushes the firearm
forward, again pulling the firearm forward, engaging
the trigger, and firing a second round.”). The bump
stock therefore affects whether the shooter pulls his
trigger finger or keeps it stationary. It does not
change the movement of the trigger itself, which
“must be released, reset, and fully pulled rearward
before [a] subsequent round can be fired.” Verified
Declaration of Richard (Rick) Vasquez, former Acting
Chief of the Firearms Tech. Branch of ATF, at 3–4.
Like countless other Americans, I can think of little legitimate use for a bump stock. That thought,
however, has nothing to do with the legality of the
Bump Stock Rule. For the reasons detailed supra, I
believe the Bump Stock Rule expands the statutory
definition of “machinegun” and is therefore ultra vires. In my view, the plaintiffs are likely to succeed on
the merits of their challenge and I would grant them
preliminary injunctive relief.
Accordingly, I respectfully dissent.

A97

*49 APPENDIX
Photograph One: Trigger separates from stationary index finger.

Photograph Two: Trigger comes into contact
with stationary index finger.

APPENDIX B
[Excerpts]
83 FR 66514-01, 2018 WL 6738526(F.R.)
RULES and REGULATIONS
DEPARTMENT OF JUSTICE
Bureau of Alcohol, Tobacco, Firearms, and Explosives
27 CFR Parts 447, 478, and 479
[Docket No. 2018R-22F; AG Order No. 4367-2018]
RIN 1140-AA52
Bump-Stock-Type Devices
Wednesday, December 26, 2018
AGENCY: Bureau of Alcohol, Tobacco, Firearms,
and Explosives; Department of Justice.
*66514 ACTION: Final rule.
***
I. Executive Summary
A. Summary of the Regulatory Action
The current regulations at §§ 447.11, 478.11, and
479.11 of title 27, Code of Federal Regulations (CFR),
contain definitions for the term “machinegun.” [FN1]1

1 Regulations implementing the relevant statutes spell the
term “machine gun” rather than “machinegun.” E.g., 27 CFR

(B1)

B2

The definitions used in 27 CFR 478.11 and 479.11
match the statutory definition of “machinegun” in the
National Firearms Act of 1934 (NFA), as amended,
and the Gun Control Act of 1968 (GCA), as amended.
Under the NFA, the term “machinegun” means “any
weapon which shoots, is designed to shoot, or can be
readily restored to shoot, automatically more than
one shot, without manual reloading, by a single function of the trigger.” 26 U.S.C. 5845(b). The term “machinegun” also includes “the frame or receiver of any
such weapon” or any part or combination of parts designed and intended “for use in converting a weapon
into a machinegun,” and “any combination of parts
from which a machinegun can be assembled if such
parts are in the possession or under the control of a
person.” Id. This definition uses the key terms “single
function of the trigger” and “automatically,” but these
terms are not defined in the statutory text.
The definition of “machinegun” in 27 CFR 447.11,
promulgated pursuant to the portion of section 38 of
the Arms Export Control Act (AECA) (22 U.S.C.
2778) delegated to the Attorney General by section
1(n)(ii) of Executive Order 13637 (78 FR 16129), is
similar. Currently, the definition of “machinegun” in
§ 447.11 provides that a “‘machinegun’, ‘machine pistol’, ‘submachinegun’, or ‘automatic rifle’ is a firearm
originally designed to fire, or capable of being fired
fully automatically by a single pull of the trigger.”

478.11, 479.11. For convenience, this notice uses “machinegun”
except when quoting a source to the contrary.

B3

In 2006, ATF concluded that certain bump-stocktype devices qualified as machineguns under the
NFA and GCA. Specifically, ATF concluded that a
device attached to a semiautomatic firearm that uses
an internal spring to harness the force of a firearm’s
recoil so that the firearm shoots more than one shot
with a single pull of the trigger is a machinegun. Between 2008 and 2017, however, ATF also issued classification decisions concluding that other bump-stocktype devices were not machineguns, primarily because the devices did not rely on internal springs or
similar mechanical parts to channel recoil energy.
Decisions issued during that time did not include extensive legal analysis relating to the definition of
“machinegun.” ATF undertook a review of its past
classifications and determined that those conclusions
did not reflect the best interpretation of “machinegun” under the NFA and GCA.
ATF decided to promulgate a rule that would bring
clarity to the definition of “machinegun”—specifically
with respect to the terms “automatically” and “single
function of the trigger,” as those terms are used to define “machinegun.” As an initial step in the process of
promulgating a rule, on December 26, 2017, the Department of Justice (Department) published in the
Federal *66515 Register an advance notice of proposed rulemaking titled “Application of the Definition
of Machinegun to ‘Bump Fire’ Stocks and Other Similar Devices.” 82 FR 60929. Subsequently, on March
29, 2018, the Department published in the Federal
Register a notice of proposed rulemaking (NPRM) titled “Bump-Stock-Type Devices.” 83 FR 13442.

B4

The NPRM proposed to amend the regulations at
27 CFR 447.11, 478.11, and 479.11 to clarify that
bump-stock-type devices are “machineguns” as defined by the NFA and GCA because such devices allow a shooter of a semiautomatic firearm to initiate a
continuous firing cycle with a single pull of the trigger. Specifically, these devices convert an otherwise
semiautomatic firearm into a machinegun by functioning as a self-acting or self-regulating mechanism
that harnesses the recoil energy of the semiautomatic
firearm in a manner that allows the trigger to reset
and continue firing without additional physical manipulation of the trigger by the shooter. Hence, a
semiautomatic firearm to which a bump-stock-type
device is attached is able to produce automatic fire
with a single pull of the trigger. 83 FR at 13447-48.
The NPRM proposed regulatory definitions for the
statutory terms “single function of the trigger” and
“automatically,” and amendments of the regulatory
definition of “machinegun” for purposes of clarity.
Specifically, the NPRM proposed to amend the definitions of “machinegun” in §§ 478.11 and 479.11, define
the term “single function of the trigger” to mean “single pull of the trigger,” and define the term “automatically” to mean “as the result of a self-acting or selfregulating mechanism that allows the firing of multiple rounds through a single pull of the trigger.” 83 FR
at 13447-48. The NPRM also proposed to clarify that
the definition of “machinegun” includes a device that
allows a semiautomatic firearm to shoot more than
one shot with a single pull of the trigger by harnessing the recoil energy of the semiautomatic firearm to

B5

which it is affixed so that the trigger resets and continues firing without additional physical manipulation of the trigger by the shooter (commonly known
as bump-stock-type devices). Id. at 13447. Finally,
the NPRM proposed to harmonize the definition of
“machinegun” in § 447.11 with the definitions in 27
CFR parts 478 and 479, as those definitions would be
amended. Id. at 13448.
The goal of this final rule is to amend the relevant
regulatory definitions as described above. The Department, however, has revised the definition of “single function of the trigger” to mean “single pull of the
trigger” and analogous motions, taking into account
that there are other methods of initiating an automatic firing sequence that do not require a pull. This
final rule also informs current possessors of bumpstock-type devices of the proper methods of disposal,
including destruction by the owner or abandonment
to ATF.
B. Summary of Costs and Benefits
***
II. Background
A. Regulatory Context
The Attorney General is responsible for enforcing
the NFA, as amended, and the GCA, as amended.[FN2]2 This responsibility includes the authority
NFA provisions still refer to the “Secretary of the Treasury.”
26 U.S.C. ch. 53. However, the Homeland Security Act of 2002,
Public Law 107-296, 116 Stat. 2135, transferred the functions of
ATF from the Department of the Treasury to the Department of
2

B6

to promulgate regulations necessary to enforce the
provisions of the NFA and GCA. See 18 U.S.C.
926(a); 26 U.S.C. 7801(a)(2)(A), 7805(a). The Attorney
General has delegated the responsibility for administering and enforcing the NFA and GCA to the Director of ATF, subject to the direction of the Attorney
General and the Deputy Attorney General. See 28
CFR 0.130(a)(1)-(2). Accordingly, the Department and
ATF have promulgated regulations implementing
both the NFA and the GCA. See 27 CFR parts 478,
479. In particular, ATF for decades promulgated
rules governing “the procedural and substantive requirements relative to the importation, manufacture,
making, exportation, identification and registration
of, and the dealing in, machine guns.” 27 CFR 479.1;
see, e.g., United States v. Dodson, 519 F. App’x 344,
348-49 & n.4 (6th Cir. 2013) (acknowledging ATF’s
role in interpreting the NFA’s definition of “machinegun”); F.J. Vollmer Co. v. Higgins, 23 F.3d 448,
449-51 (D.C. Cir. 1994) (upholding an ATF determination regarding machinegun receivers). Courts have
recognized ATF’s leading regulatory role with respect
to firearms, including in the specific context of classifying devices as machineguns under the NFA. See,
e.g., York v. Sec’y of Treasury, 774 F.2d 417, 419-20
(10th Cir. 1985).

Justice, under the general authority of the Attorney General. 26
U.S.C. 7801(a)(2); 28 U.S.C. 599A(c)(1). Thus, for ease of reference, this notice refers to the Attorney General.

B7

The GCA defines “machinegun” by referring to the
NFA definition,[FN3]3 which includes “any weapon
which shoots, is designed to shoot, or can be readily
restored to shoot, automatically more than one shot,
without manual reloading, by a single function of the
trigger.” 26 U.S.C. 5845(b). The term “machinegun”
also includes “the frame or receiver of any such
weapon” or any part, or combination of parts, designed and intended “for use in converting a weapon
into a machinegun,” and any combination of parts
from which a machinegun can be assembled if such
parts are in the possession or under the control of a
person. Id. With limited exceptions, the GCA prohibits the transfer or possession of machineguns under
18 U.S.C. 922(o).
In 1986, Congress passed the Firearms Owners’
Protection Act (FOPA), Public Law 99-308, 100 Stat.
449, which included a provision that effectively froze
the number of legally transferrable machineguns to
those that were registered before the effective date of
the statute. 18 U.S.C. 922(o). Due to the fixed universe of “pre-1986” machineguns that may be lawfully transferred by nongovernmental entities, the value
of those machineguns has steadily increased over
time. This price premium on automatic weapons has
spurred inventors and manufacturers to develop firearms, triggers, and other devices that permit shooters to use semiautomatic rifles to replicate *66516
automatic fire without converting these rifles into
“machineguns” under the NFA and GCA. ATF began
3

18 U.S.C. 921(a)(23).

B8

receiving classification requests for such firearms,
triggers, and other devices that replicate automatic
fire beginning in 1988. ATF has noted a significant
increase in such requests since 2004, often in connection with rifle models that were, until 2004, defined
as “semiautomatic assault weapons” and prohibited
under the Public Safety and Recreational Firearms
Use Protection Act, 18 U.S.C. 921(a)(30) (sunset effective Sept. 13, 2004).
ATF received classification requests pertaining to
bump-stock-type devices. Shooters use bump-stocktype devices with semiautomatic firearms to accelerate the firearms’ cyclic firing rate to mimic automatic
fire. These devices replace a rifle’s standard stock
and free the weapon to slide back and forth rapidly,
harnessing the energy from the firearm’s recoil either
through a mechanism like an internal spring or in
conjunction with the shooter’s maintenance of pressure (typically constant forward pressure with the
non-trigger hand on the barrel-shroud or fore-grip of
the rifle, and constant rearward pressure on the device’s extension ledge with the shooter’s trigger finger).
In 2006, ATF concluded that certain bump-stocktype devices qualified as machineguns under the
NFA and GCA. Specifically, ATF concluded that devices attached to semiautomatic firearms that use an
internal spring to harness the force of the recoil so
that the firearm shoots more than one shot with a
single pull of the trigger are machineguns. Between
2008 and 2017, however, ATF also issued classification decisions concluding that other bump-stock-type

B9

devices were not machineguns, including a device
submitted by the manufacturer of the bump-stocktype devices used in the 2017 Las Vegas shooting discussed below. Those decisions indicated that semiautomatic firearms modified with these bump-stocktype devices did not fire “automatically,” and thus
were not “machineguns,” because the devices did not
rely on internal springs or similar mechanical parts
to channel recoil energy. (For further discussion of
ATF’s prior interpretations, see Part III.A.) Because
ATF has not regulated these certain types of bumpstock-type devices as machineguns under the NFA or
GCA, they have not been marked with a serial number or other identification markings. Individuals,
therefore, have been able to legally purchase these
devices without undergoing background checks or
complying with any other Federal regulations applicable to firearms.
B. Las Vegas Shooting
On October 1, 2017, a shooter attacked a large
crowd attending an outdoor concert in Las Vegas,
Nevada. By using several AR-type rifles with attached bump-stock-type devices, the shooter was able
to fire several hundred rounds of ammunition in a
short period of time, killing 58 people and wounding
approximately 500. The bump-stock-type devices recovered from the scene included two distinct, but
functionally equivalent, model variations from the
same manufacturer. These types of devices were
readily available in the commercial marketplace
through online sales directly from the manufacturer,
and through multiple retailers.

B10

The Las Vegas bump-stock-type devices, as well as
other bump-stock-type devices available on the market, all utilize essentially the same functional design.
They are designed to be affixed to a semiautomatic
long gun (most commonly an AR-type rifle or an AKtype rifle) in place of a standard, stationary rifle
stock, for the express purpose of allowing “rapid fire”
operation of the semiautomatic firearm to which they
are affixed. They are configured with a sliding shoulder stock molded (or otherwise attached) to a pistolgrip/handle (or “chassis”) that includes an extension
ledge (or “finger rest”) on which the shooter places
the trigger finger while shooting the firearm. The devices also generally include a detachable rectangular
receiver module (or “bearing interface”) that is placed
in the receiver well of the device’s pistol-grip/handle
to assist in guiding and regulating the recoil of the
firearm when fired. Bump-stock-type devices, including those with the aforementioned characteristics,
are generally designed to channel recoil energy to increase the rate of fire of a semiautomatic firearm
from a single trigger pull. Accordingly, when a bumpstock-type device is affixed to a semiautomatic firearm, the device harnesses and directs the firearm’s
recoil energy to slide the firearm back and forth so
that the trigger automatically re-engages by “bumping” the shooter’s stationary finger without additional
physical manipulation of the trigger by the shooter.
Following the mass shooting in Las Vegas, ATF
received correspondence from members of the United
States Congress, as well as nongovernmental organizations, requesting that ATF examine its past classi-

B11

fications and determine whether bump-stock-type
devices available on the market constitute machineguns under the statutory definition. Consistent
with its authority to “reconsider and rectify” potential
classification errors, Akins v. United States, 312 F.
App’x 197, 200 (11th Cir. 2009) (per curiam), ATF reviewed its earlier determinations for bump-stock-type
devices issued between 2008 and 2017 and concluded
that those determinations did not include extensive
legal analysis of the statutory terms “automatically”
or “single function of the trigger.” The Department
decided to move forward with the rulemaking process
to clarify the meaning of these terms, which are used
in the NFA’s statutory definition of “machinegun.”
C. Advance Notice of Proposed Rulemaking
***
III. Notice of Proposed Rulemaking
On March 29, 2018, the Department published in
the Federal Register a notice of proposed rulemaking
(NPRM) titled “Bump-Stock-Type Devices,” 83 FR
13442 (ATF Docket No. 2017R-22), proposing changes
to the regulations in 27 CFR 447.11, 478.11, and
479.11. The comment period for the proposed rule
concluded on June 27, 2018.
A. Prior Interpretations of “Single Function
of the Trigger” and “Automatically”
In the NPRM, the Department reviewed ATF’s
history of classifying bump-stock-type devices
through agency rulings and relevant litigation. In
particular, it described how ATF published ATF Rul-

B12

ing 2006-2, “Classification of Devices Exclusively Designed to Increase the Rate of Fire of a Semiautomatic Firearm.” The ruling explained that ATF had received requests from “several members of the firearms industry to classify devices that are exclusively
designed to increase the rate of fire of a semiautomatic firearm.” ATF Ruling 2006-2, at 1. Prior to issuing
ATF Ruling 2006-2, ATF had examined a device
called the “Akins Accelerator.” To operate the device,
the shooter initiated an automatic firing sequence by
pulling the trigger one time, which in turn caused the
rifle to recoil within the stock, permitting the trigger
to lose contact with the finger and manually reset.
Springs in the Akins Accelerator then forced the rifle
forward, forcing the trigger against the finger, which
caused the weapon to discharge the ammunition. The
recoil and the spring-powered device thus caused the
firearm to cycle back and forth, impacting the trigger
finger without further input by the shooter while the
firearm discharged multiple shots. The device was
advertised as able to fire approximately 650 rounds
per minute. See id. at 2.
ATF initially reviewed the Akins Accelerator in
2002 and determined it not to be a machinegun because ATF interpreted the statutory term “single
function of the trigger” to refer to a single movement
of the trigger. But ATF undertook further review of
the device based on how it actually functioned when
sold and later determined that the Akins Accelerator
should be classified as a machinegun. ATF reached
that conclusion because the best interpretation of the
phrase “single function of the trigger” includes a

B13

“single pull of the trigger.” The Akins Accelerator
qualified as a machinegun because ATF determined
through testing that when the device was installed on
a semiautomatic rifle (specifically a Ruger Model 1022), it resulted in a weapon that “[with] a single pull
of the trigger initiates an automatic firing cycle that
continues until the finger is released, the weapon
malfunctions, or the ammunition supply is exhausted.” Akins v. United States, No. 8:08-cv-988, slip op.
at 5 (M.D. Fla. Sept. 23, 2008) (internal quotation
marks omitted).
When issuing ATF Ruling 2006-2, ATF set forth a
detailed description of the components and functionality of the Akins Accelerator and devices with similar designs. The ruling determined that the phrase
“single function of the trigger” in the statutory definition of “machinegun” was best interpreted to mean a
“single pull of the trigger.” ATF Ruling 2006-2, at 2
(citing National Firearms Act: Hearings Before the
Comm. on Ways and Means, House of Representatives, Second Session on H.R. 9066, 73rd Cong., at 40
(1934)). ATF further indicated that this interpretation would apply when the agency classified devices
designed to increase the rate of fire of semiautomatic
firearms. Thus, ATF concluded in ATF Ruling 2006-2
that devices exclusively designed to increase the rate
of fire of semiautomatic firearms were machineguns
if, “when activated by a single pull of the trigger,
[such devices] initiate[ ] an automatic firing cycle
that continues until either the finger is released or
the ammunition supply is exhausted.” Id. at 3. Finally, because the “single pull of the trigger” interpreta-

B14

tion constituted a change from ATF’s prior interpretations of the phrase “single function of the trigger,”
ATF Ruling 2006-2 concluded that “[t]o the extent
previous ATF rulings are inconsistent with this determination, they are hereby overruled.” Id.
Following its reclassification of the Akins Accelerator as a machinegun, ATF determined and advised
owners of Akins Accelerator devices that removal and
disposal of the internal spring—the component that
caused the rifle to slide forward in the stock—would
render the device a non-machinegun under the statutory definition. Thus, a possessor could retain the device by removing and disposing of the spring, in lieu
of destroying or surrendering the device.
In May 2008, the inventor of the Akins Accelerator
filed a lawsuit challenging ATF’s classification of his
device as a machinegun, claiming the agency’s decision was arbitrary and capricious under the Administrative Procedure Act (APA). Akins v. United States,
No. 8:08-cv-988, slip op. at 7-8 (M.D. Fla. Sept. 23,
2008). The United States District Court for the Middle District of Florida rejected the plaintiff’s challenge, holding that ATF was within its authority to
reconsider and change its interpretation of the
phrase “single function of the trigger” in the NFA’s
statutory definition of “machinegun.” Id. at 14. The
court further held that the language of the statute
and the legislative history supported ATF’s interpretation of the statutory phrase “single function of the
trigger” as synonymous with “single pull of the trigger.” Id. at 11-12. The court concluded that in ATF
Ruling 2006-2, ATF had set forth a “reasoned analy-

B15

sis” for the application of that new interpretation to
the Akins Accelerator and similar devices, including
the need to “protect the public from dangerous firearms.” Id. at 12.
The United States Court of Appeals for the Eleventh Circuit affirmed the district court’s decision,
holding that “[t]he interpretation by the Bureau that
the phrase ‘single function of the trigger’ means a
‘single pull of the trigger’ is consonant with the statute and its legislative history.” Akins, 312 F. App’x at
200. The Eleventh Circuit further concluded that
“[b]ased on the operation of the Accelerator, the Bureau had the authority to ‘reconsider and rectify’
what it considered to be a classification error.” Id.
In ten letter rulings between 2008 and 2017, ATF
applied the “single pull of the trigger” interpretation
to other bump-stock-type devices. Like the Akins Accelerator, these other bump-stock-type devices allowed the shooter to fire more than one shot with a
single pull of the trigger. However, ATF ultimately
concluded that these devices did not qualify as machineguns because, in ATF’s view, they did not “automatically” shoot more than one shot with a single
pull of the trigger. ATF also applied its “single pull of
the trigger” interpretation to other trigger actuators,
two-stage triggers, and other devices submitted to
ATF for classification. Depending on the method of
operation, some such devices were classified to be
machineguns that were required to be registered in
the National Firearms Registration and Transfer
Record (NFRTR) and could not be transferred or pos-

B16

sessed, except in *66518 limited circumstances, under 18 U.S.C. 922(o).[FN4]4

Examples of recent ATF classification letters relying on the
“single pull of the trigger” interpretation to classify submitted
devices as machineguns include the following:
4

• On April 13, 2015, ATF issued a classification letter regarding a device characterized as a “positive reset trigger,” designed
to be used on a semiautomatic AR-style rifle. The device consisted of a support/stock, secondary trigger, secondary trigger link,
pivot toggle, shuttle link, and shuttle. ATF determined that, after a single pull of the trigger, the device utilized recoil energy
generated from firing a projectile to fire a subsequent projectile.
ATF noted that “a ‘single function of the trigger’ is a single pull,”
and that the device utilized a “single function of the trigger” because the shooter need not release the trigger to fire a subsequent projectile, and instead “can maintain constant pressure
through a single function of the trigger.”
• On October 7, 2016, ATF issued a classification letter regarding two devices described as “LV-15 Trigger Reset Devices.”
The devices, which were designed to be used on an AR-type rifle,
were essentially identical in design and function and were submitted by the same requester (per the requester, the second device included “small improvements that have come as the result
of further development since the original submission”). The devices were each powered by a rechargeable battery and included
the following components: A self-contained trigger mechanism
with an electrical connection, a modified two-position semiautomatic AR-15 type selector lever, a rechargeable battery pack,
a grip assembly/trigger guard with electrical connections, and a
piston that projected forward through the lower rear portion of
the trigger guard and pushed the trigger forward as the firearm
cycled. ATF held that “to initiate the firing . . . a shooter must
simply pull the trigger.” It explained that although the mechanism pushed the trigger forward, “the shooter never releases the
trigger. Consistent with [the requester’s] explanation, ATF
demonstrated that the device fired multiple projectiles with a

B17

In the NPRM, the Department also noted that prior ATF rulings concerning bump-stock-type devices
did not provide substantial or consistent legal analysis regarding the meaning of the term “automatically,” as it is used in the NFA and GCA. For example,
ATF Ruling 2006-2 concluded that devices like the
Akins Accelerator initiated an “automatic” firing cycle because, once initiated by a single pull of the trigger, “the automatic firing cycle continues until the
finger is released or the ammunition supply is exhausted.” ATF Ruling 2006-2, at 1. In contrast, other
ATF letter rulings between 2008 and 2017 concluded
that bump-stock-type devices that enable a semiautomatic firearm to shoot more than one shot with a
single function of the trigger by harnessing a combination of the recoil and the maintenance of pressure
by the shooter do not fire “automatically.” Of the rulings issued between 2008 and 2017, ATF provided
different explanations for why certain bump-stocktype devices were not machineguns, but none of them
extensively examined the meaning of “automatically.”
For instance, some letter rulings concluded that certain devices were not machineguns because they did
not “initiate[ ] an automatic firing cycle that continues until either the finger is released or the ammunition supply is exhausted,” without further defining
the term “automatically.” E.g., Letter for Michael
Smith from ATF’s Firearm Technology Branch Chief
(April 2, 2012). Other letter rulings concluded that
“single function of the trigger” because a single pull was all that
was required to initiate and maintain a firing sequence.

B18

certain bump-stock-type devices were not machineguns because they lacked any “automatically
functioning mechanical parts or springs and perform[ed] no mechanical function[s] when installed,”
again without further defining the term “automatically” in this context. E.g., Letter for David Compton
from ATF’s Firearm Technology Branch Chief (June
7, 2010).
B. Re-Evaluation of Bump-Stock-Type Devices
In the NPRM, the Department reviewed the functioning of semiautomatic firearms, describing that
ordinarily, to operate a semiautomatic firearm, the
shooter must repeatedly pull and release the trigger
to allow it to reset, so that only one shot is fired with
each pull of the trigger. 83 FR at 13443. It then explained that bump-stock-type devices, like the ones
used in Las Vegas, are designed to channel recoil energy to increase the rate of fire of semiautomatic firearms from a single trigger pull. Id. Shooters can
maintain a continuous firing cycle after a single pull
of the trigger by directing the recoil energy of the discharged rounds into the space created by the sliding
stock (approximately 1.5 inches) in constrained linear
rearward and forward paths. Id. These bump-stocktype devices are generally designed to operate with
the shooter shouldering the stock of the device (in essentially the same manner a shooter would use an
unmodified semiautomatic shoulder stock), maintaining constant forward pressure with the non-trigger
hand on the barrel-shroud or fore-grip of the rifle,
and maintaining the trigger finger on the device’s
ledge with constant rearward pressure. Id. The de-

B19

vice itself then harnesses the recoil energy of the
firearm, providing the primary impetus for automatic
fire. Id.
In light of its reassessment of the relevant statutory terms “single function of the trigger” and “automatically,” the NPRM stated ATF’s conclusion that
bump-stock-type devices are “machineguns” as defined in the NFA because they convert an otherwise
semiautomatic firearm into a machinegun by functioning as a self-acting or self-regulating mechanism
that, after a single pull of the trigger, harnesses the
recoil energy of the semiautomatic firearm in a manner that allows the trigger to reset and continue firing without additional physical manipulation of the
trigger by the shooter. Hence, a semiautomatic firearm to which a bump-stock-type device is attached is
able to produce automatic fire with a single pull of
the trigger.
C. Proposed Definition of “Single Function of
the Trigger”
The Department proposed to interpret the phrase
“single function of the trigger” to mean “a single pull
of the trigger,” as it considered it the best interpretation of the statute and because it reflected ATF’s position since 2006. The Supreme Court in Staples v.
United States, 511 U.S. 600, 602 n.1 (1994), indicated
that a machinegun within the NFA “fires repeatedly
with a single pull of the trigger.” This interpretation
is also consistent with how the phrase “single function of the trigger” was understood at the time of the
NFA’s enactment in 1934. For instance, in a congres-

B20

sional hearing leading up to the NFA’s enactment,
the National Rifle Association’s then-president testified that a gun “which is capable of firing more than
one shot by a single pull of the trigger, a single function of the trigger, is properly regarded, in my opinion, as a machine gun.” National Firearms Act: Hearings Before the Committee on Ways and Means, H.R.
9066, 73rd Cong., 2nd Sess., at 40 (1934). Furthermore, and as noted above, the Eleventh Circuit in
Akins concluded that ATF’s interpretation of “single
function of the trigger” to mean a “single pull of the
trigger” “is consonant with the statute and its legislative history.” 312 F. App’x at 200. No other court has
held otherwise.[FN5]5

The NPRM also explained that the term “pull” can be analogized to “push” and other terms that describe activation of a
trigger. For instance, ATF used the term “pull” in classifying the
Akins Accelerator because that was the manner in which the
firearm’s trigger was activated with the device. But the courts
have made clear that whether a trigger is operated through a
“pull,” “push,” or some other action such as a flipping a switch,
does not change the analysis of the functionality of a firearm.
For example, in United States v. Fleischli, 305 F.3d 643, 655-56
(7th Cir. 2002), the Seventh Circuit rejected the argument that
a switch did not constitute a trigger for purposes of assessing
whether a firearm was a machinegun under the NFA, because
such an interpretation of the statute would lead to “the absurd
result of enabling persons to avoid the NFA simply by using
weapons that employ a button or switch mechanism for firing.”
See also United States v. Camp, 343 F.3d 743, 745 (5th Cir.
2003) (“ ‘To construe “trigger” to mean only a small lever moved
by a finger would be to impute to Congress the intent to restrict
the term to apply only to one kind of trigger, albeit a very common kind. The language [in 18 U.S.C. 922(o)] implies no intent
to so restrict the meaning[.]’ ” (quoting United States v. Jokel,
5

B21

*66519 D. Proposed Definition of “Automatically”
The Department also proposed to interpret the
term “automatically” to mean “as the result of a selfacting or self-regulating mechanism that allows the
firing of multiple rounds through a single pull of the
trigger.” That interpretation reflects the ordinary
meaning of that term at the time of the NFA’s enactment in 1934. The word “automatically” is the adverbial form of “automatic,” meaning “[h]aving a selfacting or self-regulating mechanism that performs a
required act at a predetermined point in an operation[.]” Webster’s New International Dictionary 187
(2d ed. 1934); see also 1 Oxford English Dictionary
574 (1933) (defining “Automatic” as “[s]elf-acting under conditions fixed for it, going of itself.”).
Relying on these definitions, the United States
Court of Appeals for the Seventh Circuit interpreted
the term “automatically” as used in the NFA as “delineat[ing] how the discharge of multiple rounds from
a weapon occurs: As the result of a self-acting mechanism . . . set in motion by a single function of the
trigger and . . . accomplished without manual reloading.” United States v. Olofson, 563 F.3d 652, 658 (7th
Cir. 2009). So long as the firearm is capable of producing multiple rounds with a single pull of the trigger until the trigger finger is removed, the ammuni969 F.2d 132, 135 (5th Cir. 1992) (emphasis removed))). Examples of machineguns that operate through a trigger activated by
a push include the Browning design, M2 .50 caliber, the Vickers,
the Maxim, and the M134 hand-fired Minigun.

B22

tion supply is exhausted, or the firearm malfunctions,
the firearm shoots “automatically” irrespective of
why the firing sequence ultimately ends. Id. (“[T]he
reason a weapon ceased firing is not a matter with
which § 5845(b) is concerned.”). Olofson thus requires
only that the weapon shoot multiple rounds with a
single function of the trigger “as the result of a selfacting mechanism,” not that the self-acting mechanism produces the firing sequence without any additional action by the shooter. This definition accordingly requires that the self-acting or self-regulating
mechanism allows the firing of multiple rounds
through a single function of the trigger.
E. Proposed Clarification That the Definition
of “Machinegun” Includes Bump-Stock-Type Devices
The Department also proposed, based on the interpretations discussed above, to clarify that the term
“machinegun” includes a device that allows a semiautomatic firearm to shoot more than one shot with a
single pull of the trigger by harnessing the recoil energy of the semiautomatic firearm to which it is affixed so that the trigger resets and continues firing
without additional physical manipulation of the trigger by the shooter. The Department explained that
when a shooter who has affixed a bump-stock-type
device to a semiautomatic firearm pulls the trigger,
that movement initiates a firing sequence that produces more than one shot. And that firing sequence is
“automatic” because the device harnesses the firearm’s recoil energy in a continuous back-and-forth
cycle that allows the shooter to attain continuous fir-

B23

ing after a single pull of the trigger, so long as the
trigger finger remains stationary on the device’s
ledge (as designed). Accordingly, these devices are included under the definition of “machinegun” and,
therefore, come within the purview of the NFA.
F. Amendment of 27 CFR 479.11
The regulatory definition of “machine gun” in 27
CFR 479.11 matches the statutory definition of “machinegun” in the NFA. The definition includes the
terms “single function of the trigger” and “automatically,” but those terms are not defined in the statutory text. The NPRM proposed to define these terms in
order to clarify the meaning of “machinegun.” Specifically, the Department proposed to amend the definition of “machine gun” in 27 CFR 479.11 by:
1. Defining the term “single function of the trigger”
to mean “single pull of the trigger”;
2. defining the term “automatically” to mean “as
the result of a self-acting or self-regulating mechanism that allows the firing of multiple rounds
through a single pull of the trigger”; and
3. adding a sentence to clarify that a “machine
gun” includes a device that allows a semiautomatic
firearm to shoot more than one shot with a single pull
of the trigger by harnessing the recoil energy of the
semiautomatic firearm to which it is affixed so that
the trigger resets and continues firing without additional physical manipulation of the trigger by the
shooter (commonly known as a bump-stock-type device).

B24

G. Amendment of 27 CFR 478.11
The GCA and its implementing regulations in 27
CFR part 478 reference the NFA’s definition of machinegun. Accordingly, the NPRM proposed to make
the same amendments in 27 CFR 478.11 that were
proposed for § 479.11.
H. Amendment of 27 CFR 447.11
The Arms Export Control Act (AECA), as amended, does not define the term “machinegun” in its key
provision, 22 U.S.C. 2778.[FN6]6 However, regulations in 27 CFR part 447 that implement the AECA
include a similar definition of “machinegun,” and explain that machineguns, submachineguns, machine
pistols, and fully automatic rifles fall within Category
I(b) of the U.S. Munitions Import List when those defense articles are permanently imported. See 27 CFR
447.11, 447.21. Currently, the definition of “machinegun” in § 447.11 provides that “[a] ‘machinegun’,
‘machine pistol’, ‘submachinegun’, or ‘automatic rifle’
is a firearm originally designed to fire, or capable of
being fired fully automatically by a single pull of the
trigger.” The NPRM proposed to harmonize the AECA’s regulatory definition of machinegun with the
definitions in 27 CFR parts 478 and 479, as those definitions would be amended by the proposed rule.
Under the AECA, the President has the authority to designate which items are controlled as defense articles for purposes
of importation and exportation. 22 U.S.C. 2778(a)(1). The President has, in turn, delegated to the Attorney General the authority to promulgate regulations designating the defense articles
controlled for permanent importation, including machineguns.
6

B25

IV. Analysis of Comments and Department
Responses for Proposed Rule
In response to the NPRM, ATF received over
186,000 comments. Submissions came from individuals, including foreign nationals, lawyers, and government officials, as well as various interest groups.
Overall, 119,264 comments expressed support for the
proposed rule, 66,182 comments expressed opposition, and for 657 comments, the commenter’s position
could not be determined. The commenters’ grounds
for support and opposition, along with specific concerns and suggestions, are discussed below.
A. Comments Generally Supporting the Rule
***
B. Particular Reasons Raised in Support of
the Rule
1. Threat to Public Safety
***
2. Unnecessary for Civilians to Own
***
3. Consistent With the Intent of the National
Firearms Act
Comments Received
More than 27,000 of the supporting comments
urged issuance of the final rule because bump-stocktype devices and other similar conversion devices
were meant to circumvent the restrictions of the NFA
and GCA, as bump-stock-type devices enable shooters

B26

to transform their guns into automatic weapons.
Some commenters asserted that it is useless to have
a law against automatic weapons yet allow manufacturers to legally produce and sell an item with the
sole purpose of turning a firearm into an automatic
weapon. Many of these commenters also stated that
bump-stock-type devices violate the spirit of the law
and that this loophole should be closed by ATF as
quickly as possible. Further, at least 1,675 of the
supporting comments stated that the proposed rule is
consistent with the purposes of the NFA and the intent of Congress. Specifically, these commenters
opined that the regulation “enforces machinegun
laws that date back many decades” and that “it will
have the same dramatic benefit originally intended
by those foundational laws.”
Department Response
The Department acknowledges supporters’ comments that bump-stock-type devices were meant to
circumvent the restrictions of the NFA and GCA. Prior to this rule, ATF issued classification letters that
determined that some bump-stock-type devices were
not “machineguns” as defined by the NFA. Those decisions, however, did not include extensive legal
analysis, as described in Part III. Upon reexamining
these classifications, this final rule promulgates definitions for the terms “single function of the trigger”
and “automatically” as those terms are used in the
statutory definition of “machinegun.” ATF believes
these definitions represent the best interpretation of
the statute. Therefore, recognizing that a bumpstock-type device used with a semiautomatic firearm

B27

enables a shooter to shoot automatically more than
one shot by a single function of the trigger, the purpose of this rule is to clarify that such devices are
machineguns under the NFA.
4. Constitutional Under the Second Amendment
***
5. Absence of Congressional Action
Comments Received
Over 1,500 comments in support urged action on
this final rule by invoking popular support for responsible gun limitations. Many of these commenters
stated this measure would be a sensible first step for
gun safety and that ATF should act where Congress
has not acted. One gun safety organization noted that
while congressional measures have stalled, ATF is
doing what it can to refine rules. At least 1,300 commenters indicated that ATF should choose saving
children and the public welfare over the interests of
the gun industry and pro-gun organizations, naming
in particular the NRA. One commenter wrote, “It’s
time we quit cow-towing [sic] to the NRA and considered all the rest of us and our children especially. Being afraid to go to school is unAmerican which is
what the insistence by the NRA on no gun control
is—unAmerican.” Many supporting commenters echoed these sentiments.
Department Response
In light of the legal analysis of the term “machinegun” set forth above, the Department agrees

B28

with commenters that it is necessary to clarify that
the term “machinegun” includes bump-stock-type devices. Congress granted the Attorney General authority to issue rules to administer the NFA and GCA,
and the Attorney General has delegated to ATF the
authority to administer and enforce these statutes
and to implement the related regulations accordingly.
The Department and ATF have initiated this rulemaking to clarify the regulatory interpretation of the
NFA and GCA.
C. Comments Generally Opposing the Rule
***
D. Specific Issues Raised in Opposition to the
Rule
1. Constitutional and Statutory Arguments
a. Violates the Second Amendment
***
b. Violates the Fifth Amendment
i. Violates Due Process Clause—Entrapment
Comments Received
At least one commenter, a gun-rights nonprofit organization, argued that ATF’s change of position constitutes unconstitutional entrapment. It maintained
that ATF’s past classification letters, which informed
the public that certain bump-stock-type devices were
not subject to the NFA or GCA, invited the public to
rely on its consistent decisions and acquire such
items. With the sudden change of position, the organ-

B29

ization asserted, ATF seeks to entrap citizens who
have simply purchased a federally approved firearm
accessory. Citing Sherman v. United States, 356 U.S.
367, 376 (1958), the organization argued that it is
“unconstitutional for the Government to beguile an
individual ‘into committing crimes which he otherwise would not have attempted.’ ” Further, it argued
that at least some 520,000 law-abiding citizens could
be criminals who could face up to ten years’ imprisonment “without even receiving individual notice of
ATF’s reversal of position.”
Department Response
The Department disagrees that the final rule
amounts to entrapment. Entrapment is a complete
defense to a criminal charge on the theory that “Government agents may not originate a criminal design,
implant in an innocent person’s mind the disposition
to commit a criminal act, and then induce commission of the crime so that the Government may prosecute.” Jacobson v. United States, 503 U.S. 540, 548
(1992). A valid entrapment defense has two related
elements: (1) Government inducement of the crime,
and (2) the defendant’s lack of predisposition to engage in the criminal conduct. Mathews v. United
States, 485 U.S. 58, 63 (1988).
As described above, ATF has now concluded that it
misclassified some bump-stock-type devices and
therefore initiated this rulemaking pursuant to the
requirements of the APA. An agency is entitled to
correct its mistakes. See Williams Gas ProcessingGulf Coast Co. v. FERC, 475 F.3d 319, 326 (D.C. Cir.

B30

2006) (“[I]t is well understood that [a]n agency is free
to discard precedents or practices it no longer believes correct. Indeed we expect that an [ ] agency
may well change its past practices with advances in
knowledge in its given field or as its relevant experience and expertise expands. If an agency decides to
change course, however, we require it to supply a
reasoned analysis indicating that prior policies and
standards are being deliberately changed, not casually ignored.”). This rulemaking procedure is specifically designed to notify the public about changes in
ATF’s interpretation of the NFA and GCA and to help
the public avoid the unlawful possession of a machinegun. It is important to note that at no time did
ATF induce any member of the public to commit a
crime. The ANPRM, NPRM, and this final rule have
followed the statutory process for ensuring that the
public is aware of the correct classification of bumpstock-type devices under the law, and that continued
possession of such devices is prohibited. Anyone currently in possession of a bump-stock-type device is
not acting unlawfully unless they fail to relinquish or
destroy their device after the effective date of this
regulation.
ii. Violates Takings Clause and Due Process
Clause
***
c. Violates Ex Post Facto Clause and Bill of
Attainder Clause
Comments Received

B31

Numerous commenters asserted that the proposed
rule would violate article I, section 9, clause 3 of the
Constitution, which states, “No Bill of Attainder or ex
post facto Law shall be passed.” One gun-rights nonprofit organization, quoting United States v. O’Neal,
180 F.3d 115, 122 (4th Cir. 1999), stated that even
though this is a regulatory action, the “sanction or
disability it imposes is ‘so punitive in fact’ that the
law ‘may not legitimately be viewed as civil in nature.’ ”
Another commenter, the Maryland Shall Issue organization, argued that ATF’s reliance on 18 U.S.C.
922(o) creates an impermissible ex post facto law because current owners and manufacturers of bumpstock-type devices “became felons as of the date and
time they took possession of a bump stock, even
though such possession and manufacture was then
expressly permitted by prior ATF interpretations.”
The commenter cited Calder v. Bull, 3 U.S. (3 Dall.)
386, 390 (1798), and Peugh v. United States, 569 U.S.
530 (2013), to support its arguments. It argued that
the ex post facto issue can be avoided by holding that
the exemption in 18 U.S.C. 922(o)(2)(A) applies where
bump-stock-type devices are possessed under “the authority” of prior ATF rulings. Furthermore, the commenter, citing Bowen v. Georgetown University Hospital, 488 U.S. 204, 208 (1988), stated that the Supreme Court has held that an agency cannot engage
in retroactive rulemaking without specific congressional authorization. Relying on Fernandez-Vargas v.
Gonzales, 548 U.S. 30, 36 (2006), the commenter
stated there is no question that the proposed rule has

B32

a retroactive effect because the rule would “affect” existing rights and impose new liabilities on the past
and continued possession of bump-stock-type devices.
***
Department Response
The Department disagrees that the proposed rule
violates the Ex Post Facto or Bill of Attainder Clauses. The rule would criminalize only future conduct,
not past possession of bump-stock-type devices that
ceases by the effective date of this rule. In Calder v.
Bull, 3 U.S. (3 Dall.) 386 (1798), the Supreme Court
set out four types of laws that violate the Ex Post
Facto Clause:
***
This rule brings clarity to the meaning of “machinegun,” and makes clear that individuals are subject to criminal liability only for possessing bumpstock-type devices after the effective date of regulation, not for possession before that date. No action
taken before the effective date of the regulation is affected under the rule. Although regulating past possession of a firearm may implicate the Ex Post Facto
Clause, regulating the continued or future possession
of a firearm that is already possessed does not. See
Benedetto v. Sessions, No. CCB-17-0058; 2017 WL
4310089, at *5 (D. Md. Sept. 27, 2017) (“Whether a
gun was purchased before the challenged law was
enacted . . . is immaterial to whether the challenged
law regulates conduct that occurred before or after its
enactment.”); see also Samuels v. McCurdy, 267 U.S.

B33

188, 193 (1925) (rejecting Ex Post Facto Clause challenge to statute that prohibited the post-enactment
possession of intoxicating liquor, even when the liquor was lawfully acquired before the statute’s enactment). For this reason, the Department disagrees
with commenters’ assertions that the rule violates
the Ex Post Facto Clause.
Relatedly, the Department also disagrees with the
view that 18 U.S.C. 922(o)(2)(A) provides the authority to permit continued possession of bump-stock-type
devices “under the *66526 authority” of prior ATF
rulings. Section 922(o)(2)(A) is inapplicable because,
among other reasons, ATF’s letter rulings regarding
bump-stock-type devices did not purport to authorize
the possession of devices qualifying as machineguns
under section 922(o)(1); instead, ATF advised individuals that certain devices did not qualify as machineguns in the first place, a position that ATF has
now reconsidered. Furthermore, section 922(o)(2)(A)
does not empower ATF to freely grant exemptions
from section 922’s general prohibition of machineguns.
***
d. Violates Fourth Amendment
***
e. Violates Ninth and Tenth Amendments
***
f. Lack of Statutory Authority
Comments Received

B34

***
In addition, numerous commenters argued that, as
the term “machinegun” is already clearly defined in
the NFA, only Congress can make changes to the definition and regulate bump-stock-type devices. Furthermore, commenters stated that the agency’s interpretation of the term “machinegun” would not be entitled to deference under Chevron U.S.A. v. Natural
Resources Defense Council, 467 U.S. 837 (1984).
*66527 Department Response
The Attorney General is responsible for enforcing
the NFA, as amended, and the GCA, as amended.
This includes the authority to promulgate regulations
necessary to enforce the provisions of these statutes.
See 18 U.S.C. 926(a); 26 U.S.C. 7801(a)(2)(A),
7805(a). The statutory provision cited by some commenters, 6 U.S.C. 531, is the provision of the Homeland Security Act of 2002, Public Law 107-296, 116
Stat. 2135, that transferred the powers the Secretary
of the Treasury had with respect to ATF to the Attorney General when ATF was transferred to the Department of Justice. Accordingly, the Attorney General is now responsible for enforcing the NFA and
GCA, and he has delegated the responsibility for administering and enforcing the NFA and GCA to the
Director of ATF, subject to the direction of the Attorney General and the Deputy Attorney General. See
28 CFR 0.130(a)(1)-(2).
“Because § 926 authorizes the [Attorney General]
to promulgate those regulations which are ‘necessary,’ it almost inevitably confers some measure of

B35

discretion to determine what regulations are in fact
‘necessary.”’ Nat’l Rifle Ass’n v. Brady, 914 F.2d 475,
479 (4th Cir. 1990). In the original GCA implementing regulations, ATF provided regulatory definitions
of the terms that Congress did not define in the statute. 33 FR 18555 (Dec. 14, 1968). Since 1968, ATF
has occasionally added definitions to the implementing regulations. See, e.g., 63 FR 35520 (June 30,
1998). Similarly, 26 U.S.C. 7805(a) states that “the
[Attorney General] shall prescribe all needful rules
and regulations for the enforcement of this title.” As
is the case with the GCA, ATF has provided regulatory definitions for terms in the NFA that Congress did
not define, such as “frame or receiver” and “manual
reloading.” See, e.g., 81 FR 2658 (Jan. 15, 2016).
These definitions were necessary to explain and implement the statute, and do not contradict the statute. Federal courts have recognized ATF’s authority
to classify devices as “firearms” under Federal law.
See, e.g., Demko v. United States, 44 Fed. Cl. 83, 93
(1999) (destructive device); Akins v. United States,
312 F. App’x 197 (11th Cir. 2009) (per curiam) (machinegun).
This rule is based upon this authority. Further,
ATF has provided technical and legal reasons why
bump-stock-type devices enable automatic fire by a
single function of the trigger, and thus qualify as machinegun conversion devices, not mere “accessories.”
ATF has regularly classified items as machinegun
“conversion devices” or “combinations of parts,” including auto sears (ATF Ruling 81-4) and the Akins
Accelerator (ATF Ruling 2006-2).

B36

The Department agrees that regulatory agencies
may not promulgate rules that conflict with statutes.
However, the Department disagrees that the rule
conflicts with the statutes or is in contravention of
administrative-law principles. The rule merely defines terms used in the definition of “machinegun”
that Congress did not—the terms “automatically” and
“single function of the trigger”—as part of implementing the provisions of the NFA and GCA.
When a court is called upon to review an agency’s
construction of the statute it administers, the court
looks to the framework set forth in Chevron U.S.A.,
Inc. v. Natural Resources Defense Council, Inc., 467
U.S. 837, 842-43 (1984). The first step of the Chevron
review is to ask “whether Congress has directly spoken to the precise question at issue.” Id. at 842. “If
the intent of Congress is clear, that is the end of the
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of Congress. If, however, the court determines Congress has
not directly addressed the precise question at issue . .
. . the question for the court is whether the agency’s
answer is based on a permissible construction of the
statute.” Id. at 842-43 (footnote omitted).
The Department believes that this rule’s interpretations of “automatically” and “single function of the
trigger” in the statutory definition of “machinegun”
accord with the plain meaning of those terms. Moreover, even if those terms are ambiguous, this rule
rests on a reasonable construction of them. Although
Congress defined “machinegun” in the NFA, 26
U.S.C. 5845(b), it did not further define the compo-

B37

nents of that definition. See, e.g., United States v.
One TRW, Model M14, 7.62 Caliber Rifle, 441 F.3d
416, 419 (6th Cir. 2006) (noting that the NFA does
not define the phrases “designed to shoot” or “can be
readily restored” in the definition of “machinegun”).
Congress thus implicitly left it to the Department to
define “automatically” and “single function of the
trigger” in the event those terms are ambiguous. See
Chevron, 467 U.S. at 844. Courts have appropriately
recognized that the Department has the authority to
interpret elements of the definition of “machinegun”
like “automatically” and “single function of the trigger.” See York v. Sec’y of Treasury, 774 F.2d 417,
419-20 (10th Cir. 1985); United States v. Dodson, 519
F. App’x 344, 348-49 & n.4 (6th Cir. 2013); cf., e.g.,
Firearms Import/Export Roundtable Trade Grp. v.
Jones, 854 F. Supp. 2d 1, 18 (D.D.C. 2012) (upholding
ATF’s interpretation of 18 U.S.C. 925(d) to ban importation of certain firearm parts under Chevron
“step one”); Modern Muzzleloading, Inc. v. Magaw, 18
F. Supp. 2d 29, 35-36 (D.D.C. 1998) (“since the ATF’s
classification of [a firearm as not antique] ‘amounts
to or involves its interpretation’ of the GCA, a statute
administered by the ATF, we review that interpretation under the deferential standard announced in
Chevron”).
Second, the Department’s construction of those
terms is reasonable under Chevron. As explained in
more detail in Part III, the Department is clarifying
its regulatory definition of “automatically” to conform
to how that word was understood and used when the
NFA was enacted in 1934. See Olofson, 563 F.3d at

B38

658. And the Department is reaffirming that a single
pull of the trigger is a single function of the trigger,
consistent with the NFA’s legislative history, ATF’s
previous determinations, and judicial precedent. See,
e.g., Akins, 312 F. App’x at 200. This rule is therefore
lawful under the NFA and GCA even if the operative
statutory terms are ambiguous.
g. Violation of the Americans With Disabilities Act
***
2. Politically Motivated and Emotional Response
***
3. Not Used in Criminal Activity
***
Department Response
The Department disagrees that ATF seeks to regulate bump-stock-type devices merely because they
were, or have the potential to be, used in crime. The
NPRM stated that the Las Vegas shooting made “individuals aware that these devices exist—potentially
including persons with criminal or terrorist intentions—and made their potential to threaten public
safety obvious.” 83 FR at 13447. But the NRPM also
provided a detailed analysis explaining that bumpstock-type devices must be regulated because they
satisfy the statutory definition of “machinegun” as it
is defined in the NFA and GCA. Id. at 13447-48.

B39

Commenters conflate the legal basis for ATF’s
regulation of bump-stock-type devices with the background information that was provided as context for
the reason ATF revisited its previous classifications.
In the NPRM, ATF explained that the tragedy in Las
Vegas gave rise to requests from Congress and nongovernmental organizations that ATF examine its
past *66529 classifications and determine whether
bump-stock-type devices currently on the market
constitute machineguns under the statutory definition. Id. at 13446. While part of the Department’s
mission is to enhance public safety, the impetus for
the change in classification was not, as commenters
argued, that the device may potentially pose a public
safety threat but because, upon review, ATF believes
that it satisfies the statutory definition of “machinegun.” This rule reflects the public safety objectives of the NFA and GCA, but the materials and evidence of public safety implications that commenters
seek have no bearing on whether these devices are
appropriately considered machineguns based on the
statutory definition.
In Motor Vehicle Manufacturers Ass’n v. State
Farm Mutual Automobile Insurance Co., 463 U.S. 29
(1983), the Supreme Court wrote that an “agency
must examine the relevant data and articulate a satisfactory explanation for its action including a ‘rational connection between the facts found and the
choice made.’ ” Id. at 43 (quoting Burlington Truck
Lines, Inc. v. United States, 371 U.S. 156, 168
(1962)). However, that case involved a Federal agency that rescinded a final rule—based on data and pol-

B40

icy choices—shortly after publication, arguing that
that rule was no longer necessary for a multitude of
reasons, including that the costs outweighed the safety benefits. See id. at 38-39. The Supreme Court recognized that any change requires a reasoned basis,
noting that “[i]f Congress established a presumption
from which judicial review should start, that presumption—contrary to petitioners’ views—is not
against safety regulation, but against changes in current policy that are not justified by the rulemaking
record.” Id. at 42. However, the revocation in that
case involved a discretionary policy decision, and did
not depend solely upon statutory construction. The
bump-stock-type device rule is not a discretionary
policy decision based upon a myriad of factors that
the agency must weigh, but is instead based only upon the functioning of the device and the application of
the relevant statutory definition. Therefore, the Department does not believe that this rule conflicts with
State Farm.
4. Will Not Enhance Public Safety
***
Department Response
The Department agrees with the commenters that
the existing laws should be enforced, and the Department is committed to addressing significant violent crime problems facing our communities. No law
or regulation entirely prevents particular crimes, but
the Las Vegas shooting illustrated the particularly
destructive capacity of bump-stock-type devices when
used in mass shooting incidents. In any event, the

B41

impetus for this rule is the Department’s belief, after
a detailed review, that bump-stock-type devices satisfy the statutory definition of “machinegun.” Through
the NFA and GCA, Congress took steps to regulate
machineguns because it determined that machineguns were a public safety threat. ATF must
therefore classify devices that satisfy the statutory
definition of “machinegun” as machineguns. The proposed rule is thus lawful and necessary to provide
public guidance on the law.
5. Punishes Law-Abiding Citizens
***
6. Other Priorities and Efficiencies
***
7. Enforcement and Compliance
***
8. Lack of Consistency
***
Department Response
The Department acknowledges comments regarding the inconsistency in ATF’s previous classifications of some bump-stock-type devices as machineguns and others as non-machineguns. As described in Part III, upon review, ATF recognized that
the decisions issued between 2008 and 2017 did not
provide consistent or extensive legal analysis regarding the term “automatically” as that term applies to
bump-stock-type devices. Consistent with its authori-

B42

ty to reconsider and rectify its past classifications,
the Department accordingly clarifies that the definition of “machinegun” in the NFA and GCA includes
bump-stock-type devices because they convert an
otherwise semiautomatic firearm into a machinegun
by functioning as a self-acting or self-regulating
mechanism that harnesses the recoil energy of the
semiautomatic firearm in a manner that allows the
trigger to reset and continue firing without additional
physical manipulation of the trigger by the shooter.
The Supreme Court has made clear that this sort of
regulatory correction is permissible. An agency
*66531 may change its course as long as it “suppl[ies]
a reasoned analysis for the change,” which the Department has done at length in the NPRM and this
final rule. Motor Vehicle Mfrs. Ass’n v. State Farm
Mut. Auto. Ins. Co., 463 U.S. 29, 42 (1983). And the
agency bears no heightened burden in prescribing
regulations that displace inconsistent previous regulatory actions. FCC v. Fox Television Stations, Inc.,
556 U.S. 502, 514-15 (2009).
9. Earlier Determinations Correct
Comments Received
Over 1,500 commenters opposed to the rule maintained that ATF’s earlier classifications determining
certain bump-stock-type devices not to be subject to
the NFA or GCA were correct and should not be reversed. These commenters stated that reversing this
position is unnecessary and unlawful. To make the
point that ATF is bound by its prior determinations,
many commenters submitted ATF’s own classifica-

B43

tion letters and highlighted the Department’s arguments made in litigation as evidence that the rule on
bump-stock-type devices is an arbitrary decision. In
particular, commenters cited the Department’s arguments made in litigation with Freedom Ordnance
Manufacturing, Inc. (“Freedom Ordnance”), No. 3:16cv-243 (S.D. Ind. filed Dec. 13, 2016). There, the Department defended its decision to classify Freedom
Ordnance’s Electronic Reset Assistant Device (ERAD)
as a machinegun. In responding to Freedom Ordnance’s argument that the ERAD was a bump-stocktype device and not subject to regulation, the Department stated such stocks were not machineguns
because “[b]ump firing requires the shooter to manually and simultaneously pull and push the firearm in
order for it to continue firing.” Brief for ATF in Support of Motion for Summary Judgment and in Opposition to Plaintiff’s Motion for Summary Judgment,
ECF No. 28, at 21 (July 27, 2017). These prior decisions and admissions, commenters argued, preclude
the Department from suddenly reversing its decision.
Department Response
The Department acknowledges that ATF previously determined that certain bump-stock-type devices
were not “machineguns” under the law. The Department notes, however, that a great deal of its analysis
in the Freedom Ordnance litigation was fully consistent with its position in this rule. For example, the
Department adhered to its view that a single pull is a
“single function” of the trigger, see id. at 13-14, and it
argued that a device that relieves the shooter from
having to “pull and release the trigger for each indi-

B44

vidual, subsequent shot” converts the firearm into a
machinegun, id. at 22. While the Department accepted the previous classification of some bump-stocktype devices as non-machineguns, it relied on the
mistaken premise that the need for “shooter input”
(i.e., maintenance of pressure) for firing with bumpstock-type devices means that such devices do not
enable “automatic” firing, see id. at 21—even though
Freedom Ordnance’s ERAD also required maintenance of pressure by the shooter, see id. at 20.
In any event, as explained in the NPRM, the Department believes that ATF clearly has authority to
“reconsider and rectify” its classification errors.
Akins, 312 F. App’x at 200; see also Fox, 556 U.S. at
514-15; Hollis v. Lynch, 121 F. Supp. 3d 617, 642
(N.D. Tex. 2015) (no due process violation in ATF’s
revocation of mistaken approval to manufacture a
machinegun). In the NPRM, the Department noted
that “ATF has reviewed its original classification determinations for bump-stock-type devices from 2008
to 2017 in light of its interpretation of the relevant
statutory language, namely the definition of ‘machinegun.’ ” 83 FR at 13446. The NPRM explained
that “ATF’s classifications of bump-stock-type devices
between 2008 and 2017 did not include extensive legal analysis of these terms in concluding that the
bump-stock-type devices at issue were not ‘machineguns.’ ” Id. Specifically, some of these rulings
concluded that such devices were not machineguns
because they did not “‘initiate [ ] an automatic firing
cycle that continues until either the finger is released
or the ammunition supply is exhausted,’ ” but did not

B45

provide a definition or explanation of the term “automatically.” Id. at 13445. This is precisely the purpose of this rule. As explained in more detail in Part
III, the Department has determined that bump-stocktype devices enable a shooter to initiate an automatic
firing sequence with a single pull of the trigger, making the devices machineguns under the NFA and
GCA. Consistent with the APA, this rule is the appropriate means for ATF to set forth its analysis for
its changed assessment. See Motor Vehicle Mfrs.
Ass’n v. State Farm Mut. Auto Ins. Co., 463 U.S. 29,
57 (1983).
10. Bump Firing and Bump-Stock-Type Device Operation
a. Bump-Stock-Type Device Operation
***
b. Bump-Stock-Type Device Firing Technique
Comments Received
Thousands of commenters objected to the proposed
rule on grounds that bump-stock-type devices are
novelty items that assist with bump firing, which is a
technique that any shooter can perform with training
or with everyday items such as a rubber band or belt
loop. Many commenters stated that all semiautomatic firearms can be bump fired by a shooter simply
holding the trigger finger stationary and pushing the
weapon forward until the trigger is depressed against
it to the point of *66533 firing, and that use of bumpstock-type devices makes using the bump-fire shooting technique safer for the shooter and those around

B46

the shooter. Some commenters also gave examples of
extremely skilled and fast shooters who do not need
any assistive device or item to fire a semiautomatic
firearm at a rapid rate. Commenters therefore argued that if the Department proceeds to prohibit possession of bump-stock-type devices they must also
ban rubber bands, belt loops, string, or even people’s
fingers.
Department Response
The Department disagrees with commenters’ assessments and believes that bump-stock-type devices
are objectively different from items such as belt loops
that are designed for a different primary purpose but
can serve an incidental function of assisting with
bump firing. To bump fire a firearm using a belt loop
or a similar method without a bump-stock-type device, a shooter must put his thumb against the trigger and loop that thumb through a belt loop. With the
non-trigger hand, the shooter then pushes the firearm forward until the thumb engages the trigger and
the firearm fires. The recoil pushes the firearm
backwards as the shooter controls the distance of the
recoil, and the trigger resets. The constant forward
pressure with the non-trigger hand pushes the firearm forward, again pulling the firearm forward, engaging the trigger, and firing a second round.
This rule defines the term “automatically” to mean
“functioning as the result of a self-acting or selfregulating mechanism.” Bump-stock-type devices enable semiautomatic firearms to operate “automatically” because they serve as a self-acting or self-

B47

regulating mechanism. An item like a belt loop is not
a “self-acting or self-regulating mechanism.” When
such items are used for bump firing, no device is present to capture and direct the recoil energy; rather,
the shooter must do so. Conversely, bump-stock-type
devices are specifically designed to capture the recoil
energy, a force that initiates a firing sequence that
ultimately produces more than one shot. That firing
sequence is “automatic” because the device harnesses
the firearm’s recoil energy as part of a continuous
back-and-forth cycle that allows the shooter to attain
continuous firing after a single pull of the trigger.
Bump firing utilizing a belt loop or similar method
of maintaining tension on the firearm is thus more
difficult than using a bump-stock-type device. In fact,
the belt-loop method provides a stabilizing point for
the trigger finger but relies on the shooter—not a device—to harness the recoil energy so that the trigger
automatically re-engages by “bumping” the shooter’s
stationary trigger finger. Unlike a bump-stock-type
device, the belt loop or a similar manual method requires the shooter to control the distance that the
firearm recoils and the movement along the plane on
which the firearm recoils.
ATF’s previous bump-stock-type device classifications determined that these devices enable continuous firing by a single function of the trigger. Other
firing techniques may do the same because they rely
on a single “pull.” However, as ATF has made clear, a
determining factor is whether the device operates or
functions automatically. The proposed and final rules
make clear that if a device incorporates a self-acting

B48

or self-regulating component for the firing cycle, the
firearm equipped with the device operates automatically. Again, this differs from traditional semiautomatic firearms because the trigger must be repeatedly manipulated by the shooter to fire additional
rounds, whereas a bump-stock-type device allows for
a single pull, and the self-acting or self-regulating
device automatically re-engages the trigger finger.
Further, while skilled shooters may be able to fire
more rapidly than a shooter employing a bump-stocktype device on a semiautomatic firearm, they do so by
pulling and releasing the trigger for each shot fired.
This is a fundamental distinction between skilled
shooters and those employing bump-stock-type devices. Bump-stock-type devices require that a shooter
pull the trigger to fire the first round and merely
maintain the requisite pressure to fire subsequent
rounds. This is the purpose of a bump-stock-type device—to make rapid firing easier without the need to
pull and release the trigger repeatedly. This shows
that skilled shooters would be unaffected by the proposed rule and counters commenters’ arguments that
the rule is “arbitrary and capricious” on these
grounds.
11. Proposed Definitions
a. Vagueness—Rate of Fire
***
Department Response
The Department has neither proposed the rate of
fire as a factor in classifying machineguns, nor uti-

B49

lized this as the applicable standard in the proposed
rule. The Department disagrees with any assertion
that the rule is based upon the increased rate of fire.
While bump-stock-type devices are intended to increase the rate at which a shooter may fire a semiautomatic firearm, this rule classifies these devices
based upon the functioning of these devices under the
statutory definition. The Department believes that
bump-stock-type devices satisfy the statutory definition of “machinegun” because bump-stock-type devices utilize the recoil energy of the firearm to create an
automatic firing sequence with a single pull of the
trigger. The rate of fire is not relevant to this determination.
The Department also agrees with commenters that
the standard rate of fire of a semiautomatic firearm
or machinegun is a characteristic that is not dependent upon the individual shooter. Any reference to the
“increased” rate of fire attributable to bump-stocktype devices refers only to the increased rate of fire
that a particular shooter may achieve. Further, the
Department agrees that there is no rate of fire that
can identify or differentiate a machinegun from a
semiautomatic firearm. This is because the statutory
definition alone determines whether a firearm is a
*66534 machinegun. The Department believes that
the final rule makes clear that a bump-stock-device
will be classified as a machinegun based only upon
whether the device satisfies the statutory definition.
b. Vagueness—Impact on Semiautomatic
Firearms and Other Firearm Accessories

B50

Comments Received
More than 56,000 commenters, including those
submitting through the three main form letters opposing the rule and the NAGR submission, indicated
that the proposed rule would set a dangerous precedent because a future “anti-gun Administration” will
use it to confiscate millions of legally owned semiautomatic firearms as well as firearm components and
accessories.
Commenters opposed to the rule broadly argued
that by classifying bump-stock-type devices as machineguns, AR-15s and other semiautomatic firearms
also may be classified as machineguns. In particular,
commenters stated that under the GCA, rifles and
shotguns are defined using a “single pull of the trigger” standard, in contrast to machineguns, which are
defined by a “single function of the trigger” standard
under the NFA. Commenters argued that by defining
“single function of the trigger” to mean “single pull of
the trigger,” the rule will bring all semiautomatic rifles and shotguns currently regulated under the GCA
under the purview of the NFA. Commenters also argued that the proposed regulatory text encompasses
a number of commercially available items, such as
Gatling guns, competition triggers, binary triggers,
Hellfire trigger mechanisms, or even drop-in replacement triggers. One commenter pointed out that
the language “firing without additional physical manipulation of the trigger by shooter” would apply, for
instance, to Model 37 pump shotguns made by Ithaca.

B51

Several commenters said that the proposed rule
should be more narrowly tailored so that it applies to
bump-stock-type devices only. For instance, one
commenter proposed that the following be added to
the definition of bump-stock-type device: “A single accessory capable of performing the roles of both a pistol grip and a shoulder stock.” Another commenter
suggested that, at most, one sentence could be added
at the end of the definition of “machinegun”:
For purposes of this definition, the term “automatically” as it modifies “shoots, is designed to shoot, or
can be readily restored to shoot,” means a device
that—(1) attaches to a semiautomatic rifle (as defined in section 921(a)(28) of title 18, United States
Code); (2) is designed and intended to repeatedly activate the trigger without the deliberate and volitional act of the user pulling the trigger each time the
firearm is fired; and (3) functions by continuous forward pressure applied to the rifle’s fore end in conjunction with a linear forward and backward sliding
motion of the mechanism utilizing the recoil energy
when the rifle is discharged.
One commenter suggested that, instead of trying
to define a bump-stock-type device, it would be better
to issue a rule stating that one cannot modify or replace the current style of stock with one that contains
other features, with exceptions for adjusting the
length of the stock or having a cheek rest.
Department Response
The Department disagrees that other firearms or
devices, such as rifles, shotguns, and binary triggers,

B52

will be reclassified as machineguns under this rule.
Although rifles and shotguns are defined using the
term “single pull of the trigger,” 18 U.S.C. 921(a)(5),
(7), the statutory definition of “machinegun” also requires that the firearm “shoots automatically more
than one shot, without manual reloading,” by a single
function of the trigger, 26 U.S.C. 5845(b). While semiautomatic firearms may shoot one round when the
trigger is pulled, the shooter must release the trigger
before another round is fired. Even if this release results in a second shot being fired, it is as the result of
a separate function of the trigger. This is also the
reason that binary triggers cannot be classified as
“machineguns” under the rule—one function of the
trigger results in the firing of only one round. By contrast, a bump-stock-type device utilizes the recoil energy of the firearm itself to create an automatic firing
sequence with a single pull of the trigger. The Department notes that ATF has already described a
“single pull of the trigger” as a “single function of the
trigger.” See ATF Ruling 2006-2.
Further, while the phrase “firing without additional physical manipulation of the trigger by the
shooter” would apply to firearms like the Model 37
pump shotguns made by Ithaca, that firearm could
not be classified as a machinegun under the rule. The
Model 37 permits a shooter to pull the trigger, hold it
back, and pump the fore-end. The pump-action ejects
the spent shell and loads a new shell that fires as
soon as it is loaded. While this operates by a single
function of the trigger, it does not shoot “automatically,” and certainly does not shoot “without manual re-

B53

loading.” 26 U.S.C. 5845(b). In fact, the pump-action
design requires that the shooter take action to manually load the firearm for each shot fired.
The Department disagrees that “automatically”
should be defined using the more extensive definition
quoted above. Whereas analysis as to what constitutes a “single function of the trigger” is separate
from whether a firearm shoots automatically, the
commenter’s proposed definition merges the two issues. The Department believes that this may lead to
confusion, further complicate the issue, and result in
further questions that require clarification.
c. Concerns Raised by Equating “Function”
and “Pull”
Comments Received
One commenter said drafters of the NFA chose the
term “function” intentionally and that by proposing
to equate “function” with “pull,” a whole new fully automatic non-machinegun market will be opened because “fire initiated by voice command, electronic
switch, swipe on a touchscreen or pad, or any conceivable number of interfaces [does] not requir[e] a
pull.” The commenter suggested that “single function
of a trigger” be defined to include but not be limited
to a pull, as that would include bump-stock-type devices without opening a “can of worms.”
Department Response
The proposed addition to the regulatory definition
of machinegun includes this statement: “For purposes
of this definition, the term ‘single function of the trig-

B54

ger’ means a ‘single pull of the trigger.’ ” The Department believes that the commenter is correct—
this proposed definition may lead to confusion. The
proposed definition suggests that only a single pull of
the trigger will qualify as a single function. However,
it is clear that a push or other method of initiating
the firing cycle must also be considered a “single
function of the trigger.” Machineguns such as the
M134 Minigun utilize a button or an electric switch
as the trigger. See 83 FR at 13447 n.8 (explaining
that other methods of trigger activation are analogous to pulling a trigger).
Therefore, the Department concurs with the commenters and has modified the proposed definition so
that in this final rule the regulatory text will state
that “single function of the trigger” means a “single
pull of the trigger” and analogous motions rather
than a “single pull of the trigger.” Although the case
law establishes that a “single pull” is a *66535 “single function,” those cases were addressing devices
that relied on a single pull of the trigger, as opposed
to some other single motion to activate the trigger.
The term “single function” is reasonably interpreted
to also include other analogous methods of trigger activation.
E. ATF Suggested Alternatives
1. General Adequacy of ATF Alternatives
***
2. First ATF Alternative—No Regulatory Action

B55

Comments Received
Commenters opposed to the regulation implicitly
agreed with the first alternative listed by ATF, which
is for the Department not to take any action. They
argued that attention should be devoted to improving
the background check system, that ATF should concentrate on enforcing the existing gun laws, or that if
there is to be change, that change should be made by
Congress or the States. One commenter argued ATF
failed to properly analyze this alternative.
Department Response
As explained above, Part IV.D.4, the Department
has concluded that the NFA and GCA require regulation of bump-stock-type devices as machineguns, and
that taking no regulatory action is therefore not a viable alternative to this rule.
3. Second ATF Alternative—Shooting Ranges
Comments Received
Commenters who suggested that bump-stock-type
devices be used in a controlled setting, or be available
only at shooting ranges, were largely in support of
the rule rather than viewing it as a complete alternative to taking no regulatory action.
Department Response
The Department acknowledges comments on the
potential use of bump-stock-type devices in a controlled setting, such as a shooting range. As stated
above, the Department believes that such items satisfy the statutory definition of “machinegun,” and

B56

therefore it is promulgating this rule to clarify the
definition. ATF has previously held that the onpremises rental of NFA firearms is permitted. However, whereas machineguns that are currently available for rental at shooting ranges are lawfully registered in the NFRTR if they may be lawfully possessed under 18 U.S.C. 922(o)(2)(B), bump-stock-type
devices cannot be registered because none were in existence when section 922(o) was enacted in 1986.
4. Third ATF Alternative—Use Other Means
***
F. Other Alternatives
1. Allow Registration or Grandfathering of
Bump-Stock-Type Devices Under NFA
***
2. Licensing and Background Checks
***
Department Response
The Department acknowledges these suggested alternatives but does not have the authority to add a
new class of firearms to the statutory scheme or impose licensing requirements to acquire a firearm.
Such changes would require legislation. Further, the
definition of “any other weapon” in the NFA does not
apply to bump-stock-type devices. Because bumpstock-type devices are properly classified as “machineguns” under the NFA and GCA, the Department
believes that ATF must regulate them as such, and

B57

that the recommended alternatives are not possible
unless Congress amends the NFA and GCA.
3. Remuneration
***
4. Medical Exemption
Comments Received
Some commenters suggested that Department
amend the proposed rule so it would provide an exemption for “medical necessity,” thereby allowing certain individuals, such as those with nerve damage or
one functional arm, to possess bump-stock-type devices. Similarly, commenters suggested bump-stocktype devices should only be available for people who
are physically unable to pull a trigger for hunting or
target practice.
Department Response
The Department does not have authority to create
a medical exemption for the possession of machineguns. Pursuant to the NFA and GCA, for private possession of machineguns to be lawful, they
must have been lawfully possessed before the effective date of 18 U.S.C. 922(o).
5. Allow Removal of Trigger Ledge
Comments Received
One commenter suggested that “ATF could find
that bump-stock-type devices with the ledge/rest removed are not affected by any additional regulation.”
The commenter argued that this would make the

B58

proposed rule “logically consistent with the notion
that operators may ‘bump fire’ with or without a
*66537 bump-stock-type device, as long as they do
not utilize a device allowing a fixed trigger finger.”
Department Response
The Department does not believe that removing
the trigger ledge is sufficient to affect a bump-stocktype device’s classification as a machinegun. While
the trigger ledge makes it easier to utilize the device,
removing the ledge does nothing to prevent the directing of the “recoil energy of the discharged rounds
into the space created by the sliding stock (approximately 1.5 inches) in constrained linear rearward
and forward paths.” 83 FR at 13443. Therefore, even
without the trigger ledge, the bump-stock-type device
will operate as designed if the shooter simply holds
his or her finger in place. As such the bump-stocktype device remains a “machinegun” under the NFA
and GCA.
6. Miscellaneous Alternatives To Regulate
Bump-Stock-Type Devices
Comments Received
Other miscellaneous comments included suggesting a ban only on future production and commercial
sale of such items; enacting a quota on the number of
devices that can be produced or possessed; enacting a
Pigouvian tax, which is a tax imposed on a good that
is calculated to reduce market quantity (and increase
market price) in order to achieve the socially optimal
level of the good; deferring action until Congress

B59

takes action; leaving the matter for State legislative
action; improving security at mass-attended events;
and improving law enforcement capabilities.
Department Response
The Department acknowledges comments on alternative suggestions for the regulation of bumpstock-type devices, but it does not have authority to
implement many of the suggested alternatives. The
Department does not have the authority to restrict
only the future manufacture or sale of bump-stocktype devices, nor does it have the authority to remove
the general prohibition on the transfer and possession of machineguns that were not lawfully possessed
on the effective date of 18 U.S.C. 922(o). In addition,
the Department lacks the authority to enact an excise
tax on bump-stock-type devices.
As mentioned above, the Department does not
agree with commenters that any change needs to be
enacted by Congress or should be left to State legislatures. Congress passed both the NFA and GCA, delegating enforcement authority to the Attorney General. Accordingly, the Attorney General has the authority to promulgate regulations necessary to enforce the provisions of the NFA and GCA, and the
Department determined that notice-and-comment
rulemaking was the appropriate avenue to clarify the
definition of “machinegun.” In the interest of public
safety and in light of the statutory definition of “machinegun,” the Department has determined that Federal regulation of bump-stock-type devices is necessary. However, this action does not prevent Congress

B60

from taking action on bump-stock-type devices in the
future.
The Department acknowledges comments on improving security at mass-attended events and agrees
that it is important to improve law enforcement capabilities. The Department actively works with State
and local law enforcement agencies to provide security at mass-attended events, as well as training and
equipment for their departments.
G. Proposed Rule’s Statutory and Executive
Order Review
***
H. Affected Population
Comments Received
There were a number of commenters who stated
this rule will affect between 200,000 and 500,000
owners. Some commenters suggested that the estimated number of bump-stock-type devices should be
higher, potentially over a million, than the estimated
amount stated in the NPRM. Some commenters indicated that this would incorporate homemade devices,
3D-printed devices, or other devices made by personal means.
*66538 Department Response
In the NPRM, ATF did not estimate the number of
owners. 83 FR at 13449. The 280,000-520,000 range
in the Executive Order 12866 section of the NPRM is
the estimated number of bump-stock-type devices in
circulation, not the number of owners. While the De-

B61

partment does not know the total number of bumpstock-type devices currently extant, nor the number
of owners, the Department’s high estimate of 520,000
is still the primary estimate only for devices sold on
the market. While it may be possible to make homemade devices, the Department cannot calculate the
number of such devices or the likelihood of these devices circulating among the public. The Department
is using the best available information, and there is
no known information that would allow ATF to estimate such a number, much less achieve the level of
accuracy that the public is requesting. Therefore, the
estimates provided continue to be based upon the
best available information.
I. Costs and Benefits
***
J. Regulatory Flexibility Act
***
K. Miscellaneous Comments
***
L. Comments on the Rulemaking Process
***
V. Final Rule
This final rule adopts, with minor changes, the
proposed amendments to the definition of “machine
gun” in 27 CFR 447.11, 478.11, and 479.11, which include clarification of the meaning of “automatically”
and “single function of the trigger” and clarification

B62

that bump-stock-type devices are machineguns. The
Department accordingly determined that persons in
possession of bump-stock-type devices must destroy
or abandon the devices.
In response to comments received and discussed in
Part IV, the Department added employees of manufacturers and one additional manufacturer to the
populations potentially affected by this rule, and incorporated sales tax of $19.00 per bump-stock-type
device as part of the economic analysis. Also, the Department considered additional alternatives and inserted an OMB Circular A-4 Accounting Statement
for clarity.
VI. Statutory and Executive Order Review
***
Alternatives
Alternative 1—No change alternative. This alternative would leave the regulations in place as they
currently stand. Since there would be no changes to
regulations, there would be no cost, savings, or benefits to this alternative.
Alternative 2—Patronizing a shooting range. Individuals wishing to experience shooting a “full-auto”
firearm could go to a shooting range that provides access to lawfully registered “pre-1986” machineguns to
customers, where the firearm remains on the premises and under the control of the shooting range. ATF
does not have the information to determine which,
where, or how many gun ranges provide such a ser-

B63

vice and is therefore not able to quantify this alternative.
Alternative 3—Opportunity alternatives. Based on
public comments, individuals wishing to replicate the
effects of bump-stock-type devices could also use rubber bands, belt loops, or otherwise train their trigger
finger to fire more rapidly. To the extent that individuals are capable of doing so, this would be their alternative to using bump-stock-type devices.
Public comments from the NPRM suggested other
alternatives:
1. Provide amnesty or “grandfathering.” This alternative was rejected because since the passage of
18 U.S.C. 922(o), amnesty registration of machineguns is not legally permissible; all devices determined to be machineguns are prohibited except as
provided by exceptions established by statute.
2. Provide licensing and background checks. This
alternative was rejected because only Congress can
add a new class of firearm to the GCA and impose licensing or acquisition requirements on it.
3. Provide compensation for the destruction of the
devices. This alternative was rejected because only
Congress has the authority to offer monetary compensation.
4. Provide a medical exemption. This alternative
was rejected because neither the NFA nor the GCA
provides for medical exemptions to acquire an otherwise prohibited firearm. Only Congress can add medical exemptions.

B64

5. Prohibit only future manufacture and sales.
This alternative was rejected because ATF does not
have the authority to restrict only the future manufacture or sale of bump-stock-type devices.
6. Provide a quota. This alternative was rejected
because ATF lacks authority to implement it, as all
devices determined to be machineguns are prohibited
across the board.
7. Institute a tax. This alternative was rejected because ATF lacks authority to establish excise taxes.
8. Improve security at mass events. This alternative was rejected because improved security must be
paired with reasonable regulations to increase public
safety and reduce violent crime.
9. Congressional legislation. This alternative was
rejected because issuance of this rule will not prevent
Congress from taking action on bump-stock-type devices.
10. Leave the issue to the States. This alternative
was rejected because ATF is responsible for implementing the NFA and GCA, Federal laws designed to
maintain public safety. Issuance of this rule will not
*66552 prevent States from taking action on bumpstock-type devices.
11. Improved law enforcement capabilities. This
alternative was rejected because while training and
equipment may assist law enforcement efforts, they
are not a substitute for the Department’s exercise of
its public safety responsibility of interpreting the
NFA and GCA appropriately.

B65

***
Authority and Issuance
Accordingly, for the reasons discussed in the preamble, 27 CFR parts 447, 478, and 479 are amended
as follows:
PART 447—IMPORTATION OF ARMS, AMMUNITION AND IMPLEMENTS OF WAR
1. The authority citation for 27 CFR part 447 continues to read as follows:
Authority: 22 U.S.C. 2778, E.O. 13637, 78 FR
16129 (Mar. 8, 2013).
27 CFR § 447.11
2. In § 447.11, revise the definition of “Machinegun” to read as follows:
27 CFR § 447.11
§ 447.11 Meaning of terms.
***
Machinegun. A “machinegun”, “machine pistol”,
“submachinegun”, or “automatic rifle” is a firearm
which shoots, is designed to shoot, or can be readily
restored to shoot, automatically more than one shot,
without manual reloading, by a single function of the
trigger. The term shall also include the frame or receiver of any such weapon, any part designed and intended solely and exclusively, or combination of parts
designed and intended, for use in converting a weapon into a machinegun, and any combination of parts
from which a machinegun can be assembled if such

B66

parts are in the possession or under the control of a
person. For purposes of this definition, the term “automatically” as it modifies “shoots, is designed to
shoot, or can be readily restored to shoot,” means
functioning as the result of a self-acting or selfregulating mechanism that allows the firing of multiple rounds through a single function of the trigger;
and “single function of the trigger” means a single
pull of the trigger and analogous motions. The term
“machinegun” includes a bump-stock-type device, i.e.,
a device that allows a semi-automatic firearm to
shoot more than one shot *66554 with a single pull of
the trigger by harnessing the recoil energy of the
semi-automatic firearm to which it is affixed so that
the trigger resets and continues firing without additional physical manipulation of the trigger by the
shooter.
***
PART 478—COMMERCE IN FIREARMS AND
AMMUNITION
3. The authority citation for 27 CFR part 478 continues to read as follows:
Authority: 5 U.S.C. 552(a); 18 U.S.C. 921-931; 44
U.S.C. 3504(h).
27 CFR § 478.11
4. In § 478.11, revise the definition of “Machine
gun” by adding two sentences at the end of the definition to read as follows:
27 CFR § 478.11

B67

§ 478.11 Meaning of terms.
***
Machine gun. * * * For purposes of this definition,
the term “automatically” as it modifies “shoots, is designed to shoot, or can be readily restored to shoot,”
means functioning as the result of a self-acting or
self-regulating mechanism that allows the firing of
multiple rounds through a single function of the trigger; and “single function of the trigger” means a single pull of the trigger and analogous motions. The
term “machine gun” includes a bump-stock-type device, i.e., a device that allows a semi-automatic firearm to shoot more than one shot with a single pull of
the trigger by harnessing the recoil energy of the
semi-automatic firearm to which it is affixed so that
the trigger resets and continues firing without additional physical manipulation of the trigger by the
shooter.
***
PART 479—MACHINE GUNS, DESTRUCTIVE
DEVICES, AND CERTAIN OTHER FIREARMS
5. The authority citation for 27 CFR part 479 continues to read as follows:
Authority: 26 U.S.C. 5812; 26 U.S.C. 5822; 26
U.S.C. 7801; 26 U.S.C. 7805.
27 CFR § 479.11
6. In § 479.11, revise the definition of “Machine
gun” by adding two sentences at the end of the definition to read as follows:

B68

27 CFR § 479.11
§ 479.11 Meaning of terms.
***
Machine gun. * * * For purposes of this definition,
the term “automatically” as it modifies “shoots, is designed to shoot, or can be readily restored to shoot,”
means functioning as the result of a self-acting or
self-regulating mechanism that allows the firing of
multiple rounds through a single function of the trigger; and “single function of the trigger” means a single pull of the trigger and analogous motions. The
term “machine gun” includes a bump-stock-type device, i.e., a device that allows a semi-automatic firearm to shoot more than one shot with a single pull of
the trigger by harnessing the recoil energy of the
semi-automatic firearm to which it is affixed so that
the trigger resets and continues firing without additional physical manipulation of the trigger by the
shooter.
***
Dated: December 18, 2018.
Matthew G. Whitaker,
Acting Attorney General.
[FR Doc. 2018-27763 Filed 12-21-18; 8:45 am]
BILLING CODE 4410-FY-P

APPENDIX C
356 F.Supp.3d 109
United States District Court, District of Columbia.
Damien GUEDES, et al., Plaintiffs,
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES, et al., Defendants.
David Codrea, et al., Plaintiffs,
v.
William P. Barr,1 Attorney General, et al., Defendants.
No. 18-cv-2988 (DLF), No. 18-cv-3086 (DLF)
|
Signed 02/25/2019
MEMORANDUM OPINION
DABNEY L. FRIEDRICH, United States District
Judge
On October 1, 2017, a lone gunman fired several
hundred rounds of ammunition at a crowd gathered
for an outdoor concert in Las Vegas, killing 58 people
and wounding hundreds more. According to the Bu-

1 When this suit began, Matthew G. Whitaker was the Acting
Attorney General. When William P. Barr became Attorney General, he was automatically substituted. See Fed. R. Civ. P. 25(d).

(C1)

C2

reau of Alcohol, Tobacco, Firearms, and Explosives
(ATF), the gunman used multiple “bump stocks” in
the attack, which increased *120 his rate of fire. In
response to this tragedy, the President, Members of
Congress, and others urged ATF to reconsider its prior position that a bump stock is not a “machinegun”
within the meaning of the National Firearms Act of
1934 (NFA). On December 26, 2018, ATF issued a final rule amending the regulatory definition of “machinegun” to include “bump-stock-type devices.” As a
result, if the rule becomes effective on March 26,
2019, as scheduled, bump stocks will be banned under the Firearms Owners’ Protection Act of 1986
(FOPA).
To prevent the rule from taking effect, the plaintiffs—Damien Guedes, the Firearms Policy Coalition,
David Codrea, and their co-plaintiffs—filed three motions for a preliminary injunction in which they
raised overlapping statutory and constitutional challenges. All of the plaintiffs contend that ATF violated
the Administrative Procedure Act (APA) when it
promulgated the rule. Guedes also argues that ATF
violated certain procedural requirements in 18 U.S.C.
§ 926(b), which grants the agency rulemaking authority. Codrea further argues that the rule violates the
Takings Clause of the Fifth Amendment. And all of
the plaintiffs contend that then–Acting Attorney
General Matthew Whitaker lacked authority to
promulgate the rule under either the Appointments
Clause of the Constitution or 28 U.S.C. § 508 (the AG
Act), a succession statute specific to the Office of the
Attorney General. Because none of the plaintiffs’ ar-

C3

guments support preliminary injunctive relief, the
Court will deny all three motions.
Most of the plaintiffs’ administrative law challenges are foreclosed by the Chevron doctrine, which
permits an agency to reasonably define undefined
statutory terms. See Chevron v. Nat. Res. Def. Council, 467 U.S. 837, 104 S.Ct. 2778, 81 L.Ed.2d 694
(1984). Here, Congress defined “machinegun” in the
NFA to include devices that permit a firearm to shoot
“automatically more than one shot, without manual
reloading, by a single function of the trigger,” 26
U.S.C. § 5845(b), but it did not further define the
terms “single function of the trigger” or “automatically.” Because both terms are ambiguous, ATF was
permitted to reasonably interpret them, and in light
of their ordinary meaning, it was reasonable for ATF
to interpret “single function of the trigger” to mean
“single pull of the trigger and analogous motions” and
“automatically” to mean “as the result of a self-acting
or self-regulating mechanism that allows the firing of
multiple rounds through a single pull of the trigger.”
ATF also reasonably applied these definitions when it
concluded that bump stocks permit a shooter to discharge multiple rounds automatically with a single
function of the trigger. That this decision marked a
reversal of ATF’s previous interpretation is not a basis for invalidating the rule because ATF’s current interpretation is lawful and ATF adequately explained
the change in interpretation.
The Court also rejects the plaintiffs’ procedural
challenges. ATF adequately responded to the objections raised by the plaintiffs during the comment period, and ATF was not required to disclose evidence

C4

on which it did not rely when it promulgated the rule.
Nor did ATF violate § 926(b) by refusing to hold an
oral hearing. Finally, any error ATF may have committed by failing to extend the comment period by
five days because of technical glitches was harmless.
As for the Takings Clause challenge, the plaintiffs
have not shown that preliminary injunctive relief rather than future compensation is appropriate.
The plaintiffs’ statutory and constitutional challenges to Whitaker’s authority fare no better. As a
statutory matter, the *121 plaintiffs argue that the
AG Act requires the Deputy Attorney General to
serve as Acting Attorney General when there is a vacancy and that nothing in the Federal Vacancies Reform Act (FVRA) empowers the President to change
that result. The plain text and structure of both statutes, however, demonstrate that they were intended
to coexist: the AG Act provides a line of succession,
and the FVRA gives the President discretion to depart from that line, subject to certain limitations met
here.
As a constitutional matter, the plaintiffs argue
that the Appointments Clause generally requires an
acting principal officer to be either the principal officer’s first assistant or appointed by the President
with the advice and consent of the Senate. But that
theory is foreclosed by Supreme Court precedent and
historical practice, both of which have long approved
temporary service by non-Senate confirmed officials,
irrespective of their status as first assistants.
Separately, the plaintiffs argue that the Appointments Clause at a minimum requires the role of an

C5

acting principal officer to be filled by an inferior officer and not a mere employee. Whitaker, the plaintiffs contend, was not an officer because the FVRA
did not authorize the President to “appoint” him and
because his role as an acting official was temporary.
The Court disagrees. Whitaker’s designation under
the FVRA was a Presidential appointment. And if the
temporary nature of Whitaker’s service prevented
him from becoming an officer, then the President was
not constitutionally obligated to appoint him at all.
I. BACKGROUND
A. Procedural History
On December 18, 2018, Guedes, Firearms Policy
Coalition (the Coalition), Firearms Policy Foundation, and Madison Society Foundation filed a complaint and a motion for a preliminary injunction.
Guedes’s Compl., Dkt. 1, No. 18-cv-2988; Guedes’s
Mot., Dkt. 2, No. 18-cv-2988. Although their complaint contained eight claims, they moved for a preliminary injunction only on the grounds that (1)
ATF’s rule violated the APA and 18 U.S.C. § 926(b),
and (2) Whitaker lacked authority to promulgate the
bump stock rule. Compare Guedes’s Compl., with
Guedes’s Br., Dkt. 2-1, No. 18-cv-2988. At the parties’
request, the Court extended the time for briefing and
held a hearing on the motion for a preliminary injunction on January 11, 2019. Minute Order, Dec. 21,
2018, No. 18-cv-2988.
Less than a week after filing the motion, Guedes
and the Coalition elected to pursue separate lawsuits.
On December 26, 2018, the Coalition voluntarily
dismissed its claims, Notice of Voluntary Dismissal

C6

at 2, Dkt. 8, No. 18-cv-2988, and Guedes filed an
amended complaint that alleged the original eight
causes of action minus the challenge to Whitaker’s
authority, Guedes’s Am. Compl., Dkt. 9, No. 18-cv2988. The Coalition simultaneously filed a new complaint in this District that elaborated on the original
challenge to Whitaker’s authority and raised several
additional claims based on Whitaker’s allegedly infirm designation as Acting Attorney General. See
Firearms Pol’y Coal.’s Compl., Dkt. 1, No. 18-cv-3083.
The Coalition also filed a motion for a preliminary injunction. Firearms Pol’y Coal.’s Mot., Dkt. 2, No. 18cv-3083.
In response to the recent government shutdown,
the government filed unopposed motions to stay in
each case in late December. See Gov’t’s Mot. for a
Stay in Guedes, Dkt. 7, No. 18-cv-2988; Gov’t’s Mot.
for a Stay in Firearms Pol’y Coal., Dkt. 8, No. 18-cv3083. Both motions were granted. *122 Minute Order
in Guedes, Dec. 27, 2018, No. 18-cv-2988; Minute Order in Firearms Pol’y Coal., Dec. 27, 2018, No. 18-cv3083.
On January 3, 2019, Firearms Policy Coalition was
transferred to the undersigned as a related case and,
with the consent of the parties, consolidated with
Guedes. See Reassignment of Civil Case in Firearms
Pol’y Coal., Dkt. 12, No. 18-cv-3083; Minute Order in
Guedes, Jan. 8, 2019, No. 18-cv-2988. A few days later, the Court granted the plaintiffs’ motion to lift the
stay and set a revised briefing schedule. Minute Order in Guedes, Jan. 11, 2019, No. 18-cv-2988.

C7

Meanwhile, on December 27, 2018, Codrea filed
yet another action challenging the bump stock rule,
and he moved for a preliminary injunction several
weeks later on January 18, 2019. See Codrea’s
Compl., Dkt. 1, No. 18-cv-3086; Codrea’s Mot., Dkt. 5,
No. 18-cv-3086. Like the other plaintiffs, Codrea
seeks to enjoin the rule on the grounds that ATF violated the APA and Whitaker lacked authority to
promulgate the rule. Codrea’s Br. at 13–14, Dkt. 5-1,
No. 18-cv-3086. Codrea also argues that a preliminary injunction is appropriate because ATF violated
the Takings Clause of the Fifth Amendment. Id. at
13. Codrea was transferred to the undersigned as a
related case, see Reassignment of Civil Case in
Codrea, Dkt. 14, No. 18-cv-3086, but at the request of
the parties, the Court did not consolidate Codrea
with Guedes.
On February 6, 2019, the Court held a hearing in
Guedes. On February 19, 2019, after briefing was
complete, the Court held a second hearing in Codrea.
This opinion resolves all three of the pending motions
for a preliminary injunction.
B. The Statutory Framework and Regulatory
History of Bump Stock Prohibitions
The National Firearms Act of 1934 (NFA) and the
Firearm Owners Protection Act of 1986 (FOPA) provide the statutory basis for the bump stock rule. The
NFA provides the following definition for the term
“machinegun”:2

The U.S. Code uses an uncommon spelling of “machinegun.”
See United States v. Carter, 465 F.3d 658, 661 n.1 (6th Cir.
2

C8

The term “machinegun” means any weapon
which shoots, is designed to shoot, or can be
readily restored to shoot, automatically more
than one shot, without manual reloading, by a
single function of the trigger. The term shall
also include the frame or receiver of any such
weapon, any part designed and intended solely
and exclusively, or combination of parts designed and intended, for use in converting a
weapon into a machinegun, and any combination of parts from which a machinegun can be
assembled if such parts are in the possession
or under the control of a person.
26 U.S.C. § 5845(b). Congress later passed the FOPA,
which generally makes it “unlawful for any person to
transfer or possess” a newly manufactured “machinegun,” 18 U.S.C. § 922(o), and incorporates the
NFA’s definition of that term, 18 U.S.C. § 921(a)(23)
(“The term ‘machinegun’ has the meaning given such
term in ... the National Firearms Act.”). The FOPA
also amended a previous grant of rulemaking authority to provide that “[t]he Attorney General may prescribe only such rules and regulations as are necessary to carry out the provisions of this chapter.” 18
U.S.C. § 926(a); see also Nat’l Rifle Ass’n v. Brady,
914 F.2d 475, 478 (4th Cir. 1990) (discussing the
statutory change). The key *123 question here is
whether the NFA’s definition of “machinegun” en-

2006) (discussing the spelling of machine gun). Except when
quoting the relevant statutes, the Court uses the more common,
two-word spelling of machine gun.

C9

compasses devices that are colloquially referred to as
“bump stocks.”
The parties do not dispute the basic mechanics of
standard bump stock devices. A bump stock replaces
a semiautomatic rifle’s standard stock—the part of
the rifle that rests against the shooter’s shoulder—
and enables the shooter to achieve a faster firing
rate. To use a bump stock as intended, the shooter
must maintain forward pressure on the barrel and, at
the same time, pull the trigger and maintain rearward pressure on the trigger. Once the shooter pulls
the trigger, a bump stock helps harness and direct
the firearm’s recoil energy, thereby forcing the firearm to shift back and forth, each time “bumping” the
shooter’s stationary trigger finger. In this way, the
shooter is able to reengage the trigger without additional physical manipulation, though the process may
cause small involuntary movements of the trigger
finger.
ATF first began to regulate bump stocks in 2006
when it determined that the term “machinegun” encompassed the “Akins Accelerator,” a specific bump
stock model with an internal spring that pushed the
firearm forward after the shooter pulled the trigger.
See Akins v. United States, 312 F. App’x 197, 198
(11th Cir. 2009) (per curiam). ATF initially determined in 2002 and again in 2004 that the Akins Accelerator did not qualify as a “machinegun” because it
did not permit a shooter to discharge multiple rounds
with a “single function of the trigger.” Id. at 199. But
the agency reversed course in 2006, when it reinterpreted a “single function of the trigger” to mean a
“single pull of the trigger.” Id. at 200. Under that new

C10

interpretation, ATF determined that the Akins Accelerator qualified as a “machinegun” because the device enabled the shooter to discharge multiple rounds
with only one “pull,” even though the trigger mechanically reset between rounds. Id. The Eleventh Circuit
later upheld ATF’s decision, reasoning that ATF’s interpretation of “single function of the trigger” was
“consonant with the [NFA] and its legislative history.” Id.
For years, ATF declined to classify as “machineguns” other standard bump stock models that
did not include an internal spring. 83 Fed. Reg. at
66517. ATF reasoned that, although standard bump
stock devices permit a shooter to discharge multiple
rounds with a single function of the trigger, they do
not operate “automatically.” Id. But ATF’s interpretation of the term “automatically” remained unclear.
At times, ATF focused on whether a given bump
stock device “initiate[d] an automatic firing cycle that
continue[d] until either the finger [wa]s released or
the ammunition supply [wa]s exhausted.” Id. at
66518 (internal quotation marks omitted). Other
times, it focused on whether the device had “automatically functioning mechanical parts or springs” or
“performed ... mechanical functions when installed.”
Id. (alterations adopted and internal quotation marks
omitted).
C. The Final Bump Stock Rule
The call for action in the wake of the 2017 mass
shooting in Las Vegas, Nevada was immediate and
widespread. Members of Congress and others requested that ATF reconsider its position with respect

C11

to standard bump stock devices. Id. at 66516. And after ATF issued an Advance Notice of Proposed Rulemaking, President Trump released a memorandum
urging the Attorney General, “as expeditiously as
possible, to propose for notice and comment a rule
banning all devices that turn legal weapons into machineguns.” Id. at 66517 (quoting *124 Application of
Machinegun to ‘Bump Fire’ Stocks and Other Similar
Devices, 83 Fed. Reg. 7949 (Feb. 20, 2018) ).
On March 29, 2018, ATF proposed the bump stock
rule and formally provided the public with 90 days,
as required by 18 U.S.C. § 926(b), to submit written
comments online, by mail, or by facsimile. BumpStock-Type Devices, 83 Fed. Reg. at 13442 (proposed
Mar. 29, 2018). The first few days of the comment period did not go smoothly. According to Guedes, several commenters faced technological difficulties that
prevented them from submitting online comments.
Guedes’s Br. at 22–25. Some online users, for example, received a “Comment Period Closed” notification
on the proposed rule’s FederalRegister.gov page—
though the page also included a contradictory notice
stating that the proposed rule had a comment period
that would end several days in the future. Guedes’s
Am. Compl. Ex. A, at 14, Dkt. 9-1, No. 18-cv-2988.
Meanwhile, a search for “bump stock” on another
rulemaking website, Regulations.gov, directed commenters to the correct page, and ATF did in fact receive comments submitted during the first few days
of the comment period. 83 Fed. Reg. at 66542. In addition to submitting written comments, a few of the
plaintiffs sought an opportunity to participate in a
public, oral hearing, Guedes’s Br. at 6, but ATF re-

C12

fused those requests, 83 Fed. Reg. at 66542. ATF explained that “a public hearing would [not] meaningfully add data or information” that would assist the
agency in drafting the final rule. Id.
In the final rule published on December 26, 2018,
ATF reversed its earlier position and concluded that
a standard bump stock device is a “machinegun” as
defined in the NFA. Id. at 66543, 66553. Consistent
with its 2006 Akins Accelerator determination, ATF
interpreted the term “single function of the trigger”
to mean a “single pull of the trigger.” Id. at 66553.
ATF also interpreted “automatically” to mean “as the
result of a self-acting or self-regulating mechanism
that allows the firing of multiple rounds through a
single pull of the trigger.” Id. Based on these definitions, ATF added a sentence to the regulatory definition of “machinegun” to make clear that the term
“machinegun” in the NFA includes “bump-stock-type
device[s],” which “allow[ ] a semi-automatic firearm
to shoot more than one shot with a single pull of the
trigger by harnessing the recoil energy of the semiautomatic firearm to which it is affixed so that the
trigger resets and continues firing without additional
physical manipulation of the trigger by the shooter.”
Id. at 66553–54. Under the rule, “current possessors”
of bump stocks must either destroy them or abandon
them at an ATF office. Id. at 66530. The rule is set to
become effective on March 26, 2019.
D. The Constitutional and Statutory Framework for the Designation of Acting Attorneys
General

C13

The Constitution’s Appointments Clause provides
that the President “shall appoint ... Officers of the
United States” “by and with the Advice and Consent
of the Senate,” but “the Congress may by Law vest
the Appointment of such inferior Officers, as they
think proper, in the President alone, in the Courts of
Law, or in the Heads of Departments.” U.S. Const.
art. II, § 2, cl. 2. The Constitution does not provide
clear guidance about whether and when an individual may temporarily serve as an acting principal officer without Senate confirmation. Instead, a series of
statutes provide the primary framework for the designation of acting officers. See NLRB v. SW Gen., –––
U.S. ––––, 137 S.Ct. 929, 934, 197 L.Ed.2d 263
(2017).
In 1868, Congress enacted the first Vacancies Act,
a predecessor to the Federal Vacancies Reform Act
(FVRA). Act of July *125 23, 1868, ch. 227, 15 Stat.
168 (1868). The Vacancies Act, which established the
basic statutory framework that continues to operate
today, created a default rule that in the case of a vacancy “of the head of any executive department of the
government, the first or sole assistant thereof shall ...
perform the duties of such head until a successor be
appointed, or such absence or sickness shall cease.”
Id. § 1, 15 Stat. at 168. But the Vacancies Act also
permitted the President to override that firstassistant default rule and designate another Senateconfirmed official to serve temporarily on an acting
basis. Id. § 3; see also SW Gen., 137 S.Ct. at 935. Until recently, with the enactment of the modern FVRA,
the President could not invoke the override authority
established in the Vacancies Act to designate an Act-

C14

ing Attorney General; the first-assistant default rule
always applied. 5 U.S.C. § 3347 (1994) (providing
that the President’s authority to designate acting officials under the FVRA “d[id] not apply to a vacancy
in the office of the Attorney General”).
In addition to the Vacancies Act, Congress has enacted a series of agency-specific statutes, including
the AG Act, 28 U.S.C. § 508. The AG Act provides
that “[i]n case of a vacancy in the office of Attorney
General, or of his absence or disability, the Deputy
Attorney General may exercise all the duties of that
office, and for the purpose [of the first-assistant default rule] the Deputy Attorney General is the first
assistant to the Attorney General.” Id. § 508(a). The
AG Act then provides a further order of succession:
“When by reason of absence, disability, or vacancy in
office, neither the Attorney General nor the Deputy
Attorney General is available to exercise the duties of
the office of Attorney General, the Associate Attorney
General shall act as Attorney General,” and “[t]he Attorney General may designate the Solicitor General
and the Assistant Attorneys General, in further order
of succession, to act as Attorney General.” Id.
§ 508(b).
In 1998, Congress enacted the FVRA. Like the earlier Vacancies Act, the FVRA includes a firstassistant default rule, but it permits the President to
override that rule in one of two ways. 5 U.S.C.
§ 3345(a)(1). First, “the President ... may direct a person who serves in an office for which appointment is
required to be made by the President, by and with
the advice and consent of the Senate, to perform the
functions and duties of the vacant office temporarily.”

C15

Id. § 3345(a)(2). Second, “the President ... may direct
an officer or employee of such Executive agency to
perform the functions and duties of the vacant office
temporarily” if that individual has served in the
agency for at least 90 days in the 365–day period preceding the vacancy in a position that receives pay
“equal to or greater than the minimum rate of pay
payable for a position at GS-15 of the General Schedule.” Id. § 3345(a)(3). In a break from the earlier Vacancies Act, the FVRA also eliminated the exception
for the Office of the Attorney General, so the President can override the first-assistant default rule even
for that Office. Compare 5 U.S.C. § 3347 (1994), with
5 U.S.C. § 3347 (2018). And the FVRA increased the
amount of time during which an acting official may
serve to 210 days, subject to certain statutory exceptions. See id. § 3346; see also SW Gen., 137 S.Ct. at
935–36.
The FVRA includes an exclusivity provision that
explains how the FVRA interacts with agency-specific
statutes like the AG Act. Under § 3347(a), the FVRA
is “the exclusive means for temporarily authorizing
an acting official to perform the functions and duties
of any office of an Executive agency ... for which appointment is required to be made by the President, by
*126 and with the advice and consent of the Senate,
unless ... a statutory provision expressly” either “authorizes the President, a court, or the head of an Executive department, to designate an officer or employee” to serve in an acting capacity or “designates
an officer or employee” to serve in an acting capacity.
5 U.S.C. § 3347(a).

C16

E. The Designation of Matthew Whitaker to
Serve as Acting Attorney General
On November 7, 2018, the Attorney General, Jefferson B. Sessions, III, resigned. Guedes’s Compl. ¶
50–51. The next day, the President invoked his authority under the FVRA and “directed” Whitaker,
then the Attorney General’s Chief of Staff, to “perform the functions and duties of the office of Attorney
General, until the position is filled by appointment or
subsequent designation.” Firearms Pol’y Coal.’s Mot.
App. A, Dkt. 2-2, No. 18-cv-3083. Whitaker served as
Acting Attorney General until Barr was confirmed as
Attorney General on February 15, 2019. See 165
Cong. Rec. S1397 (daily ed. Feb. 14, 2019). While
serving as Acting Attorney General, Whitaker issued
the bump stock rule at issue here. See 83 Fed. Reg. at
66554.
II. LEGAL STANDARDS
A. Preliminary Injunctions
A preliminary injunction is “an extraordinary
remedy that may only be awarded upon a clear showing that the plaintiff is entitled to such relief.”
Sherley v. Sebelius, 644 F.3d 388, 392 (D.C. Cir.
2011) (quoting Winter v. Nat. Res. Def. Council, 555
U.S. 7, 22, 129 S.Ct. 365, 172 L.Ed.2d 249 (2008) ). To
prevail, a party seeking preliminary relief must make
a “clear showing that four factors, taken together,
warrant relief: likely success on the merits, likely irreparable harm in the absence of preliminary relief, a
balance of the equities in its favor, and accord with
the public interest.” League of Women Voters v. Newby, 838 F.3d 1, 6 (D.C. Cir. 2016) (internal quotation

C17

marks omitted). If the plaintiff fails to establish a
likelihood of success on the merits, the court “need
not proceed to review the other three preliminary injunction factors.” Ark. Dairy Coop. Ass’n v. U.S. Dep’t
of Agric., 573 F.3d 815, 832 (D.C. Cir. 2009). The
plaintiff cannot prevail without a “substantial indication of likely success on the merits.” Archdiocese of
Wash. v. Wash. Metro. Area Transit Auth., 281
F.Supp.3d 88, 99 (D.D.C. 2017) (“[A]bsent a substantial indication of likely success on the merits, there
would be no justification for the Court’s intrusion into
the ordinary processes of administration and judicial
review.” (internal quotation marks omitted) ), aff’d,
897 F.3d 314 (D.C. Cir. 2018).
B. Judicial Review of Agency Action
The APA provides that a court must “hold unlawful and set aside agency action, findings, and conclusions found to be ... arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.”
5 U.S.C. § 706(2). Under the familiar Chevron
framework, “[i]f Congress has directly spoken to [an]
issue, that is the end of the matter.” Confederated
Tribes of Grand Ronde Cmty. v. Jewell, 830 F.3d 552,
558 (D.C. Cir. 2016) (discussing Chevron, 467 U.S.
837, 104 S.Ct. 2778). “[T]he court, as well [as] the
agency, must give effect to the unambiguously expressed intent of Congress.” Lubow v. U.S. Dep’t of
State, 783 F.3d 877, 884 (D.C. Cir. 2015) (quoting
Chevron, 467 U.S. at 842–43, 104 S.Ct. 2778). But if
the text is silent or ambiguous, courts must “determine if the agency’s interpretation is permissible,
and if so, defer to it.” Confederated Tribes of Grand
Ronde Cmty., 830 F.3d at 558. *127 “This inquiry, of-

C18

ten called Chevron Step Two, does not require the
best interpretation, only a reasonable one.” Van Hollen, Jr. v. FEC, 811 F.3d 486, 492 (D.C. Cir. 2016)
(internal quotation marks omitted); see also id. (“We
are bound to uphold agency interpretations regardless [of] whether there may be other reasonable, or
even more reasonable, views.” (alteration adopted
and internal quotation marks omitted) ).
Further, even when an interpretation is reasonable under Chevron, “agency action is always subject
to arbitrary and capricious review under the APA.”
Confederated Tribes of Grand Ronde Cmty., 830 F.3d
at 559. An interpretation is arbitrary and capricious
if the agency “relied on factors that Congress has not
intended it to consider, entirely failed to consider an
important aspect of the problem, offered an explanation” that “runs counter to the evidence before the
agency, or is so implausible that it could not be ascribed to a difference in view or the product of agency
expertise.” Agape Church v. FCC, 738 F.3d 397, 410
(D.C. Cir. 2013) (quoting Motor Vehicle Mfrs. Ass’n v.
State Farm Mut. Auto. Ins., 463 U.S. 29, 43, 103 S.Ct.
2856, 77 L.Ed.2d 443 (1983) ). Put simply, “[t]he
agency must ‘articulate a satisfactory explanation for
its action including a rational connection between the
facts found and the choice made.’ ” Nat’l Lifeline
Ass’n v. FCC, No. 18-1026, 915 F.3d 19, 27, 2019 WL
405020, at *5 (D.C. Cir. Feb. 1, 2019) (quoting State
Farm, 463 U.S. at 43, 103 S.Ct. 2856).
Often the inquiry under Chevron Step Two overlaps with arbitrary and capricious review because
“under Chevron step two, the court asks whether an
agency interpretation is arbitrary and capricious in

C19

substance.” Agape Church, 738 F.3d at 410 (alteration adopted) (quoting Judulang v. Holder, 565 U.S.
42, 52 n.7, 132 S.Ct. 476, 181 L.Ed.2d 449 (2011) ). At
bottom, a reviewing court must decide whether an
agency action is “within the scope of [the agency’s]
lawful authority” and supported by “reasoned decisionmaking.” Tripoli Rocketry Ass’n v. ATF, 437 F.3d
75, 77 (D.C. Cir. 2006) (internal quotation marks
omitted); see also id. (“Not only must an agency’s decreed result be within the scope of its lawful authority, but the process by which it reaches that result
must be logical and rational.” (internal quotation
marks omitted) ).
When an agency changes its position, it must “display awareness” of the change, but it is not required
to meet a “heightened standard for reasonableness.”
Mary V. Harris Found. v. FCC, 776 F.3d 21, 24 (D.C.
Cir. 2015) (internal quotation marks omitted). “A
reasoned explanation is needed for disregarding facts
and circumstances that underlay or were engendered
by the prior policy.” Nat’l Lifeline Ass’n, 915 F.3d at
28, 2019 WL 405020, at *6 (alteration adopted and
internal quotation marks omitted). But “[s]o long as
any change is reasonably explained, it is not arbitrary and capricious for an agency to change its mind
in light of experience, or in the face of new or additional evidence, or further analysis or other factors
indicating that [an] earlier decision should be altered
or abandoned.” New England Power Generators Ass’n
v. FERC, 879 F.3d 1192, 1201 (D.C. Cir. 2018). Put
differently, the agency need only “show that the new
policy is permissible under the statute, that there are
good reasons for it, and that the agency believes it to

C20

be better” than the previous policy. Mary V. Harris
Found., 776 F.3d at 24–25 (emphasis and internal
quotation marks omitted).
III. ANALYSIS
None of the plaintiffs’ challenges merit preliminary injunctive relief: the plaintiffs *128 are unlikely
to succeed on the merits of their administrate law
challenges; preliminary injunctive relief is not available for Codrea’s Takings Clause challenge; and the
plaintiffs are unlikely to succeed on the merits of
their statutory and constitutional challenges to the
authority of then–Acting Attorney General Whitaker.
A. Likely Success on the Merits of the Plaintiffs’ Administrative Law Challenges
The Court considers and rejects each of the plaintiffs’ administrative law challenges in turn. First, it
determines that ATF reasonably interpreted and applied the NFA’s definition of “machinegun.” Second, it
explains that the agency did not violate the APA either by reversing its previous position that bump
stocks were not machine guns or by failing to provide
its previous interpretations in the rulemaking docket.
Third, it explains that ATF did not deny commenters
a meaningful opportunity to comment or adequate
responses to their comments. Finally, it concludes
that ATF did not violate 18 U.S.C. § 926(b) by refusing to hold an oral hearing and that any error it may
have made by refusing to extend the comment period
by five days was harmless.

C21

1. ATF’s Interpretation of the NFA’s Definition of
“Machinegun”
As noted, the NFA defines “machinegun” as follows:
The term “machinegun” means any weapon
which shoots, is designed to shoot, or can be
readily restored to shoot, automatically more
than one shot, without manual reloading, by a
single function of the trigger. The term shall
also include the frame or receiver of any such
weapon, any part designed and intended solely
and exclusively, or combination of parts designed and intended, for use in converting a
weapon into a machinegun, and any combination of parts from which a machinegun can be
assembled if such parts are in the possession
or under the control of a person.
26 U.S.C. § 5845(b) (emphases added). Congress did
not shed further light on the definition of “machinegun” in 1934, when it enacted the NFA, or in
1986, when it incorporated the NFA’s definition into
the FOPA, see 18 U.S.C. § 921(a)(23) (“The term ‘machinegun’ has the meaning given such term in ... the
National Firearms Act.”).
Invoking its general rulemaking authority under
§ 926(a), ATF promulgated the bump stock rule based
on its interpretation of “single function of the trigger”
and “automatically,” two terms that Congress left
undefined. ATF defined the phrase “single function of
the trigger” to mean a “single pull of the trigger and
analogous motions.” 83 Fed. Reg. at 66553. And it defined “automatically” to mean “functioning as the re-

C22

sult of a self-acting or self-regulating mechanism that
allows the firing of multiple rounds through a single
function of the trigger.” Id. Applying these definitions, it added a sentence to the regulatory definition
of “machinegun” that explicitly states that the term
“includes a bump-stock-type device,” which “allows a
semi-automatic firearm to shoot more than one shot
with a single pull of the trigger by harnessing the recoil energy of the semi-automatic firearm to which it
is affixed so that the trigger resets and continues firing without additional physical manipulation of the
trigger by the shooter.” Id. at 66553–54.
The plaintiffs suggest that ATF lacked the authority to state explicitly that the NFA’s definition of
“machinegun” includes bump stocks, and they take
particular issue with the possibility that *129 policy
considerations may have influenced ATF’s legal interpretation. Guedes’s Br. at 17; Guedes’s Reply at 3–
5, Dkt. 5-1, No. 18-cv-2988; Codrea’s Br. at 4;
Codrea’s Reply at 6–7, Dkt. 18, No. 18-3086. But
these arguments are premised on a misunderstanding of the Chevron doctrine. Under Chevron, courts
“presume that when an agency-administered statute
is ambiguous with respect to what it prescribes, Congress has empowered the agency to resolve the ambiguity.” Util. Air Regulatory Grp. v. EPA, 573 U.S.
302, 315, 134 S.Ct. 2427, 189 L.Ed.2d 372 (2014).
Agencies are therefore entitled to deference when
they reasonably define ambiguous terms—including
ambiguous terms in a statutory definition—and apply those terms to new circumstances. See Loving v.
IRS, 742 F.3d 1013, 1016 (D.C. Cir. 2014) (“Under
Chevron, we must accept an agency’s authoritative

C23

interpretation of an ambiguous statutory provision if
the agency’s interpretation is reasonable.”); see also,
e.g., Whitaker v. Thompson, 353 F.3d 947, 950–52
(D.C. Cir. 2004) (deferring to the Food and Drug Administration’s interpretation of statutory definitions
in the Federal Food, Drug, and Cosmetic Act). Courts
must defer even when agencies “make policy choices
in interpreting [a] statute,” “as long as [they] stay[ ]
within [Congress’] delegation [of authority].” Arent v.
Shalala, 70 F.3d 610, 615 (D.C. Cir. 1995); see also
Mayo Found. for Med. Educ. & Research v. United
States, 562 U.S. 44, 55–56, 131 S.Ct. 704, 178
L.Ed.2d 588 (2011) (“Chevron recognized that the
power of an administrative agency to administer a
congressionally created program necessarily requires
the formulation of policy and the making of rules to
fill any gap left, implicitly or explicitly, by Congress.”
(alterations adopted and internal quotation marks
omitted) ).
That is why courts have regularly recognized
ATF’s authority to interpret and apply the statutes
that it administers, including the NFA’s definition of
“machinegun.” See, e.g., Akins, 312 F. App’x at 200
(deferring to ATF’s decision to classify the Akins Accelerator as a machine gun); see also York v. Sec’y of
Treasury, 774 F.2d 417, 419–20 (10th Cir. 1985) (upholding ATF’s decision to classify a particular firearm
as a machine gun); cf. Brady, 914 F.2d at 480 (holding that ATF has discretion to define the term “business premises” in another firearms statute).
The question is therefore not whether ATF considered the policy implications when it formulated the
bump stock rule, but whether ATF exceeded its au-

C24

thority by either contravening the plain meaning of
the NFA under Step One of the Chevron doctrine or
adopting an unreasonable interpretation of ambiguous terms under Step Two.3
To determine “whether a statute is ambiguous”
and “ultimately ... whether [an] agency’s interpretation is permissible or instead is foreclosed by the
statute,” courts “employ all the tools of statutory interpretation.” *130 Loving, 742 F.3d at 1016. Most
importantly, courts “interpret the words [of a statute]
consistent with their ordinary meaning at the time
Congress enacted the statute.” Wisconsin Cent. Ltd.
v. United States, ––– U.S. ––––, 138 S.Ct. 2067, 2070,
201 L.Ed.2d 490 (2018) (alteration adopted and internal quotation marks omitted); see also Antonin
Scalia & Bryan A. Garner, Reading Law: The Interpretation of Legal Texts 78 (2012) (“Words must be
given the meaning they had when the text was
adopted.”). Generally, courts rely on dictionaries from
the time statutes became law to interpret the words

3 Despite ATF’s clear authority to interpret and administer
the NFA and the FOPA, Guedes suggests that the congressional
findings in the FOPA limit ATF’s authority to interpret the definition of “machinegun.” Guedes’s Br. at 14–15. The general
findings to which Guedes refers do not come close to stripping
ATF of its authority to define terms included in the statutory
definition of “machinegun”—a type of firearm expressly banned
with few exceptions by the FOPA. 18 U.S.C. § 922(o). And even
if the findings were more concrete and specific to the issues presented here, a “statement of congressional findings is a rather
thin reed upon which to base a requirement ... neither expressed
nor ... fairly implied in the operative sections of [a statute].”
Nat’l Org. for Women v. Scheidler, 510 U.S. 249, 260, 114 S.Ct.
798, 127 L.Ed.2d 99 (1994).

C25

of a statute. See MCI Telecomms. Corp. v. AT & T,
512 U.S. 218, 228, 114 S.Ct. 2223, 129 L.Ed.2d 182
(1994); PHH Corp. v. CFPB, 881 F.3d 75, 130 (D.C.
Cir. 2018) (en banc) (Griffith, J., concurring in the
judgment) (collecting cases demonstrating that the
Supreme Court “generally begins [an interpretive
task] with dictionaries”).
a. A “Single Function of the Trigger”
Unfortunately, dictionaries from the time of the
NFA’s enactment are of little help in defining a “single function of the trigger.” The 1933 version of Webster’s New International Dictionary defines “function”
as “[t]he natural and proper action of anything.”
Webster’s New International Dictionary 876 (1933).
Similarly, the 1933 Oxford English Dictionary defines the term to mean “[t]he special kind of activity
proper to anything; the mode of action by which it
fulfills its purpose.” 4 Oxford English Dictionary 602
(1933). Neither definition sheds any light on the key
question here: whether, as the plaintiffs argue, a
“single function of the trigger” means a mechanical
act of the trigger, or whether, as ATF argued in the
rule, a “single function of the trigger” means a single
pull of the trigger from the perspective of the shooter.
Under the first interpretation, each trigger function
ends when the trigger resets. Under the second interpretation, a single act by the shooter—a single
pull—is a “function.” Because the statute does not
provide any additional guidance on the correct interpretation, the Court concludes that the term is ambiguous.

C26

The question then becomes whether ATF’s interpretation was reasonable. To be sure, the interpretation offered by the plaintiffs is reasonable. But the
same is true of ATF’s interpretation. Indeed, in 2009,
the Eleventh Circuit upheld ATF’s decision to treat
Akins Accelerators as machine guns because “a single
application of the trigger by a gunman”—a single
pull—caused the gun with the affixed bump stock to
“fire continuously ... until the gunman release[d] the
trigger or the ammunition [wa]s exhausted.” Akins,
312 F. App’x at 200.
Tellingly, courts have instinctively reached for the
word “pull” when discussing the statutory definition
of “machinegun.” The Supreme Court, for example,
has explained that the statutory definition encompasses a weapon that “fires repeatedly with a single
pull of the trigger,” meaning “once its trigger is depressed, the weapon will automatically continue to
fire until its trigger is released or the ammunition is
exhausted.” Staples v. United States, 511 U.S. 600,
602 n.1, 114 S.Ct. 1793, 128 L.Ed.2d 608 (1994) (emphasis added). The Court then contrasted automatic
machine guns with semiautomatic weapons that
“fire[ ] only one shot with each pull of the trigger” and
“require[ ] no manual manipulation by the operator
to place another round in the chamber after each
round is fired.” Id. Likewise, the Tenth Circuit has
held that a uniquely designed firearm was “a machine gun within the statutory definition” because
“the shooter could, by fully pulling the *131 trigger,
and it only, at the point of maximum leverage, obtain
automation with a single trigger function.” United

C27

States v. Oakes, 564 F.2d 384, 388 (10th Cir. 1977)
(emphasis added).
Based on the above contemporaneous dictionary
definitions and court decisions, the Court concludes
that ATF acted reasonably in defining the phrase
“single function of the trigger” to mean a “single pull
of the trigger and analogous motions.” 83 Fed. Reg. at
66553.
b. “Automatically”
Dictionary definitions of “automatically” are only
marginally more helpful. The 1933 Webster’s New International Dictionary provides that “automatically”
is the adverbial form of “automatic,” Webster’s New
International Dictionary, supra, at 157, and it defines
the related, adjectival form as “self-acting or selfregulating,” especially as applied “to machinery or
devices which perform parts of the work formerly or
usually done by hand,” id. at 156. The 1933 Oxford
English Dictionary likewise defines “automatic” as
“[s]elf-acting under conditions fixed for it, going of itself,” especially as applied to “machinery and its
movements, which produce results otherwise done by
hand.” 1 Oxford English Dictionary, supra, at 574.
Applying these definitions to the NFA’s definition of
“machinegun,” the Seventh Circuit concluded that
the “adverb ‘automatically,’ as it modifies the verb
‘shoots,’ delineates how the discharge of multiple
rounds from a weapon occurs: as the result of a selfacting mechanism ... that is set in motion by a single
function of the trigger and is accomplished without
manual reloading.” United States v. Olofson, 563 F.3d
652, 658 (7th Cir. 2009) (footnote omitted). Con-

C28

sistent with these contemporaneous dictionary definitions and the Seventh Circuit’s decision in Olofson,
ATF correctly defined “automatically” to mean “functioning as the result of a self-acting or self-regulating
mechanism that allows the firing of multiple rounds
through a single function of the trigger.” 83 Fed. Reg.
at 66553.
But even this definition retains a key ambiguity:
how much of the “work formerly or usually done by
hand” must be performed by the “self-acting or selfregulating device” for the automatic label to apply?
Webster’s New International Dictionary, supra, at
156. According to Webster’s New International Dictionary, the “automatic” label applies when a device
performs only “parts”—not all—of the work otherwise
performed by hand. Id. And that definition comports
with everyday experience. Automatic devices regularly require some degree of manual input. An automatic sewing machine, for example, still requires the user to press a pedal and direct the fabric. Because the
statute does not specify how much manual input is
too much, the Court concludes that the term “automatically” is ambiguous, with or without the gloss
added by the rule. And as discussed below, ATF reasonably interpreted this ambiguous term to describe
bump stocks.
c. ATF’s Application of the NFA’s Definition of
“Machinegun” to Bump Stocks
After defining a “single function of the trigger” to
mean a “single pull of the trigger” and “automatically” to mean “functioning as the result of a self-acting
or self-regulating mechanism that allows the firing of

C29

multiple rounds through a single function of the trigger,” 83 Fed. Reg. at 66553, ATF added a sentence to
the regulatory definition of “machinegun” to clarify
that ATF considered bump stocks to be machine
guns, id. at 66553–54. The plaintiffs advance two
primary arguments to attack the reasonableness of
this interpretation. Neither is persuasive.
*132 First, the plaintiffs suggest that bump stocks
do not operate with a “single function of the trigger”
because a shooter must still “manipulate” the trigger
to discharge multiple rounds. Unless the trigger
makes repeated contact with the shooter’s finger,
they assert, the firearm will not reset between rounds
and fire multiple times. Guedes’s Reply at 14; see also
id. at 12; Codrea’s Br. at 16. Repackaging the same
argument, Guedes further argues that ATF’s interpretation would bring all “semiautomatic” rifles, as
that term is defined by statute, within the NFA’s definition of “machinegun.” Guedes’s Reply at 5–6. In
support, Guedes cites the Crime Control Act of 1990,
which defines “semiautomatic rifle” to mean “any repeating rifle which utilizes a portion of the energy of
a firing cartridge to extract the fired cartridge case
and chamber the next round, and which requires a
separate pull of the trigger to fire each cartridge.”
Pub. L. No. 101-647, § 2204(a)(28), 104 Stat. 4789,
4857 (Nov. 29, 1990) (codified at 18 U.S.C.
§ 921(a)(28) ).
The Court concludes that it was reasonable for
ATF to determine that a bump stock operates with a
single “pull” of the trigger because a bump stock
permits the shooter to discharge multiple rounds by,
among other things, “maintaining the trigger finger

C30

on the device’s extension ledge with constant rearward pressure.” 83 Fed. Reg. at 66532 (internal quotation marks omitted). Although operating a bump
stock may cause slight movements of the trigger finger, it does not require a shooter to consciously and
repeatedly exert force to depress the trigger multiple
times. After the initial exertion of force, a shooter is
able to discharge multiple rounds by maintaining
constant pressure on the trigger. And contrary to
Guedes’s claim, ATF’s determination will not bring
all semiautomatic rifles within the NFA’s definition
of “machinegun” because, without a bump stock or
similar device attached, semiautomatic rifles do “require[ ] a separate pull of the trigger to fire each cartridge.” 18 U.S.C. § 921(a)(28).
Second, the plaintiffs argue that ATF acted unreasonably because a bump stock does not operate “automatically.” See, e.g., Codrea’s Reply at 12–13. Although this is a closer question, the Court also concludes that it was reasonable for ATF to determine
that a bump stock relieves a shooter of enough of the
otherwise necessary manual inputs to warrant the
“automatic” label. To be sure, a firearm with an affixed bump stock requires some manual inputs: the
shooter must “maintain[ ] constant forward pressure
with the non-trigger hand on the barrel-shroud or
fore-grip of the rifle, and maintain[ ] the trigger finger on the device’s extension ledge with constant
rearward pressure.” 83 Fed. Reg. at 66532 (internal
quotation marks omitted). But as noted, the definition of “automatically” does not mean that an automatic device must operate spontaneously without any
manual input. ATF reasoned that a bump stock per-

C31

mits a firearm to function automatically by “directing
the recoil energy of the discharged rounds into the
space created by the sliding stock ... in constrained
linear rearward and forward paths” so that the
shooter can maintain a “continuous firing sequence.”
Id. at 66532 (internal quotation marks omitted). And
it explained that “without [such a] device,” the shooter would have to “manually capture, harness, or otherwise utilize th[e] [recoil] energy to fire additional
rounds” and “bump fire” a gun. Id. In other words,
the bump stock makes it easier to bump fire because
it controls the distance the firearm recoils and ensures that the firearm moves linearly—two tasks the
shooter would ordinarily have to perform manually.
In this way, a *133 bump stock creates a “self-acting
mechanism” that permits “the discharge of multiple
rounds” with “a single function of the trigger ... without manual reloading.” Olofson, 563 F.3d at 658 (defining the term “automatically” in the NFA’s definition of “machinegun”).
Of course, even if an interpretation is reasonable
under Chevron, all final agency actions must still
survive review under the APA’s arbitrary and capricious standard. See Confederated Tribes of Grand
Ronde Cmty., 830 F.3d at 559. Often, “[t]he analysis
of disputed agency action under Chevron Step Two
and arbitrary and capricious review is ... ‘the same,
because under Chevron [S]tep [T]wo, the court asks
whether an agency interpretation is arbitrary or capricious in substance.’ ” Agape Church, 738 F.3d at
410 (alteration adopted) (quoting Judulang, 565 U.S.
at 52 n.7, 132 S.Ct. 476). But in addition to the substantive reasonableness already addressed, the arbi-

C32

trary and capricious standard also requires an agency to “articulate a satisfactory explanation for its action including a rational connection between the facts
found and the choice made.” Nat’l Lifeline Ass’n, 915
F.3d at 27, 2019 WL 405020, at *5. The Court therefore turns to the plaintiffs’ remaining challenges to
the adequacy of ATF’s explanation for the bump stock
rule.
2. ATF’s Treatment of Prior Interpretations
The plaintiffs characterize ATF’s new position as
an unlawful departure from its previous interpretations, which excluded standard bump stocks from the
NFA’s definition of “machinegun.” See, e.g., Guedes’s
Br. at 12–14, 19, 26–27, 30–31; Codrea’s Reply at 12;
see also generally Guedes’s Compl. Ex. B, Dkt. 22-1,
No. 18-cv-2988. Guedes further challenges the lawfulness of ATF’s rulemaking process on the ground
that ATF failed to make public its previous interpretations. See Guedes’s Br. at 21; Guedes’s Reply at 7–
8. Neither argument is persuasive.
It is well established that an agency may change
its prior policy if “the new policy [is] permissible under the statute, and the agency ... acknowledge[s] it is
changing its policy and show[s] that there are good
reasons for the new policy and that the agency believes it to be better, which the conscious change of
course adequately indicates.” Nat’l Lifeline Ass’n, 915
F.3d at 28, 2019 WL 405020, at *6 (emphasis and internal quotation marks omitted); see also Mary V.
Harris Found., 776 F.3d at 24 (“What the [agency]
did in the past is of no moment ... if its current approach reflects a permissible interpretation of the

C33

statute.”). ATF acknowledged in the final rule that it
was “reconsider[ing] and rectify[ing]” its previous
classification decisions based on its legal analysis of
the statutory terms “automatically” and “single function of the trigger.” 83 Fed. Reg. at 66516 (quoting
Akins, 312 F. App’x at 200). It discussed the history
of its regulation of Akins Accelerators and the Eleventh Circuit’s decision in Akins. Id. at 66517. It also
explained that it had previously determined that
“semiautomatic firearms modified with [standard]
bump-stock-type devices did not fire ‘automatically,’
and thus were not ‘machineguns.’ ” Id. at 66516. The
mass shooting in Las Vegas then prompted ATF to
reconsider its prior interpretations, id. at 66528–29,
none of which provided “extensive legal analysis of
the statutory terms ‘automatically’ or ‘single function
of the trigger,’ ” id. at 66516. Accordingly, ATF reviewed dictionary definitions of “automatically,” relevant judicial decisions—including Staples, Olofson,
and Akins—and the NFA’s legislative history to determine whether standard bump stocks constitute
machine *134 guns. Id. at 66518–19. It then concluded that its previous interpretations “did not reflect
the best interpretation of ‘machinegun,’ ” id. at
66514, and that the rule’s interpretations of “automatically” and “single function of the trigger” better
“accord with the plain meaning of those terms,” id. at
66527. This record reveals that ATF satisfied its obligation to “reasonably explain[ ]” its change of position. New England Power Generators Ass’n, 879 F.3d
at 1201.
Guedes’s argument that ATF was required to release its previous interpretations as part of the rule-

C34

making process is no more persuasive. True, the APA
requires agencies to “ma[k]e public in the proceeding
and expose[ ] to refutation” “the most critical factual
material that is used to support the agency’s position
on review.” Chamber of Commerce v. SEC, 443 F.3d
890, 900 (D.C. Cir. 2006) (internal quotation marks
omitted); see also, e.g., Conn. Light & Power Co. v.
Nuclear Regulatory Comm’n, 673 F.2d 525, 530–31
(D.C. Cir. 1982) (“An agency commits serious procedural error when it fails to reveal portions of the
technical basis for a proposed rule in time to allow for
meaningful commentary.”). But ATF’s explanations
for its prior legal interpretations are not “critical factual material[s]” that were “used to support the agency’s position.” Chamber of Commerce, 443 F.3d at 900
(internal quotation marks omitted). This case does
not turn on any factual dispute; the parties agree
about how a bump stock operates. And ATF’s prior
legal interpretations contradict rather than support
its current interpretation. Thus, ATF was not required to release its prior opinions during the rulemaking process.
3. ATF’s Responses to Comments and Its Consideration of Other Evidence
The plaintiffs next raise a series of arguments
challenging the transparency of ATF’s rulemaking
process and ATF’s failure to consider other evidence.
First, they argue that ATF relied on evidence that
bump stocks were used in the Las Vegas shooting
without releasing that evidence or any other evidence
suggesting that bump stocks have been used to commit crimes. See, e.g., Codrea’s Reply at 9; Guedes’s
Br. at 21, 28. As explained, however, the bump stock

C35

rule was based on a legal, rather than a factual, determination; crime statistics did not play any role in
ATF’s analysis. The Las Vegas attack served as the
impetus for ATF’s decision to reconsider its legal interpretation of “machinegun,” but it did not provide a
factual basis for the rule. And under the APA, ATF
was required to make public only “critical factual material.” Chamber of Commerce, 443 F.3d at 900 (internal quotation marks omitted).
Second, Guedes argues that the “underlying premise” of the rule is “completely arbitrary and capricious” because certain “individuals can achieve, with
greater accuracy, faster cyclic rates than [other individuals] utilizing bump-stock-devices.” Guedes’s Br.
at 29. As noted, however, the “premise” of the rule
was not the relative firing rates of guns with attached bump stocks (or any other factual determination for that matter); the rule change was based on
ATF’s legal interpretation of the statutory term “machinegun.” See 83 Fed. Reg. at 66533 (“[ATF] disagrees with any assertion that the rule is based upon
the increased rate of fire. While bump-stock-type devices are intended to increase the rate at which a
shooter may fire a semiautomatic firearm, this rule
classifies these devices based upon the functioning of
these devices under the statutory definition.”). Moreover, ATF did not represent that bump stocks always
produce a faster rate of fire; it stated merely that
bump *135 stocks are used by individual shooters to
produce a relatively faster rate of fire. Id.
Third, Guedes takes issue with ATF’s failure to respond to statements made by former ATF official
Rick Vasquez and to an analytical video demonstrat-

C36

ing how bump stocks operate. Guedes’s Reply at 10–
13. But although an agency must “respond to relevant and significant public comments,” City of Portland v. EPA, 507 F.3d 706, 713 (D.C. Cir. 2007) (internal quotation marks omitted), it “is not required to
discuss every item of fact or opinion included in the
submissions made to it in informal rulemaking,” Pub.
Citizen, Inc. v. FAA, 988 F.2d 186, 197 (D.C. Cir.
1993) (alteration adopted and internal quotation
marks omitted). An agency “need only enable [a reviewing court] to see what major issues of policy were
ventilated and why the agency reacted to them as it
did.” Id. (alteration adopted and internal quotation
marks omitted). The record reveals that ATF adequately addressed Guedes’s arguments, including the
argument that a bump stock requires the shooter to
manipulate the trigger to discharge multiple rounds.
For example, ATF explained in the rule that it “disagrees that a shooter repeatedly actuates, functions, or
pulls the trigger of a semiautomatic firearm using a
bump-stock-type device”; instead, “the shooter ‘pulls’
the trigger once and allows the firearm and attached
bump-stock-type device to operate until the shooter
releases the trigger finger or the constant forward
pressure with the non-trigger hand.” 83 Fed. Reg. at
6532.4

4 To the extent Guedes argues that Vasquez’s views are entitled to special weight because he is a former ATF official,
Guedes is incorrect. The deference afforded under Chevron extends only to the agency’s official interpretations, not to the
views of its former officials. See Via Christi Reg’l Med. Ctr. v.
Leavitt, No. 04-1026, 2006 WL 2773006, at *13 n.3 (D. Kan.
Sept. 25, 2006), aff’d, 509 F.3d 1259 (10th Cir. 2007).

C37

Fourth, the plaintiffs argue that the agency acted
arbitrarily and capriciously because a shooter can also bump fire a gun using a rubber band or a belt loop.
Guedes’s Br. at 27; see also Codrea’s Reply at 8.5 ATF
did not specifically include such everyday items in
the rule, as it did bump stocks, but it has not yet
made a formal determination about whether they fall
within the NFA’s definition of “machinegun.” See
Feb. 6, 2019 Hr’g Tr. at 30. To the extent the plaintiffs are arguing that the agency failed to respond adequately and reasonably to comments highlighting
the similarities between bump stocks and household
objects that can be repurposed to facilitate bump firing, the Court disagrees. ATF explained in the rule
that bump firing using a rubber band or belt loop
does not involve automatic fire because “no device is
present to capture and direct the recoil energy; rather, the shooter must do so.” 83 Fed. Reg. at 66533.
In other words, unlike a bump stock, a “belt loop or a
similar manual method requires the shooter to control the distance that the firearm recoils and the
movement along the plane on which the firearm recoils.” Id. Although Guedes and Codrea “attack the
merits of [ATF’s] responses, [ATF] clearly thought
about [their] objections and provided reasoned re-

5 Guedes also argues that a shooter can achieve the same effect by “train[ing] [his] trigger finger to fire more rapidly.”
Guedes’s Br. at 27 (internal quotation marks omitted). As discussed above, however, the rates at which a shooter can fire a
gun with and without a bump stock are irrelevant. Even the
most skilled shooter cannot discharge multiple rounds “automatically” with a “single function of the trigger.”

C38

plies,” which is “all the APA requires.” City of Portland, 507 F.3d at 714.
*136 The related argument that ATF unreasonably distinguished between binary triggers and bump
stocks, see, e.g., Codrea’s Br. at 6–7; Codrea’s Reply
at 7, fails for a similar reason. As ATF explained, binary triggers discharge one round when the shooter
pulls the trigger and another when the shooter releases the trigger. Gov’t’s Opp’n in Codrea at 18, Dkt.
16, No. 18-cv-3086; Codrea’s Br. at 6. ATF defined a
“single function of the trigger” to mean a pull and
analogous motions, such as pushing a button or flipping a switch. 83 Fed. Reg. at 66515, 66534–35,
66553. It then reasonably distinguished binary triggers, which in ATF’s view require two functions of
the trigger—a pull and a release—to discharge multiple rounds. See id. at 66534. In sum, ATF adequately and reasonably responded to comments arguing
that the “proposed regulatory text encompasses ... binary triggers.” Id.
4. The Length of the Comment Period and the Necessity of a Hearing
Guedes makes two final procedural arguments
based on the text of 18 U.S.C. § 926(b), which provides that “[t]he Attorney General shall give not less
than ninety days public notice, and shall afford interested parties opportunity for hearing, before prescribing ... rules and regulations.” Guedes argues that
ATF violated § 926(b) by failing to provide commenters with a public hearing and by failing to provide an
additional five days for public comment after some
commenters experienced technical difficulties at the

C39

beginning of the scheduled comment period. Guedes’s
Br. at 22–25; Guedes’s Reply at 8–10. The Court disagrees.
First, Guedes assumes that all “hearings” must be
oral hearings, but “[t]he term ‘hearing’ in its legal
context ... has a host of meanings,” including the
mere opportunity to submit written comments. United States v. Fla. E. Coast Ry. Co., 410 U.S. 224, 239,
93 S.Ct. 810, 35 L.Ed.2d 223 (1973); see also id. at
241–42, 93 S.Ct. 810. And it is well established that
the requirement for a “hearing,” as opposed to a
“hearing on the record,” generally does not require a
formal, oral hearing. See id. at 251, 93 S.Ct. 810;
Nat’l Classification Comm’n v. United States, 765
F.2d 1146, 1150 (D.C. Cir. 1985) ( [U]nder Florida
East Coast there is a strong presumption that the
procedural guarantees of [the notice-and-comment
provisions] of the APA are sufficient unless Congress
specifically indicates to the contrary.”); Mobil Oil
Corp. v. Fed. Power Comm’n, 483 F.2d 1238, 1250
(D.C. Cir. 1973) (Although “[t]here is some danger in
according too much weight to magic words such as ‘on
the record[,]’ ... Florida East Coast ... emphasized the
importance of this phrase and virtually established it
as a touchstone test of when [formal, oral] proceedings are required.”). Indeed, the Fourth Circuit has
held that the hearing requirement in § 926(b) requires only that the Secretary “provide interested
parties with the opportunity to submit written comments.” Brady, 914 F.2d at 485. The Court sees no
reason to depart from that interpretation here.
Second, any error ATF may have made by refusing
to extend the comment period by five days was harm-

C40

less. Section 706 of the APA requires courts to take
“due account ... of the rule of prejudicial error.” 5
U.S.C. § 706. The D.C. Circuit has therefore held that
“[i]f [an] agency’s mistake did not affect the outcome,
if it did not prejudice the petitioner, it would be
senseless to vacate and remand for reconsideration.”
PDK Labs. v. DEA, 362 F.3d 786, 799 (D.C. Cir.
2004); see also Ozark Auto. Distributors v. NLRB, 779
F.3d 576, 582 (D.C. Cir. 2015) (“In administrative
law, as in federal civil and criminal litigation, *137
there is a harmless error rule ....” (internal quotation
marks omitted) ). Despite the technical difficulties
some online commenters faced during the first five
days of the comment period, it is undisputed that a
search for the term “bump stock” on Regulations.gov
brought commenters to the correct web page; some
online commenters submitted comments during the
first five days; frustrated online users were able to
submit comments during the remaining 85 days of
the comment period; and finally, commenters were
able to submit comments by mail and facsimile
throughout the comment period. In light of these undisputed facts, it is unsurprising that Guedes does
not even attempt to show that he was prejudiced by
the technical problems. Without a showing of prejudice, Guedes’s procedural challenge fails.
B. The Availability of Injunctive Relief for
Codrea’s Takings Clause Challenge
Codrea also asserts that the bump stock rule violates the Takings Clause because it fails to provide
compensation to current bump stock owners who
must destroy or abandon their property. Codrea’s Br.
at 17. Regardless of the merits of Codrea’s takings

C41

challenge, however, it does not justify preliminary injunctive relief.
The Takings Clause of the Fifth Amendment provides that private property shall not “be taken for
public use, without just compensation.” U.S. Const.
amend. V. It “is designed not to limit the governmental interference with property rights per se, but rather to secure compensation in the event of otherwise
proper interference amounting to a taking.” First
English Evangelical Lutheran Church of Glendale v.
Los Angeles County, 482 U.S. 304, 315, 107 S.Ct.
2378, 96 L.Ed.2d 250 (1987). It follows that, “in general, ‘equitable relief is not available to enjoin an alleged taking of private property for a public use, duly
authorized by law, when a suit for compensation can
be brought against the sovereign subsequent to that
taking.’ ” Bldg. Owners & Managers Ass’n Int’l v.
FCC, 254 F.3d 89, 99 (D.C. Cir. 2001) (alteration
adopted) (quoting United States v. Riverside Bayview
Homes, 474 U.S. 121, 127–28, 106 S.Ct. 455, 88
L.Ed.2d 419 (1985) ). Indeed, “the Fifth Amendment
does not require that just compensation be paid in
advance of or even contemporaneously with the taking.” Preseault v. ICC, 494 U.S. 1, 11, 110 S.Ct. 914,
108 L.Ed.2d 1 (1990). It requires only “the existence
of a reasonable, certain and adequate provision for
obtaining compensation at the time of the taking.” Id.
(internal quotation marks omitted). The plaintiffs
have made no showing that a suit for compensation
under the Tucker Act, 28 U.S.C. § 1491(a)(1), or the
Little Tucker Act, 28 U.S.C. § 1346(a)(2), is inadequate to satisfy the demands of the Fifth Amend-

C42

ment—or that any other doctrinal exception applies.
Preliminary injunctive relief is therefore unavailable.
C. Likely Success on the Merits of the Challenges to Whitaker’s Authority as Acting Attorney General
The plaintiffs, led by the Coalition,6 conclude by
challenging the authority of then–Acting Attorney
General Whitaker to promulgate the bump stock rule
on statutory and constitutional grounds. The Court
divides its analysis of this final challenge into two
parts. First, it concludes that the AG Act did not bar
Whitaker’s selection *138 under the FVRA. Second, it
concludes that the President’s designation of Whitaker to serve as Acting Attorney General did not violate the Appointments Clause.7
1. The Statutory Challenge to Whitaker’s Designation
The parties’ statutory dispute turns on when the
FVRA and the AG Act apply to vacancies in the Office of the Attorney General. The statutory provisions
Because the Coalition advances the most comprehensive
challenge to Whitaker’s authority, the Court refers only to the
Coalition’s arguments in this section.
6

7 This Court is not the first to reject a challenge to Whitaker’s
designation as Acting Attorney General. Three other district
courts have already upheld the President’s statutory and constitutional authority to designate Whitaker as Acting Attorney
General, though those decisions did not consider the precise
theories advanced here. See United States v. Smith, No. 18-cr0015, 2018 WL 6834712, at *1–4 (W.D.N.C. Dec. 28, 2018);
United States v. Peters, No. 17-cr-55, 2018 WL 6313534, at *2–5
(E.D. Ky. Dec. 3, 2018); United States v. Valencia, No. 17-cr-882,
2018 WL 6182755, at *2–4 (W.D. Tex. Nov. 27, 2018).

C43

most relevant to this issue are §§ 3345 and 3347 of
the FVRA and § 508 of the AG Act.
Section 3345(a) of the FVRA creates a default rule
that applies whenever an official otherwise subject to
the advice and consent of the Senate “dies, resigns, or
is otherwise unable to perform the functions and duties of the office.” 5 U.S.C. § 3345(a). In such a case,
the FVRA provides that “the first assistant to the office of such officer shall perform the functions and
duties of the office temporarily in an acting capacity,”
subject to certain time limitations. Id. § 3345(a)(1).
The FVRA further provides that “the President ...
may direct an officer or employee of such Executive
agency to perform the functions and duties of the vacant office temporarily in an acting capacity” so long
as that individual served in the agency for at least 90
days in the 365-day period preceding the vacancy in a
position compensated at a rate “equal to or greater
than the minimum rate of pay payable for a position
at GS-15 of the General Schedule.” Id. § 3345(a)(3).
The same time limitations that govern the default
rule also apply here. Id.
Section 3347(a) of the FVRA, the Act’s “exclusivity” provision, explains how the FVRA interacts with
agency-specific statutes: it is the “exclusive means for
temporarily authorizing an acting official” to serve in
a position otherwise subject to the advice and consent
of the Senate “unless ... a statutory provision expressly ... designates an officer or employee to perform the
functions and duties of a specified office temporarily
in an acting capacity.” Id. § 3347(a).

C44

Section 508(a) of the AG Act, the agency-specific
statute for the Department of Justice, provides that
“[i]n case of a vacancy in the office of Attorney General, ... the Deputy Attorney General may exercise all
the duties of that office.” 28 U.S.C. § 508(a). It also
provides that when “neither the Attorney General
nor the Deputy Attorney General is available ..., the
Associate Attorney General shall act as Attorney
General,” and “[t]he Attorney General may designate
the Solicitor General and the Assistant Attorneys
General, in further order of succession, to act as Attorney General.” Id. § 508(b).
The parties do not dispute that Whitaker satisfies
the eligibility criteria in the FVRA and that both the
FVRA and the AG Act apply to the Office of the Attorney General. They disagree only about when each
statute applies. The government argues that the
statutes operate “alongside” each other: the President
may choose to select an Acting Attorney General under the FVRA, or the Deputy Attorney General “may”
assume those duties as soon as a vacancy arises.
Gov’t’s Opp’n in Codrea at *139 24. The government
maintains that the President lawfully selected Whitaker under the FVRA, even though the Deputy Attorney General was available to fill the vacancy under the AG Act.
The Coalition, by contrast, argues that the AG Act
displaces the FVRA unless and until the line of succession set forth in the AG Act has been exhausted.
In the Coalition’s view, the President may select an
Acting Attorney General under the FVRA, but only if
all of the successors listed in the AG Act are “unavailable.” Firearms Pol’y Coal.’s Br. at 13, Dkt. 2-1,

C45

No. 18-3083. Under this interpretation, Whitaker
could not lawfully assume the responsibilities of Attorney General because the Deputy Attorney General
was available to serve as Acting Attorney General.
In determining which party has the better reading
of the statutes, the Court begins, as it must, with the
text of the FVRA. Gross v. FBL Fin. Servs., Inc., 557
U.S. 167, 175, 129 S.Ct. 2343, 174 L.Ed.2d 119 (2009)
(“Statutory construction must begin with the language employed by Congress and the assumption
that the ordinary meaning of that language accurately expresses the legislative purpose.” (internal quotation marks omitted) ). The plain language of the
FVRA, and its exclusivity provision in particular,
substantially undercuts the Coalition’s exhaustion
theory. Under § 3347(a), the FVRA is the “exclusive”
means of selecting an acting official “unless” an agency-specific statute designates a successor. 5 U.S.C.
§ 3347(a). Where, as here, an agency-specific statute
designates a successor, the FVRA is no longer the exclusive means of filling a vacancy, but it remains a
means of filling the vacancy. When faced with a vacancy in the Office of the Attorney General, the President may choose to invoke the FVRA and select an
Acting Attorney General, or the President may permit the Deputy Attorney General to assume the responsibilities of Attorney General under the AG Act.
This reading of the statute is consistent with the
decisions of other courts interpreting the FVRA. See
Hooks v. Kitsap Tenant Support Servs., 816 F.3d 550,
556 (9th Cir. 2016) (where the FVRA and an agencyspecific statute apply, “the President is permitted to
elect between the[ ] two statutory alternatives” to fill

C46

the vacancy); English v. Trump, 279 F.Supp.3d 307,
319 (D.D.C. 2018) (“[T]he FVRA’s exclusivity provision makes clear that it was generally intended to
apply alongside agency-specific statutes, rather than
be displaced by them.”), appeal dismissed, No. 185007, 2018 WL 3526296 (D.C. Cir. July 13, 2018).
The Coalition unpersuasively attempts to distinguish Hooks and English by highlighting insignificant factual distinctions. It argues that Hooks is distinguishable because, unlike the AG Act, the agencyspecific statute in that case did not designate a first
assistant. Firearms Pol’y Coal.’s Br. at 33. The statute stated simply that the President was “authorized”
to designate an official to serve in an acting capacity.
29 U.S.C. § 153(d). As a result, the President invoked
a different provision of the FVRA, 5 U.S.C.
§ 3347(a)(1)(A), under which the FVRA is “exclusive
... unless ... a statutory provision expressly ... authorizes the President ... to designate an officer or employee to perform the functions and duties of a specified office temporarily in an acting capacity.” This authorization provision contrasts slightly with the designation provision at issue here, 5 U.S.C.
§ 3347(a)(1)(B), under which the FVRA is “exclusive
... unless ... a statutory provision expressly ... designates an officer or employee to perform the functions
and duties of a specified office temporarily in an acting capacity.” But as another judge *140 on this
Court has explained, this subtle difference did not affect the analysis of the Hooks court. See English, 279
F.Supp.3d at 320 (“[T]here is nothing in Hooks to
suggest that the court’s interpretation of the FVRA
would turn on this distinction, nor does the text of

C47

the FVRA provide any reason to think so.”). In reaching its conclusion, the Hooks court relied instead on
the “exclusive ... unless” structure that is common to
both provisions of the FVRA. See Hooks, 816 F.3d at
556.
As for English, the Coalition argues that the factual circumstances of that case were “extremely unusual” and that the court’s decision relied on an express-statement requirement in the agency-specific
statute at issue. Firearms Pol’y Coal.’s Br. at 33. But
the “unusual” facts of English did not affect the
court’s reasoning. Nor did the court’s analysis of the
agency-specific statute affect the court’s analysis of
the text of the FVRA. The court made clear that the
FVRA’s text demonstrates “that it was generally intended to apply alongside agency-specific statutes,
rather than be displaced by them.” English, 279
F.Supp.3d at 319.8
The statutory structure of the FVRA further confirms this interpretation. See Util. Air Regulatory
Grp., 573 U.S. at 320, 134 S.Ct. 2427 (explaining that
it is a “fundamental canon of statutory construction
that the words of a statute must be read in their context and with a view to their place in the overall
8 As the Coalition notes, Firearms Pol’y Coal.’s Br. at 33, the
English court acknowledged that the plaintiff there would have
had a stronger case for displacement if Congress had used the
term “vacancy” in the agency-specific statute at issue, and the
court specifically cited the AG Act to show that Congress knew
how to use that term, see English, 279 F.Supp.3d at 322. But the
English court did not go so far as to suggest that the AG Act and
every other agency-specific statute that uses the term “vacancy”
displaces the FVRA.

C48

statutory scheme” (internal quotation marks omitted)
). Section 3349c of the FVRA explicitly excludes several offices from the FVRA. It provides, for example,
that the FVRA “shall not apply” to certain multimember commissions and members of the Surface
Transportation Board. 5 U.S.C. § 3349c. Congress
could have chosen to exclude the Office of the Attorney General by using similar language, but it did not.
Moreover, far from seeking to exclude the Office of
the Attorney General from the FVRA’s coverage, the
statutory history reveals that Congress affirmatively
acted to bring the Office within the scope of the
FVRA. Prior to the FVRA’s enactment, § 3347 provided that the President’s authority to override the
first-assistant default rule “d[id] not apply to a vacancy in the office of the Attorney General.” 5 U.S.C.
§ 3347 (1994). Congress eliminated that restriction
when it enacted the FVRA, thus making clear that
the President has the authority to override the firstassistant default rule when a vacancy arises in the
Office of the Attorney General. The Court will not assume that “Congress ... intend[ed] sub silentio to enact statutory language that it ... earlier discarded in
favor of other language.” INS v. Cardoza-Fonseca,
480 U.S. 421, 442–43, 107 S.Ct. 1207, 94 L.Ed.2d 434
(1987); see also Murphy v. Smith, ––– U.S. ––––, 138
S.Ct. 784, 789, 200 L.Ed.2d 75 (2018) (similar).
Nothing in the AG Act, which predates the FVRA,
suggests otherwise. Indeed, the AG Act includes a
cross-reference to the FVRA that suggests that Congress intended the two statutes to operate alongside
one another. Specifically, the AG Act provides that,
“for the purpose of section 3345 of title 5[,] the Depu-

C49

ty Attorney General is the first assistant to the Attorney General.” 28 U.S.C. § 508(a). Under the Coalition’s reading, this provision is nonsensical *141 because the FVRA will only ever apply when the Deputy Attorney General is unavailable. A more sensible
reading is that Congress included a cross-reference in
the AG Act because it intended the two statutes to
operate alongside one another: the FVRA establishes
a first-assistant default rule that operates in tandem
with the AG Act, but it also permits the President to
override the AG Act when a vacancy arises in the Office of the Attorney General by using one of the presidential selection provisions in the FVRA. See United
States v. Jicarilla Apache Nation, 564 U.S. 162, 185,
131 S.Ct. 2313, 180 L.Ed.2d 187 (2011) (“[W]e are
hesitant to adopt an interpretation of a congressional
enactment which renders superfluous another portion of that same law.” (internal quotation marks
omitted) ).
Even if the text of the two statutes did not suggest
that Congress intended the FVRA and the AG Act to
operate alongside each other, the Court has an affirmative duty to adopt such an interpretation because “when two statutes are capable of coexistence,
it is the duty of the courts, absent a clearly expressed
congressional intention to the contrary, to regard
each as effective.” Howard v. Pritzker, 775 F.3d 430,
437 (D.C. Cir. 2015) (quoting J.E.M. Ag Supply v. Pioneer Hi–Bred Int’l, 534 U.S. 124, 143–44, 122 S.Ct.
593, 151 L.Ed.2d 508 (2001) ); see also id. (“The
courts are not at liberty to pick and choose among
congressional enactments.” (quoting Morton v.
Mancari, 417 U.S. 535, 551, 94 S.Ct. 2474, 41

C50

L.Ed.2d 290 (1974) ) ). The AG Act provides that the
Deputy Attorney General “may” assume the responsibilities of the Attorney General during a vacancy,
not that he “must” or “shall” assume those responsibilities. And “[t]he word ‘may’ customarily connotes
discretion,” rather than a mandatory requirement.
Jama v. ICE, 543 U.S. 335, 346, 125 S.Ct. 694, 160
L.Ed.2d 708 (2005). Although the AG Act states that
when “neither the Attorney General nor the Deputy
Attorney General is available ..., the Associate Attorney General shall act as Attorney General,” 28 U.S.C.
§ 508(b) (emphasis added), that provision by itself
does not prove that the two statutes are incapable of
coexistence; it merely suggests that if the President
does not exercise his authority under the FVRA, then
the Associate Attorney General must step in if the
Deputy Attorney General is unavailable. And, as discussed, another judge on this Court has held that
even an agency-specific statute that provides that the
first-in-line successor “shall” serve during a vacancy
operates alongside the FVRA because that statute’s
“shall” is “implicitly qualified by the FVRA’s ‘may.’ ”
English, 279 F.Supp.3d at 323. By comparison, the
AG Act’s use of the word “shall” when listing a second-in-line successor provides little reason to adopt a
“disfavored construction” of an irreconcilable conflict
between the two statutes. Howard, 775 F.3d at 437
(internal quotation marks omitted).
Faced with the text and structure of the FVRA and
the AG Act, the Coalition cannot argue that the
FVRA never applies to the Office of the Attorney
General. Instead, it argues that the AG Act imposes
an exhaustion requirement such that the FVRA ap-

C51

plies if and only if none of the successors identified in
the AG Act are available. According to the Coalition,
this miniscule role for the FVRA explains why, for
example, Congress did not list the Office of the Attorney General in § 3349c, the “applicability” provision that excludes certain offices from the FVRA. But
the Coalition’s interpretation lacks textual support
and relies primarily on inapplicable contextual and
substantive canons.
As evidence of textual support, the Coalition
stresses that the FVRA’s exclusivity *142 provision, 5
U.S.C. § 3347, includes the word “designates,” which
means to “choose.” Firearms Pol’y Coal.’s Br. at 28
(quoting Black’s Law Dictionary 541 (10th ed. 2014) ).
According to the Coalition, the FVRA must be inapplicable because the AG Act automatically “chooses”
the acting official. But the Coalition’s own theory
proves that the word “designates” cannot bear that
weight. Under the Coalition’s interpretation, the AG
Act would always “designate” or “choose” the First
Assistant—or another successor listed in the AG
Act—and the FVRA would never apply, even when all
of the AG Act successors are unavailable. The Coalition concedes that, at least in those circumstances,
the text of the FVRA permits the President to select
an Acting Attorney General, but it cannot explain
why. The more sensible interpretation of § 3347 takes
into account the “exclusive ... unless” structure and
recognizes that the FVRA is nonexclusive, but not inapplicable, when read in conjunction with an agencyspecific statute, such as the AG Act. The President
may elect to fill a vacancy by invoking the FVRA, or,

C52

if he fails to do so, the successors listed in the AG Act
may serve as Acting Attorney General.
The Coalition also invokes the “well established
canon of statutory interpretation” that “the specific
governs the general,” RadLAX Gateway Hotel v.
Amalgamated Bank, 566 U.S. 639, 645, 132 S.Ct.
2065, 182 L.Ed.2d 967 (2012) (internal quotation
marks omitted), to support its argument that the AG
Act should be given effect over the more general
FVRA, Firearms Pol’y Coal.’s Br. at 28. Although this
canon is usually applied where a general statute and
a specific statute directly contradict each other, “the
canon has full application as well to statutes ... in
which a general authorization and a more limited,
specific authorization exist side-by-side.” RadLAX
Gateway Hotel, 566 U.S. at 645, 132 S.Ct. 2065. In
that circumstance, “the canon avoids not contradiction but the superfluity of a specific provision that is
swallowed by the general one.” Id. But here, the AG
Act is hardly “swallowed” by the FVRA. Each of the
statutes imposes unique requirements that provide
alternative mechanisms for filling a vacancy. The AG
Act establishes a specific order of succession based on
title and does not limit the length of time an individual may serve in an acting capacity. By contrast, the
FVRA defines eligibility based on other criteria. For
example, under the FVRA, a nominee to fill a vacancy
is generally prohibited from serving in an acting capacity, see 5 U.S.C. § 3345(b)(1), and any individual
appointed under § 3345(a)(3) of the FVRA must have
served in the agency for 90 of the preceding 365 days
in a position that receives pay equal to or greater
than the minimum rate for GS-15 of the General

C53

Schedule. The FVRA also imposes specific time limits
on acting service. See id. § 3346. As a result, some individuals who are eligible to serve in an acting capacity under the AG Act may not be eligible under the
FVRA, and vice versa.
Because “the text is clear,” the Court “need not
consider [the] extra-textual evidence” cited by the
Coalition. SW Gen., 137 S.Ct. at 942. Nevertheless,
the Court briefly considers and rejects the Coalition’s
remaining arguments. The Coalition argues that
“there is no serious reason Congress would want to
permit the President” to override the AG Act by invoking the FVRA. Firearms Pol’y Coal.’s Br. at 30. It
further contends that the “purpose” of the FVRA was
to limit the President’s authority to select acting officers, not to expand it. Id. And it states that had
Congress desired to give the President a choice between two statutory schemes “it would have done so
expressly,” *143 Firearms Pol’y Coal.’s Reply at 18,
Dkt. 17, No. 18-cv-2988, or at least indicated as much
in some piece of legislative history, id. at 21–23.
Regardless of the myriad policy reasons that might
support or oppose the result here, Congress spoke
clearly enough in the text of the FVRA. The exclusivity provision and the statutory history of the FVRA
show that Congress understood, when it enacted the
FVRA, that it was creating a new vacancies statute
with its own allowances and restrictions that would
apply to the Office of the Attorney General. Moreover, Congress did discuss this very issue in a Senate
Report that accompanied a failed 1998 bill that preceded the FVRA. In considering language similar to
the current exclusivity provision, the Report stated

C54

that the bill would retain several agency-specific
statutes but that “the Vacancies Act would continue
to provide an alternative procedure for temporarily
occupying the office.” S. Rep. No. 105-250, at 17
(1998). The legislative history not only speaks to the
issue; it confirms the government’s interpretation.
Agency-specific statutes like the AG Act were expected to operate alongside the FVRA, not to displace
it.
The Coalition accuses the government of misrepresenting the Senate Report because the cited statement refers to what “would” occur if Congress were
“to repeal [agency-specific] statutes in favor of the
procedures contained in the Vacancies Act.” Firearms
Pol’y Coal.’s Reply at 23 (quoting S. Rep. No. 105-250,
at 17). But the Report explains that “various authorizing committees” might consider whether to repeal
the different agency-specific statutes in the future,
and that “in any event,” the FVRA will “continue to
provide an alternative procedure.” S. Rep. No. 105250, at 17. In context, it is clear that the cited statement from the Report refers to the 1998 bill.
The Coalition next cites an introductory section of
the Senate Report that refers to a variety of “express
exceptions” to the FVRA and states that “current
[agency-specific] statutes ... are maintained.” Id. at 2.
The Coalition argues that by referring to these statutes as “exceptions,” the Report suggests that the
FVRA does not operate alongside agency-specific
statutes. Firearms Pol’y Coal.’s Reply at 23. But this
interpretation does not even comport with the Coalition’s own theory, which purports to retain a role for
the FVRA if and when the individuals in the AG Act’s

C55

line of succession are unavailable. Regardless, this
general and vague discussion is a weak basis for discounting more specific language in the same Report.
[60]In

passing, the Coalition also mentions that a
footnote from a 2001 White House Counsel memorandum adopted the Coalition’s interpretation. See
Memorandum from Alberto R. Gonzales, Counsel to
the President, to the Heads of Fed. Exec. Dep’ts. &
Agencies & Units of the Exec. Off. of the President,
Re: Agency Reporting Requirements Under the Vacancies Reform Act 2 n.2 (Mar. 21, 2001). In this context, however, as the Coalition itself acknowledges,
the legal positions of the Executive Branch are not
entitled to deference from this Court, and even if they
were, subsequent Office of Legal Counsel opinions
reached the opposite conclusion. See Firearms Pol’y
Coal.’s Reply at 24–25.9
*144 The Coalition places the most weight on the
constitutional-avoidance canon, arguing that the
Court should adopt its interpretation because it is at
least doubtful whether the President may constitu9 For its part, the government places considerable weight on
the history of presidential designations under the FVRA, arguing that “Presidents have consistently and explicitly invoked
their FVRA authority to make acting-officer designations that
would be barred if [agency]-specific statutes were read to set out
exclusive, mandatory succession plans.” Gov’t’s Opp’n in Guedes
at 51. But the FVRA was enacted a mere two decades ago, and
the government identifies only a few designations that bypassed
a first assistant. Id. at 51–52 & n.29. “In this context, Congress’s failure to speak up does not fairly imply that it has acquiesced in the [government’s] interpretation.” SW Gen., 137
S.Ct. at 943 (rejecting a similar argument based on “postenactment practice” under the FVRA).

C56

tionally designate a non-confirmed official to serve in
an acting capacity when a first assistant is available.
Firearms Pol’y Coal.’s Br. at 25. The problem for the
Coalition, however, is that the government’s reading
does not raise a “serious doubt” about the FVRA’s
constitutionality. Jennings v. Rodriguez, ––– U.S. –––
–, 138 S.Ct. 830, 842, 200 L.Ed.2d 122 (2018) (internal quotation marks omitted). As discussed below,
the constitutional legitimacy of acting officers has
long been settled. And the avoidance canon “comes
into play only when, after the application of ordinary
textual analysis, the statute is found to be susceptible
of more than one construction.” Id. (internal quotation marks omitted). As demonstrated above, the Coalition’s interpretation is foreclosed by “ordinary textual analysis.” Id. (internal quotation marks omitted); see also id. at 836 (“[A] court relying on [the
avoidance] canon still must interpret the statute, not
rewrite it.”).
2. The Appointments Clause Challenge to Whitaker’s Designation
The Appointments Clause requires the President
to “nominate, and by and with the Advice and Consent of the Senate, ... appoint” all “Officers of the
United States,” but it permits Congress “by Law” to
“vest the Appointment of such inferior Officers, as
they think proper, in the President alone, in the
Courts of Law, or in the Heads of Departments.” U.S.
Const. art. II, § 2, cl. 2.
For Appointments Clause purposes, federal officials fall into three categories: (1) “principal officers,”
who must be appointed by the President with the ad-

C57

vice and consent of the Senate; (2) “inferior officers,”
who, by default, must be appointed by the President
with the advice and consent of the Senate, but whose
appointment Congress may choose to vest solely in
the President, department heads, or courts; and (3)
“employees,” who can be hired without any particular
process mandated by the Appointments Clause. See
Lucia v. SEC, ––– U.S. ––––, 138 S.Ct. 2044, 2051 &
n.3, 201 L.Ed.2d 464 (2018).
The Appointments Clause “is more than a matter
of etiquette or protocol; it is among the significant
structural safeguards of the constitutional scheme.”
Edmond v. United States, 520 U.S. 651, 659, 117
S.Ct. 1573, 137 L.Ed.2d 917 (1997) (internal quotation marks omitted). “The Framers envisioned it as
‘an excellent check upon a spirit of favoritism in the
President’ and a guard against ‘the appointment of
unfit characters from family connection, from personal attachment, or from a view to popularity.’ ” SW
Gen., 137 S.Ct. at 935 (alteration adopted) (quoting
The Federalist No. 76, at 457 (Alexander Hamilton)
(Clinton Rossiter ed., 1961) ). “By requiring the joint
participation of the President and the Senate, the
Appointments Clause was designed to ensure public
accountability for both the making of a bad appointment and the rejection of a good one.” Edmond, 520
U.S. at 660, 117 S.Ct. 1573.
Yet “[t]he constitutional process of Presidential
appointment and Senate confirmation ... can take
time.” SW Gen., 137 S.Ct. at 935. And neither the
President *145 nor the Senate “may desire to see the
duties of [a] vacant office go unperformed in the interim.” Id. Thus, “[s]ince President Washington’s first

C58

term, Congress has given the President limited authority to appoint acting officials to temporarily perform the functions” of offices that otherwise require
Senate confirmation. Id. Congress provided this limited authority in 1792 and has refined it in various
ways through the years, including in 1998, when it
enacted the FVRA. See id. at 935–36.
The Coalition argues that the Appointments
Clause generally prevents the President from designating a non-Senate-confirmed official other than the
first assistant to serve as an acting principal officer
in the event of a vacancy. See, e.g., Firearms Pol’y
Coal.’s Br. at 11–12. Alternatively, the Coalition argues that the Appointments Clause at least requires
an acting principal officer to be appointed as an inferior officer and that Whitaker’s designation as Acting
Attorney General under the FVRA did not qualify as
an “appointment.” See, e.g., id. at 11. The Court considers and rejects each argument in turn.
a. President Trump’s Decision to Designate Whitaker Without Obtaining the Advice and Consent of
the Senate
Conveniently, both parties agree that the President may sometimes direct a person to perform the
duties of a principal office temporarily without first
obtaining the Senate’s advice and consent. See Firearms Pol’y Coal.’s Reply at 12; Gov’t’s Opp’n in
Guedes at 53, Dkt. 16, No. 18-cv-3083.10 But they dis-

10 The parties also agree that the Office of the Attorney General is a principal office. See Firearms Pol’y Coal.’s Br. at 2;
Gov’t’s Opp’n in Guedes at 11.

C59

agree about why, and how to reconcile this settled
practice with the Appointments Clause.
The government argues that it is the limited duration of acting service that makes it permissible under
the Appointments Clause. See, e.g., Gov’t’s Opp’n in
Guedes at 53. In the government’s view, as long as an
official performs the duties of a principal office only
temporarily, in an acting capacity, the official may do
so without actually becoming the principal officer.
This understanding, the government argues, is reflected not only in binding Supreme Court precedent
but also in the longstanding historical practice of the
political branches. Id.
The Coalition acknowledges the same precedent
and history but seeks to explain it in terms of supervision. See, e.g., Firearms Pol’y Coal.’s Br. at 20–21.
According to the Coalition, what matters is not how
long the temporary service lasts but who performs it.
In the Coalition’s view, the Appointments Clause
does not permit just any individual to serve, even
temporarily, as an acting principal officer. Rather, it
permits one specific person to do so: the first assistant who is generally supervised by the principal officer and whose pre-defined job responsibilities include stepping in when the principal officer becomes
unavailable. Id. at 3. Because first assistants are supervised both before and after the principal office is
vacant, the Coalition argues, they qualify as “inferior” officers whose inferior status remains unaltered
even when their superior is sick or away, or has resigned or died. Id. at 21. It follows, according to the
Coalition, that the FVRA becomes unconstitutional if
and when the President uses it to displace an availa-

C60

ble first assistant and directs someone who is neither
a first assistant nor a Senate-confirmed appointee to
perform the duties of a principal office. Id. at 25.
These competing explanations lead to different results in this case because, although Whitaker’s service as Acting Attorney *146 General was temporary,11 Whitaker was neither the first assistant to the
previous Attorney General nor Senate confirmed at
the time of his designation under the FVRA.
Important as this debate may be, it has long been
settled by Supreme Court precedent and historical
practice. Beginning with precedent, the Supreme
Court has repeatedly embraced the government’s
view that it is the temporary nature of acting duties
that permits an individual to perform them without
becoming a principal officer under the Appointments
Clause. The Court first addressed the constitutionality of acting service in United States v. Eaton, 169
U.S. 331, 18 S.Ct. 374, 42 L.Ed. 767 (1898). In Eaton,
the “consul general” to Siam—a principal officer—
had fallen ill and decided to return to America, where
he expected to die. Id. at 331–32, 18 S.Ct. 374. To
“protect the interests of the government during his
absence, and until the ... expected arrival” of his replacement, he asked a local missionary, Lewis Eaton,
“to take charge of the consulate.” Id. Less than a
month before the consul general left for America, he
swore Eaton in as “vice consul general,” id. at 332, 18
S.Ct. 374, and charged him “with the duty of tempo11 Whitaker’s service ended on February 15, 2019 when Barr
became the Attorney General. See 165 Cong. Rec. S1397 (daily
ed. Feb. 14, 2019).

C61

rarily performing the functions of the consular office,”
id. at 343, 18 S.Ct. 374. When the consul general departed a few weeks later, Eaton took over as acting
consul for a period of 310 days. Id. at 333–34, 18
S.Ct. 374.
In the course of ruling that Eaton was entitled to
compensation for that period, the Court determined
that his acting service was consistent with the Appointments Clause. Id. at 343–44, 18 S.Ct. 374. Specifically, the Court held that a subordinate “charged
with the performance of the duty of the superior for a
limited time, and under special and temporary conditions ” is not “thereby transformed into the superior
and permanent official.” Id. at 343, 18 S.Ct. 374 (emphases added).
In reaching that conclusion, the Court relied on evidence of the prevailing historical practice. It
acknowledged that the role of “vice consul” had not
always been a temporary position. Id. at 344, 18 S.Ct.
374. In “earlier periods of the government,” vice consuls “were not subordinate and temporary ”—like
Eaton—but were instead “permanent and in reality
principal officials.” Id. (emphases added). They were
therefore appointed with the advice and consent of
the Senate. Id. But even when “the office of vice consul was considered as an independent and separate
function, requiring confirmation by the senate, where
a vacancy in a consular office arose by death of the
incumbent, and the duties were discharged by a person who acted temporarily, without any appointment
whatever,” the “practice prevailed of paying such officials as de facto officers.” Id. (emphasis added).

C62

The Court found this historical practice compelling
and quoted at length from an opinion by Attorney
General Taney on “whether the son of a deceased
consul”—who had no apparent government position
but had “remained in the consular office, and discharged its duties”—was entitled to compensation for
his temporary service. Id. Taney concluded that the
son “was the de facto consul for the time” and that
“[t]he practice of the government sanction[ed]” paying
him accordingly. Id. (quoting Provision for Widows of
Consuls Who Die in Office, 2 Op. Att’y Gen. 521, 523
(1832) ). After all, Taney observed, “[t]he public interest requires that the duties of the office should be
discharged by some *147 one; and where, upon the
death of the consul, a person who is in possession of
the papers of the consulate enters on the discharge of
its duties, and fulfills them to the satisfaction of the
government,” there is no reason “why he should not
be recognized as consul for the time he acted as
such.” Id. (quoting 2 Op. Att’y Gen. at 524). Relying
on this opinion and the historical practice it reflected,
the Court adopted “the theory that a vice consul is a
mere subordinate official” and upheld the constitutionality of Eaton’s service. Id.
The Coalition insists that Eaton is consistent with
its position because the Court merely permitted a
first assistant—the “vice consul”—to take on the duties of his superior. See, e.g., Firearms Pol’y Coal.’s
Reply at 7, 10–11, 14. But to the extent Eaton involved a first assistant at all, it involved one only in
the most superficial and formalistic sense. Eaton was
a missionary with no evident prior government experience who was sworn in as vice consul for the sole

C63

and express purpose of assuming the consul general’s
duties when the consul left for America less than a
month later. There is no hint in the Court’s decision
that Eaton was ever subjected to the consul general’s
direction or control, or that the potential for such supervision played any role in the Court’s analysis. Indeed, the Court expressly relied on Attorney General
Taney’s opinion approving the temporary performance of consular duties by a consul’s son, who evidently was not the vice consul and whose qualifications consisted of being physically present and “in
possession of the papers.” Eaton, 169 U.S. at 344, 18
S.Ct. 374.
To be sure, the Eaton Court did identify the core
feature that made vice consuls inferior officers. But it
was not their supervision by the consul general or
their status as second in command. It was the fact
that Congress had chosen to “limit” their “period of
duty” and “thereby to deprive them of the character
of ‘consuls,’ in the broader and more permanent sense
of that word.” Id. at 343, 18 S.Ct. 374.
The Supreme Court has since reaffirmed Eaton,
and each time it has described Eaton’s holding in durational terms without ever suggesting that it is limited to first assistants. In Morrison v. Olson, the
Court expressly weighed the “temporary” duration of
the Office of Independent Counsel as a factor in assessing whether the office required Senate confirmation. 487 U.S. 654, 672, 108 S.Ct. 2597, 101 L.Ed.2d
569 (1988). In justifying that approach, the Court cited Eaton and described it as approving regulations
that permitted executive officials “to appoint a ‘viceconsul’ during the temporary absence of the consul.”

C64

Id. (emphasis added). The Court went on to quote
Eaton’s core holding that a subordinate officer who
performs the duties of a principal office “for a limited
time and under special and temporary conditions” is
not “transformed into the superior and permanent official.” Id. (quoting Eaton, 169 U.S. at 343, 18 S.Ct.
374).
And when the Court later refined the test for identifying principal officers in Edmond, it again cited
Eaton favorably and described it as holding that “a
vice consul charged temporarily with the duties of the
consul” was an inferior officer. 520 U.S. at 661, 117
S.Ct. 1573 (emphasis added). Although the Court
clarified that, “[g]enerally speaking,” the test for
identifying an inferior officer is “whether he has a
superior,” id. at 662, 117 S.Ct. 1573, it did not disturb
Eaton’s 99-year-old holding approving temporary,
acting service during a principal office vacancy, see
id. at 661, 117 S.Ct. 1573.12
Individual Justices have likewise understood Eaton to
permit temporary, acting service. In SW General, Justice Thomas expressed constitutional concerns with using the FVRA to accomplish effectively permanent appointments. See 137 S.Ct. at
946 n.1 (Thomas, J., concurring). But even in that context, he
took Eaton’s durational holding as a given and took pains to distinguish it, concluding that there was “nothing ‘special and
temporary’ ” about the appointment in SW General, which had
lasted “more than three years in an office limited by statute to a
4-year term.” Id. (quoting Eaton, 169 U.S. at 343, 18 S.Ct. 374).
Then-Judge Kavanaugh described Eaton’s holding even more
unequivocally in Free Enterprise Fund, explaining that “[t]he
temporary nature of the office is the ... reason that acting heads
of departments are permitted to exercise authority without Senate confirmation.” Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd., 537 F.3d 667, 708 n.17 (D.C. Cir. 2008) (Ka12

C65

*148 In short, the Supreme Court has held and
subsequently reaffirmed that an official designated to
perform the duties of a principal office temporarily,
on an acting basis, need not undergo Senate confirmation. The Court has never suggested that such
temporary service must be performed by a first assistant, if available.
This understanding, binding on this Court, is further confirmed by an unbroken string of legislative
enactments. See NLRB v. Noel Canning, 573 U.S.
513, 524, 134 S.Ct. 2550, 189 L.Ed.2d 538 (2014)
(courts “put significant weight upon historical practice” when interpreting constitutional provisions that
concern “the allocation of power” between Congress
and the Executive Branch). In 1792, the Second Congress authorized the President to appoint “any person
... at his discretion to perform the duties” of the Secretaries of State, Treasury, or War in the event of a
death, absence, or illness “until a successor be appointed, or until such absence or inability by sickness
shall cease.” Act of May 8, 1792, ch. 37, § 8, 1 Stat.
279, 281 (emphasis added). Three years later, in
1795, Congress extended this authority to apply to
any “vacancy” in those departments—regardless of
the cause—while simultaneously limiting the duration of acting service to six months. Act of Feb. 13,
1795, ch. 21, 1 Stat. 415, 415. Notably absent from
these early congressional enactments is any limitation on whom the President could authorize to pervanaugh, J., dissenting) (emphasis omitted) (citing Eaton, 169
U.S. at 343, 18 S.Ct. 374), aff’d in part, rev’d in part, and remanded, 561 U.S. 477, 130 S.Ct. 3138, 177 L.Ed.2d 706 (2010).

C66

form acting duties—much less any hint that the President was required to choose the first assistant. This
early legislative practice, in force from President
Washington’s first term until the middle of the Civil
War, “provide[s] contemporaneous and weighty evidence of the Constitution’s meaning.” Alden v. Maine,
527 U.S. 706, 743–44, 119 S.Ct. 2240, 144 L.Ed.2d
636 (1999) (internal quotation marks omitted) ); see
also Golan v. Holder, 565 U.S. 302, 321, 132 S.Ct.
873, 181 L.Ed.2d 835 (2012) (“[T]he construction
placed upon the Constitution” by members of the early Congresses, “many of whom were members of the
convention which framed [the Constitution], is of itself entitled to very great weight.” (internal quotation
marks omitted) ).
The Coalition minimizes these enactments by suggesting that Congress must have assumed that the
President’s broad statutory discretion would be narrowed by the Constitution. Firearms Pol’y Coal.’s Reply at 6–7. But if that is true, early courts did not get
the message. In the words of one court, “it was doubtless considered when the act of 1792 was passed that
it was expedient to allow to the President an unlimited range of selection, and hence the use of the broad
and comprehensive language of [the 1792] act.” Boyle
v. United States, 1857 WL 4155, at *4 (Ct. Cl. Jan.
19, 1857). This “unlimited” authority, granted at such
an “early day in the *149 history of the federal constitution,” was considered “safely ... entrusted to [the
President]” not because it was subject to unspecified
further limits under the Appointments Clause but
because the President was “in the daily exercise of

C67

higher and much more important powers” and could
therefore be trusted to fill temporary vacancies. Id.
Eventually, Congress did set limits on whom the
President could appoint as an acting principal. But
even then, it did not require the President to choose
the first assistant. In 1863, Congress narrowed the
President’s options from “any person,” Act of May 8,
1792, § 8, 1 Stat. at 281, to any department head or
“other officer” whose “appointment is vested in the
President,” Act of Feb. 20, 1863, ch. 45, § 1, 12 Stat.
656, 656. Five years later, in 1868, Congress passed
the Vacancies Act, which curbed the President’s temporary appointment power in significant ways. See
Act of July 23, 1868, 15 Stat. 168. For vacancies
caused by death or resignation, Congress limited the
term of acting service to a mere ten days. Id. § 3, 15
Stat. at 168. And for the first time, Congress provided
that the first assistant would automatically perform
the duties of the department head in the event of a
vacancy. See id. § 1. But like its predecessors, the Vacancies Act still authorized the President to choose
someone other than the first assistant if he wished,
specifically, any department head or other Senateconfirmed officer. Id. § 3.
This new pool of already-confirmed candidates
may have been narrow, but the Coalition’s theory
cannot explain it. Although an officer’s prior appointment may have been important to Congress, it
would have been irrelevant for purposes of the Appointments Clause unless the officer’s new acting duties were somehow “germane to the office[ ] already
held.” Shoemaker v. United States, 147 U.S. 282, 301,
13 S.Ct. 361, 37 L.Ed. 170 (1893). That would plainly

C68

not be the case for department heads tapped to lead
other, unrelated departments, which the Vacancies
Act expressly allowed. See Act of July 23, 1868, § 3,
15 Stat. at 168. Nor could the President’s authority to
direct department heads to lead other departments
be explained in terms of supervision or pre-existing
duties. By definition, a department head is not supervised by anyone but the President. And the remote possibility of filling in for a fellow principal officer at the President’s request cannot plausibly be
considered one of the routine responsibilities of leading a department.
Over the next 130 years, Congress made minor adjustments to the President’s temporary appointment
authority, for the most part expanding the length of
acting service. See, e.g., Act of Feb. 6, 1891, ch. 113,
26 Stat. 733, 733 (extending ten-day limit to thirty
days); Presidential Transitions Effectiveness Act,
Pub. L. No. 100-398, § 7(b), 102 Stat 985, 988 (1988)
(extending limit to 120 days). Finally, in 1998, Congress passed the FVRA, which explicitly authorized
the President to designate certain inferior officers
and senior employees to serve as acting principal officers. See 5 U.S.C. 3345(a)(3).
Thus, from the time of the founding to today, Congress has continuously authorized the President to
direct persons who are not first assistants and who
lack any constitutionally relevant Senate confirmation to perform the duties of a principal office temporarily on an acting basis. This unbroken legislative
practice confirms Eaton’s holding that it is the “special and temporary conditions” of acting service,
Eaton, 169 U.S. at 343, 18 S.Ct. 374—and not the

C69

identity of the acting official—that makes such service constitutional. See *150 United States v. CurtissWright Export Corp., 299 U.S. 304, 327–28, 57 S.Ct.
216, 81 L.Ed. 255 (1936) (“A legislative practice ...
marked by the movement of a steady stream for a
century and a half of time, goes a long way in the direction of proving the presence of unassailable
ground for the constitutionality of the practice.”).
This understanding is further confirmed by the
longstanding practice of the Executive Branch. See
The Pocket Veto Case, 279 U.S. 655, 689, 49 S.Ct. 463,
73 L.Ed. 894 (1929) (“Long settled and established
practice is a consideration of great weight in a proper
interpretation of constitutional provisions ....”). As
both parties acknowledge, a practice emerged early
on in our Nation’s history of appointing a non-Senate
confirmed “chief clerk” to serve as the Acting Secretary—or Secretary “ad interim”—when the principal
Office of Secretary had become vacant. Gov’t’s Opp’n
in Guedes at 56–57; Firearms Pol’y Coal.’s Reply at
12; see also Designating an Acting Attorney General,
42 Op. Off. Legal Counsel ––––, 2018 WL 6131923, at
*8 (2018) (reporting over 100 instances of chief clerks
serving as acting principal officers from 1809 to
1860).
The Coalition argues that this practice supports its
theory because chief clerks were simply the historical
analogue to today’s first assistants. See, e.g., Firearms Pol’y Coal.’s Reply at 12. But for chief clerks to
have functioned as the Coalition maintains first assistants do, it would have to be true that they
stepped in for their superiors automatically and subject to a general form of continual supervision. See

C70

Firearms Pol’y Coal.’s Br. at 3–4. That description
may have been true of some clerks, see Firearms Pol’y
Coal.’s Reply at 16 (identifying two statutes authorizing the chief clerk to fill in for the principal officer
automatically in the event of a vacancy), but it was
not true of all of them, or even most of them, see 1
Trial of Andrew Johnson, President of the United
States, Before the Senate of the United States, on Impeachment by the House of Representatives for High
Crimes and Misdemeanors 575–81 (1868) (hereinafter Trial of Andrew Johnson ) (listing dozens of examples of Presidents “appoint[ing],” “authoriz[ing],”
or “empower[ing]” chief clerks to perform the duties
of a Secretary during a vacancy).
More importantly, the Coalition’s account contrasts sharply with how the practice of appointing
chief clerks was described and justified at the time.
When chief clerks sought compensation for their acting service in federal court, the resulting decisions
made clear that the position of Acting Secretary was
viewed neither as a continuation of the chief clerk’s
duties as chief clerk nor as an appointment to become
the Secretary, but as a unique and temporary office
that arose solely from the President’s exercise of discretionary authority under the relevant vacancy
statute. See Boyle, 1857 WL 4155, at *3–4. As the
Court of Federal Claims put it in Boyle, “[t]he office of
Secretary ad interim” was “a distinct and independent office in itself, when it [wa]s conferred on the
chief clerk,” and was “so conferred not because it pertain[ed] to him ex officio, but because the President,
in the exercise of his discretion, s[aw] fit to appoint
him.” Id. at *4. Thus, while the court explained that

C71

the Secretary ad interim “may be the chief clerk,” he
could also be “any other person, at the discretion of
the President.” Id. (emphases added). Although
“[e]xperience ha[d] taught” that “this discretion”
could “be very judiciously exercised by conferring the
appointment on the chief clerk,” the “broad terms of
the [1792] act would fully warrant the President in
selecting any other person; and it would, moreover, be
his duty to do so, if, in his discretion, he should deem
it most expedient.” Id. (emphasis added).
*151 The reason these discretionary appointments
were understood not to violate the Appointments
Clause was plain: “[t]he office of Secretary ad interim
[wa]s temporary in its character, whilst that of Secretary [wa]s of a more permanent nature.” Id. at *3
(emphases added). As a result, “the one” was “considered inferior to the other,” and did not require the
advice and consent of the Senate. Id.
Thus, while it is true that Presidents often directed the chief clerk to serve in the event of a vacancy, Presidents made that decision voluntarily, as an
exercise of statutory discretion, and not because the
chief clerks’ existing duties made such service automatic. Moreover, the contemporaneous justification
for this accepted practice was found not in the role of
chief clerk but in the role of Acting Secretary and its
temporary nature.
Given this understanding, it is no surprise that
Presidents frequently looked beyond chief clerks to
fill temporary vacancies. Indeed, they regularly designated other cabinet members and department
heads as acting principal officers. See Designating an

C72

Acting Attorney General, 2018 WL 6131923, at *8
(reporting that during the Washington, Adams, and
Jefferson Administrations, other cabinet members
and Chief Justice John Marshall “were used as temporary or ‘ad interim’ officials”); Letter from James
Buchanan, President of the United States, to the
Senate of the United States (Jan. 15, 1862), in 5 A
Compilation of the Messages and Papers of the Presidents 1789–1902, at 3191 (James D. Richardson ed.,
1902) (describing Presidents’ frequent use of department heads, among others, to fill vacancies in other
departments); Trial of Andrew Johnson, supra, at
575–81 (listing over twenty instances of department
heads serving as acting heads of other departments).
And again, although these officials had been previously confirmed, their prior confirmations would have
been irrelevant for constitutional purposes unless
their prior duties were somehow germane to the duties of their new offices. See Shoemaker, 147 U.S. at
301, 13 S.Ct. 361 (an existing appointment may authorize additional duties only if those duties are
“germane” to the office already held).
In addition, on at least three occasions, a President—each time, President Jackson—authorized
someone with no prior government role whatsoever to
serve as an acting principal officer. On his first day in
office, President Jackson directed James A. Hamilton
to “take charge of the Department of State” until
then-Governor Martin Van Buren “arrive[d] in the
city.” Trial of Andrew Johnson, supra, at 575; see also
Biographical Directory of the American Congress,
1774–1961, at 16 (1961). And on two other occasions,
he directed William B. Lewis to serve as Acting Sec-

C73

retary of War. See Trial of Andrew Johnson, supra, at
575. Although these examples are few, and limited to
a single administration, they comport with the understanding articulated in Boyle that it is the temporary nature of an acting appointment—and not the
former position of the appointee—that makes it unnecessary for the President to obtain the advice and
consent of the Senate before filling a vacancy with an
acting official.13
*152 To be sure, the Coalition’s position is not
without its virtues. For one, it represents an attempt
to reconcile Eaton’s focus on duration with the nowdominant criterion of supervision. See Edmond, 520
U.S. at 662, 117 S.Ct. 1573 (“Generally speaking, the
term ‘inferior officer’ connotes a relationship with
some higher ranking officer or officers below the
President.”); see also Free Enter. Fund, 537 F.3d at
708 n.17 (Kavanaugh, J., dissenting) (explaining
that, “for offices that are not temporary,” Edmond
“controls the inferior-officer Appointments Clause
analysis,” and noting that Edmond “expressly purport[ed] to set forth a definitive test for inferior officer status governing future cases”). For another, it
13 There appear to be other examples where an individual
who was neither the chief clerk nor a Senate-confirmed official
stepped in as an acting principal officer. See Eaton, 169 U.S. at
344, 18 S.Ct. 374 (describing a consul’s son who served temporarily as consul when his father passed); Boyle, 1857 WL 4155,
at *5 (describing a “navy agent” who served temporarily as an
acting “purser”); Firearms Pol’y Coal.’s Br. at 26 n.2 (acknowledging “several instances, when the first assistant was apparently unavailable,” in which “the President designated a nonconfirmed subordinate to the first assistant or other senior department officer without objection”).

C74

offers a clear constitutional boundary that could minimize manipulation by the Executive Branch.
But despite these virtues, the Coalition’s theory
suffers from fatal flaws. First, as already discussed, it
cannot account for the Supreme Court’s holding in
Eaton, an unbroken line of congressional enactments,
or the longstanding practice of the Executive Branch
(as understood at the time).
Second, it rests on a weak conceptual foundation.
Doctrinally, it relies on the premise that first assistants are “generally” supervised. See Firearm Pol’y
Coal.’s Br. at 4, 21. By that, the Coalition appears to
mean that they are supervised before and after they
serve as acting principal officers.14 But that is just
another way of stating that they are not supervised
during the one window that counts: when carrying
out their acting appointment. Although a loose form
of ongoing supervision might be said to apply when
the principal officer is merely ill or absent, surely any
such supervision ceases when the principal officer
dies or resigns. Perhaps in these situations the next
principal is able to exercise a form of retroactive supervision by ratifying or rejecting the acting official’s

14 Of course, Whitaker himself was supervised both before
and after his designation, as Chief of Staff to the Attorney General and as Senior Counselor in the Office of the Associate Attorney General. See Whitaker Remains at Justice Dept. but in
Different
Role,
Wash.
Post
(Feb.
15,
2019),
https://www.washingtonpost.com/politics/whitaker-remains-atjustice-dept-but-in-different-role/2019/02/15/a332f0da-314211e9-8781-763619f12cb4_story.html.

C75

actions after the fact. But if such anticipated, backward-looking supervision could cure a first assistant’s
temporary service, it could cure anyone’s. It therefore
provides no basis for distinguishing first assistants
from any other person approved for acting service
under the FVRA.
Third, the Coalition’s position admits of exceptions
that lack a coherent or persuasive justification. For
example, the Coalition appears to accept that the
President can displace an available first assistant
with any Senate-confirmed official, see, e.g., id. at 5,
but it does not explain how that can be the case when
the officer’s previous position was not “germane” to
his new, acting duties, see Shoemaker, 147 U.S. at
301, 13 S.Ct. 361 (a prior appointment cannot justify
the performance of new responsibilities “dissimilar
to, or outside the sphere of” an officer’s previous “official duties”).15 In addition, the Coalition appears to
suggest that the President may ignore the Appointments Clause altogether if the first assistant is unavailable. See, e.g., Firearms Pol’y Coal.’s Br. at 4,
*153 12, 25–26 n.2. But, again, it is not clear why. If
the legal fiction justifying the first assistant’s temporary service is that the temporary service is merely a
continuation of the first assistant’s existing inferior
office, see id. at 3–4, that justification vanishes once
the President chooses some other subordinate in the
same department whose predefined job responsibili15 If the answer is merely the functional consideration that
requiring a previous confirmation ensures some quality control
by the Senate, then it is not clear why Whitaker’s previous appointment as a United States Attorney would not suffice. See
150 Cong. Rec. S6467 (daily ed. Jun. 3, 2004).

C76

ties cannot realistically be stretched to include stepping in as the acting principal in the event of a vacancy. The Coalition suggests that the unavailability
of the first assistant triggers an “exigency” that excuses what would otherwise be a constitutional violation, see id. at 25–26 n.2, but the Court is hesitant to
embrace a freestanding “exigency” exception with no
basis in the constitutional text.16
The Coalition insists that adopting the government’s interpretation will wreak havoc on the Separation of Powers, see, e.g., id. at 1–2, but the Court is
not persuaded. Congress has set limits on the President’s temporary appointment authority, see 5 U.S.C.
§§ 3345, 3346, and can expand those limits as it sees
fit, see, e.g., Act of July 23, 1868, § 3, 15 Stat. at 168
(imposing a ten-day limit on acting appointments and
limiting the President’s appointment authority to officials already serving in a Senate-confirmed role).
Moreover, the “special and temporary conditions”
that Eaton requires are no mere formality. 169 U.S.
16 This “exigency” exception also appears inconsistent with
the Coalition’s separate argument that an acting principal officer must at least be an inferior officer and not a mere employee. See Firearms Pol’y Coal.’s Br. at 25–26 n.2. The Coalition
cites with approval examples of the President designating “a
non-confirmed subordinate to the first assistant” and of a consul’s son taking charge of the consulate upon his father’s death.
Id. at 26 n.2. But the Coalition does not address the possibility
that these scenarios involved individuals who were not officers—and, in the case of the consul’s son, not even an employee—
serving in what the Coalition considers a principal office. As far
as the Court can discern, the Coalition’s position is that all constitutional bets are off as soon as the first assistant is unavailable, both at the employee/officer boundary and the inferior/principal officer boundary.

C77

at 343, 18 S.Ct. 374. At some point, courts can and
must play a role in policing “acting” appointments
that are effectively permanent. See SW Gen., 137
S.Ct. at 946 n.1 (Thomas, J., concurring) (explaining
that a three-year appointment to an office with a
four-year term was not “special and temporary” under Eaton (internal quotation marks omitted) ). This
case, however, does not concern the pretextual use of
the “temporary” label to circumvent the Senate’s advice and consent role, and the Coalition has not argued otherwise.
At any rate, the constitutional rule was laid down
in Eaton and has since been reaffirmed: an official
who is “charged with the performance of the duty of
the superior for a limited time, and under special and
temporary conditions,” need not be appointed by the
President with the advice and consent of the Senate.
Eaton, 169 U.S. at 343, 18 S.Ct. 374; see also Morrison, 487 U.S. at 672, 108 S.Ct. 2597; Edmond, 520
U.S. at 661, 117 S.Ct. 1573. Whitaker’s temporary
service as the Acting Attorney General satisfies that
test. He served as Acting Attorney General for a mere
100 days during the special circumstance of a vacancy triggered by the resignation of Attorney General
Sessions. As a result, he did not become a principal
officer under the Appointments Clause.
b. Whitaker’s Appointment Under the FVRA
The Coalition makes two additional constitutional
arguments based on the implicit premise that the
Constitution requires *154 the Acting Attorney General to be at least an inferior officer, rather than an
employee. First, it argues that the text of the FVRA

C78

authorizes the President to “direct” an individual to
serve in an acting capacity but does not authorize the
President to “appoint” that individual to become an
inferior officer. Firearms Pol’y Coal.’s Br. at 17–19.17
Second, it argues that an employee can never be “appointed” to serve in an acting capacity because an
acting position is temporary and an officer must hold
a permanent position. Id. at 19–20. Neither argument is persuasive.
Assuming without deciding that Whitaker was an
employee before his designation and that an employee’s service as Acting Attorney General first requires
an appointment, the FVRA authorized such an appointment and the President carried it out. As Justice Thomas recently explained, at the time of the
framing, “the verb ‘appoint’ meant ‘to establish anything by decree’ or ‘to allot, assign, or designate.’ ”
SW Gen., 137 S.Ct. at 946 (Thomas, J., concurring)
(alterations adopted and internal citations omitted).
Therefore, “[w]hen the President ‘directs’ someone to
serve as an officer pursuant to the FVRA, he is ‘appointing’ that person as an ‘officer of the United
17 Although the Coalition cites the word “direct” in
§ 3345(a)(3) in its motion, see Firearms Pol’y Coal.’s Br. at 18–
19, it appears to shift its focus to the word “designates” in
§ 3347(a)(1)(b) in its reply, see Firearms Pol’y Coal.’s Reply at 5.
The Court assumes that the Coalition intended to continue to
argue that the word “direct” creates the constitutional problem.
In any event, the Court doubts the difference matters since the
terms are synonymous in this context. See SW Gen., 137 S.Ct. at
946 (Thomas, J., concurring) (“When the President ‘directs’ a
person to serve as an acting officer, he is ‘assigning’ or ‘designat[ing]’ that person to serve as an officer.” (alterations adopted)).

C79

States’ within the meaning of the Appointments
Clause.” Id. (alterations adopted).
The Supreme Court’s decision in Weiss is not to
the contrary. See Weiss v. United States, 510 U.S.
163, 114 S.Ct. 752, 127 L.Ed.2d 1 (1994). In Weiss,
the Court considered whether military judges assigned to serve as judges by various Judge Advocate
Generals under the Uniform Code of Military Justice
(UCMJ) were lawfully appointed. The Court reasoned
that the military judges involved were “commissioned
officers when they were assigned to serve as judges,”
so “they had already been appointed by the President
with the advice and consent of the Senate.” Id. at
170, 114 S.Ct. 752. It then rejected the petitioners’
arguments that “either Congress ha[d], by implication, required a second appointment, or the Appointments Clause, by constitutional command, require[d]
one.” Id. In the course of rejecting the first argument,
the Court compared other statutes governing the appointment of military officers to the sections of the
UCMJ relating to military judges. It stressed that in
the first set of statutes, Congress used the term “appoint,” but in “[t]he sections of the UCMJ relating to
military judges,” it “sp[oke] explicitly and exclusively
in terms of ‘detail’ or ‘assign’; nowhere in these sections [wa]s mention made of a separate appointment.” Id. at 172, 114 S.Ct. 752. “This difference negate[d] any permissible inference that Congress intended that military judges should receive a second
appointment, but in a fit of absentmindedness forgot
to say so.” Id.
The Coalition seizes on this case to argue that the
FVRA does not permit the appointment of an acting

C80

official because Congress did not use the word “appoint” in the FVRA. See Firearms Pol’y Coal.’s Br. at
18–19; Firearms Pol’y Coal.’s Reply at 5. But the discussion in Weiss turned on the specific text of various
military statutes and placed particular weight on the
*155 use of the words “assigned” and “detailed,” neither of which are at issue here. Moreover, the question in Weiss was whether Congress intended to impose an additional appointment requirement on military judges, not whether a statute designed to permit
such appointments failed because it lacked certain
magic words. Congress clearly contemplated that the
FVRA would confer appointment authority on the
President, and its use of the word “direct” was sufficient to confer that authority.
The Coalition’s separate argument that Whitaker
cannot be an inferior officer because his duties are
only temporary fails for a more elementary reason: if
the temporary nature of Whitaker’s duties prevented
him from becoming an officer, then the temporary nature of his duties also prevented him from needing an
appointment at all—under the FVRA or otherwise.
The Coalition relies primarily on Lucia, in which the
Supreme Court explained that “an individual must
occupy a ‘continuing’ position established by law to
qualify as an officer.” Lucia, 138 S.Ct. at 2051. But
that decision merely established who must be appointed by a President, court, or department head;
not who may be. In any event, Eaton makes clear
that the temporary nature of acting duties cures any
constitutional problem; it does not create one. To the
extent the Coalition contends that officers must hold
permanent positions and that there is no exception

C81

for acting principal officers, then acting officials are
not officers and Whitaker did not need to be appointed at all. Cf. Peters, 2018 WL 6313534, at *4 n.11
(“[T]he Supreme Court’s delineation of constitutional
‘Officer’ characteristics suggests that an ‘Acting’ official could be considered a ‘lesser functionar[y]’ employee for which ‘the Appointments Clause cares not
a whit about who named them.’ ” (quoting Lucia, 138
S.Ct. at 2051) ). For these reasons, the Coalition is
unlikely to succeed on these final challenges to the
bump stock rule.
CONCLUSION
Because the plaintiffs have not met their burden of
showing entitlement to a preliminary injunction, the
Court denies their motions.

APPENDIX D
762 Fed.Appx. 7 (Mem)
This case was not selected for publication in West’s
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. D.C.Cir.
Rule 32.1 and Rule 36.
United States Court of Appeals, District of Columbia
Circuit.
Damien GUEDES, et al., Appellants
Firearms Policy Coalition, Inc., CA 18-3083, Appellee
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS
AND EXPLOSIVES, et al., Appellees
No. 19-5042
September Term, 2018
Consolidated with 19-5044
Filed On: April 1, 2019
Appeals from the United States District Court for the
District of Columbia (No. 1:18-cv-02988-DLF), (No.
1:18-cv-03086-DLF)
Before: Henderson, Srinivasan and Millett, Circuit
Judges
JUDGMENT
Per Curiam
(D1)

D2

*8 These causes came to be heard on the record on
appeal from the United States District Court for the
District of Columbia and were argued by counsel. On
consideration thereof, it is
ORDERED and ADJUDGED that the District
Court’s denial of the preliminary injunction appealed
from in these causes be affirmed, in accordance with
the opinion of the court filed herein this date. It is
FURTHER ORDERED that the administrative
stay of the effective date of the Bump Stock Rule, 83
Fed. Reg. 66,514 (Dec. 26, 2018), that was entered on
the court’s own motion on March 23, 2019, will remain in effect for 48 hours from the time of the issuance of the opinion in this case to allow plaintiffs, if
they wish, to seek a stay from the Supreme Court of
the United States. Should plaintiffs do so, the administrative stay will remain in effect pending disposition of the stay application. Plaintiffs are directed to
notify the court promptly should an application for a
stay be filed. It is
FURTHER ORDERED that Codrea plaintiffsappellants’ notice of voluntary dismissal of Whitakerbased claim in *9 No. 19-5044, construed by the court
as a motion for voluntary dismissal, be denied.
The Clerk is directed to withhold issuance of the
mandate pending resolution of any stay application
filed in the Supreme Court. Plaintiffs are directed to
notify the court promptly of the disposition of a stay
application. If plaintiffs do not seek a stay from the
Supreme Court, the Clerk is directed to issue the
mandate 48 hours after the opinion in these consoli-

D3

dated cases issues. See Fed. R. App. P. 41(b); D.C.
Cir. Rule 41(a)(1).
Opinion concurring in part and dissenting in part
filed by Circuit Judge Henderson.

APPENDIX E
2019 WL 1398194
Only the Westlaw citation is currently available.
United States Court of Appeals, District of Columbia
Circuit.
Damien GUEDES, et al., Appellants
Firearms Policy Coalition, Inc., CA 18-3083, Appellee
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS
AND EXPLOSIVES, et al., Appellees
No. 19-5042
Consolidated with 19-5043, 19-5044
September Term, 2018
Filed On: March 23, 2019
1:18-cv-02988-DLF, 1:18-cv-03086-DLF
ORDER
Per Curiam
*1 Plaintiffs in these three consolidated cases challenge a final agency rule banning Bump-Stock-Type
Devices, 83 Fed. Reg. 66514 (Dec. 26, 2018) (“BumpStock Rule”), which is scheduled to take effect on
March 26, 2019. On February 25, 2019, the district
court denied the plaintiffs’ joint request for a preliminary injunction staying the Bump-Stock Rule’s effective date. On March 1, 2019, this court granted the
Appellants’ joint motion for expedition of this case, in
(E1)

E2

which they sought resolution of the appeal on a highly expedited basis before the March 26, 2019, effective date. Under that expedited schedule, this case
was argued on March 22, 2019. At oral argument,
counsel for the government explained that it was now
its position that the Bump Stock Rule’s March 26,
2019 effective date should be viewed as the date
when the government will cease exercising its prosecutorial discretion not to enforce federal law against
those who possess or trade in bump-stock-devices
covered by the Bump-Stock Rule. Oral Arg. 49:0051:55. Following oral argument, the Firearms Policy
Coalition, Inc. filed a voluntary motion to dismiss its
appeal, or in the alternative to stay its appeal, and
advised that the government opposes the motion to
dismiss. In light of these representations, it is
ORDERED that the motion of the Firearms Policy
Coalition, Inc., to dismiss its appeal, No. 19-5043, be
granted. Appeal No. 19-5043 is hereby dismissed. It
is
FURTHER ORDERED, on the court’s own motion, that the effective date of the Bump-Stock Rule,
83 Fed. Reg. 66514 (Dec. 26, 2018), be administratively stayed in its application only as to the named
Appellants in appeals Nos. 19-5042 and 19-5044,
pending further order of this Court. The purpose of
this stay is exclusively to give the Court sufficient
opportunity to consider the disposition of this highly
expedited appeal, and should not be construed in any
way as a ruling on the merits of the appeal. See D.C.
Circuit Handbook of Practice and Internal Procedures 33 (2018).

E3

The Clerk is directed to issue the mandate forthwith in No. 19-5043 only.

